<html>
<title> - TRANSITIONING THE ENVIRONMENTAL MEASUREMENTS LABORATORY TO THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                    TRANSITIONING THE ENVIRONMENTAL
                     MEASUREMENTS LABORATORY TO THE
                    DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2007

                               __________

                           Serial No. 110-25

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE

34-908 PS                  WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001









                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona           VACANCY
CHARLES A. WILSON, Ohio
                                 ------                                

              Subcommittee on Investigation and Oversight

               HON. BRAD MILLER, North Carolina, Chairman
JERRY F. COSTELLO, Illinois          F. JAMES SENSENBRENNER JR., 
EDDIE BERNICE JOHNSON, Texas             Wisconsin
DARLENE HOOLEY, Oregon               DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        TOM FEENEY, Florida
BRIAN BAIRD, Washington              MICHAEL T. MCCAUL, Texas
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
                  EDITH HOLLEMAN Subcommittee Counsel
            JAMES PAUL Democratic Professional Staff Member
          DOUG PASTERNAK Democratic Professional Staff Member
           KEN JACOBSON Democratic Professional Staff Member
            TOM HAMMOND Republican Professional Staff Member
                    STACEY STEEP Research Assistant


























                            C O N T E N T S

                              May 3, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Michael T. McCaul, Acting Ranking 
  Minority Member, Subcommittee on Investigations and Oversight, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    12

Prepared Statement by Representative F. James Sensenbrenner Jr., 
  Ranking Minority Member, Subcommittee on Investigations and 
  Oversight, Committee on Science and Technology, U.S. House of 
  Representatives................................................    12

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science and Technology, U.S. House of Representatives..........    13

                                Panel 1:

Mr. Charles F. McBrearty, Jr., Former Director of Materials 
  Technology, Air Force Technical Applications Center, Patrick 
  Air Force Base
    Oral Statement...............................................    14
    Written Statement............................................    15
    Biography....................................................    17

Dr. M. Anthony Fainberg, Former Program Manager, Radiological and 
  Nuclear Countermeasures, Office of Research and Development, 
  Science and Technology Directorate, U.S. Department of Homeland 
  Security
    Oral Statement...............................................    17
    Written Statement............................................    20
    Biography....................................................    25

Ms. Lynn Albin, Radiation Health Physicist, Office of Radiation 
  Protection, Washington State Department of Health
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    34

Mr. Jonathan A. Duecker, Assistant Commissioner, New York City 
  Police Department, Counterterrorism Bureau
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    38

Discussion
  Air Force Programs With the Environmental Measurements 
    Laboratory (EML).............................................    38
  EML's Role in the Department of Homeland Security (DHS)........    40
  EML and Counterterrorism in New York City......................    41
  DHS' Decision to Close EML.....................................    42
  More on Air Force Programs With EML............................    44
  EML's Global Sensors: North Korea..............................    45
  New York City First Responder Community........................    46
  EML Funding....................................................    47
  The Neutron Ship Effect........................................    48
  Dirty Bombs....................................................    49
  The Quality Assessment Program (QAP)...........................    49

                                Panel 2:

Dr. John F. Clarke, Deputy Director, Office of National 
  Laboratories, Science and Technology Directorate, U.S. 
  Department of Homeland Security
    Oral Statement...............................................    51
    Written Statement............................................    52

Discussion
  More on DHS' Decision to Close EML.............................    57
  The National Nuclear Security Administration...................    58
  More on DHS' Decision to Close EML.............................    59
  Limited DHS Science & Technology Directorate Funding...........    61
  More on the First Responder Community in New York City.........    63
  More on DHS' Decision to Close EML.............................    65

                                Panel 3:

Mr. Vayl S. Oxford, Director, Domestic Nuclear Detection Office, 
  U.S. Department of Homeland Security
    Oral Statement...............................................    68
    Written Statement............................................    68
    Biography....................................................    70

Admiral Jay M. Cohen, Under Secretary, Science and Technology 
  Directorate, U.S. Department of Homeland Security
    Oral Statement...............................................    70
    Written Statement............................................    72
    Biography....................................................    73

Discussion
  DHS' Assessment of EML.........................................    73

              Appendix: Additional Material for the Record

Documents for the Record.........................................    80




















 
    TRANSITIONING THE ENVIRONMENTAL MEASUREMENTS LABORATORY TO THE 
                    DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                         THURSDAY, MAY 3, 2007

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                    Transitioning the Environmental

                     Measurements Laboratory to the

                    Department of Homeland Security

                         thursday, may 3, 2007
                          10:00 a.m.-1:30 p.m.
                   2318 rayburn house office building

Purpose

    The Environmental Measurements Laboratory (EML), located in New 
York City, was transferred from the Department of Energy to the 
Department of Homeland Security's Science & Technology Directorate in 
2003, under Section 303 of the Homeland Security Act of 2002. The 
laboratory--established in 1947--was ostensibly transferred because of 
its expertise in low level radioactive measurements, analysis and 
assessments and its ability to significantly contribute to the S&T 
Directorate's responsibilities as envisioned in Section 302 of the 
Homeland Security Act of 2002 to develop countermeasures to 
radiological and nuclear terrorist threats; conduct basic and applied 
research, development, demonstration, testing, and evaluation 
activities relevant to DHS; detect, prevent, protect against and 
respond to terrorist attacks; and to transfer relevant technologies or 
abilities to Federal, State, local governments and private sector 
entities.
    When Congress transferred this laboratory from DOE to DHS, there 
was a logical expectation that a lab which specialized in radiation 
detection and supported the work of State and local officials and 
first-responders would be a natural fit with an agency which was 
charged with protecting the country from radiological threats. Having a 
federal radiation detection laboratory located in the heart of New York 
City, which after the 9/11 attack was clearly in the top tier of 
potential targets for terrorists, seemed like an important asset for 
DHS.
    Yet since its transfer to DHS, the Environmental Measurements 
Laboratory has largely been left to flounder. Rather than exploiting 
and expanding the unique skills and capabilities of the laboratory that 
could have clearly contributed to some of DHS' most important work, DHS 
has terminated, transferred and curtailed key EML programs. Top 
management at DHS also spent an inordinate amount of time, energy and 
resources planning for the lab's ultimate closure. By 2007, the DHS 
Science & Technology Directorate had stripped the lab of its 
radioisotope chemical analysis labs critical for the continuation of 
its radiochemistry Quality Assessment Program (QAP) praised by both 
State and federal participants as directly contributing to homeland 
security efforts. Other projects EML initiated with local first 
responders in New York City, including a network of roof-top radiation 
sensors, have been halted. Other programs have been started, stopped 
and then transferred. In one of DHS's most astounding decisions, it 
terminated the lab's entire global radiation monitoring network--in 
existence since 1963--and halted plans to install a new EML built 
radiation monitor in China, near the North Korean border in October 
2005. This occurred one year before the North Korean nuclear test.
    Congress never intended for the lab's programs to be disbanded, or 
that the laboratory be closed. The detailed plans to close the lab, 
first initiated in 2005, were never signed by the Under Secretary of 
Science and Technology, Charles McQueary. Admiral Jay Cohen, who took 
over that post last August, has told the Committee staff that he now 
intends to put the lab on a new path and anticipates making it a valued 
DHS asset.
    In the 107th Congress, the Committee on Science played a key role 
in drafting the legislation that established the Department of Homeland 
Security, particularly in creating the S&T Directorate. As a result, 
the Subcommittee's oversight role regarding the S&T Directorate is 
particularly important. Up until now, the seemingly intentional actions 
by DHS to strip the Environmental Measurements Laboratory--a critical 
national asset--of its programs, projects and activities have occurred 
within the inner sanctum of the S&T Directorate without any explanation 
to Congress or the public of the rationale for these inexplicable 
actions. In fact, even as the S&T Directorate was drafting plans to 
close the laboratory and DHS-hired contractor Booz Allen Hamilton was 
writing up a ``communications plan'' on the ``message'' DHS was 
planning to disseminate to both Congress and the public about why the 
lab was being closed, the S&T Directorate was telling Congress that 
they expected the EML to ``serve an enduring role'' in supporting DHS.
    The Subcommittee hearing will seek to obtain a fuller public 
disclosure of how and why DHS terminated many of the lab's programs, 
why the S&T Directorate was unable--or unwilling--to chart a new course 
for the Environmental Measurements Laboratory and who was responsible 
for undermining the success of the EML since it was transferred to DHS. 
The Subcommittee hearing will fully examine the issues that have led to 
the termination and transfer of some of the lab's programs that could 
have played a critical role in both homeland and national security-
related issues. The conditions leading to the laboratory's current 
state need to be examined, resolved and prevented from occurring again. 
Although Admiral Cohen has recently pledged not to close the lab, it is 
important that the Subcommittee ensure that the S&T Directorate has a 
detailed strategic plan and clear vision for the lab that will ensure 
they fully utilize the EML in the future.

Background of the Environmental Measurements Laboratory

    The Environmental Measurements Laboratory--which has undergone 
several name changes since it was first established in 1947 as the 
Medical Division of the Atomic Energy Agency--moved into its current 
location in Manhattan in 1957. Within the Department of Energy the 
small laboratory moved from the Office of Energy Research to the Office 
of Environmental Management in 1997 to focus on environmental 
monitoring, decommissioning and decontamination efforts around the 
Nation's nuclear weapons complex. Unlike the much larger DOE 
laboratories, including Los Alamos, Lawrence Livermore and Pacific 
Northwest National Laboratory, the EML has always received much less 
notice, financial support and attention. To some degree, it was never 
able to compete with these other larger, better equipped, multi-purpose 
laboratories within the DOE complex. Still, the EML developed world 
renowned capabilities in low-level radiation measurements and has been 
praised by State and federal officials for their contribution to both 
homeland security and national security-related programs.
    The lab's scientists and engineers have designed and fabricated 
unique radiation detection instruments, played a major role in 
evaluating the impact of environmental contamination from nuclear 
weapons fallout and developed a global network of radiation sensors 
that performed a critical role in U.S. and international nuclear non-
proliferation efforts. In the 1970s the EML established a 
radiochemistry Quality Assessment Program (QAP) that grew to include 
the participation of more than 150 labs, and they provided a support 
role for DOE's Nuclear Emergency Search Teams, whose task is to locate 
and disable nuclear weapons or radiological dispersal devices in the 
U.S. and abroad.
    But one walk down the lab's hallways today and it is evident the 
lab has received only minimal upgrades since it moved to its current 
location five decades ago. Its peak staff of about 120 employees also 
dropped by half by the time it was transferred to DHS in 2003. The cost 
of maintaining the large facility in Manhattan has been significant. In 
addition, some employees who were nearing retirement had become 
stagnant in their positions. Yet, the Environmental Measurements 
Laboratory developed an unquestioned world renowned reputation for 
radiation analysis. Its non-proliferation and quality assurance 
programs, which began in the 1960s and 1970s and were still active when 
the lab moved to DHS, had no equals either in the Federal Government or 
commercial sector.

Quality Assessment Program (QAP)

    The Environmental Measurements Laboratory established the Quality 
Assessment Program (QAP) in 1976 to perform ``quality assurance'' or 
``performance evaluation'' tests designed to assess the accuracy of 
radiological measurements reported by radiochemistry laboratories. 
Department of Energy contractor laboratories were required to 
participate in the program. But other non-DOE laboratories, including 
federal agencies, commercial laboratories and State public health labs 
from California, Washington, Wisconsin, Texas, Tennessee, Illinois, 
Georgia, Idaho, Kansas, New York and New Jersey, also participated, 150 
laboratories in all. When EML was transferred to DHS, EML scientists 
attempted to sharpen the QAP's focus on emergency response 
capabilities, rather than routine environmental analysis. But DHS 
terminated the program in 2004. Most disturbing is that in interviews 
with Subcommittee staff Caroline Purdy, Former Acting Director of the 
Office of National Laboratories in the S&T Directorate, who directed 
that the program be closed, was completely unaware of what the Quality 
Assessment Program actually did or how it might play a role within DHS. 
``I don't remember any meetings discussing QAP,'' said Purdy. She said 
that QAP was an ``old program'' that had been around a long time and 
that her ``general assumption was that the DOE National Labs would do 
this.'' John Clarke, Deputy Director of the Office of National 
Laboratories, also clearly saw no value in the QAP or its relevance to 
homeland security issues and also seemed unclear on what the program 
actually did. His justification for seeking its closure was that it was 
another ``self generating'' task that EML had developed.
    Ironically, the S&T Directorate began the shut down of QAP and 
EML's chemistry laboratories at a time when DHS was standing up a new 
interagency organization dubbed the Integrated Consortium Laboratory 
Network or ICLN. Government officials from the Department of Energy, 
National Institutes of Standards and Technology and Environmental 
Protection Agency told Subcommittee staff that they believe EML's 
Quality Assessment Program would have been a key asset and perfect fit 
in the newly formed ICLN organization to coordinate proficiency testing 
at radiochemistry labs.
    The Environmental Measurements Laboratory's QAP chemistry labs are 
now in the final stages of decommissioning. In the process the lab has 
donated or disposed of more than $1.7 million worth of equipment. The 
Food and Drug Administration and U.S. Secret Service took some of the 
radiation samples and the EML donated $6,000 of brand new flasks and 
beakers to Stuyvesant High School in New York City. Dr. Damon Chaky, a 
scientist at the Pratt Institute received two gamma radiation detectors 
valued at $20,000 each.

Global Monitoring Program

    Since 1963, the Environmental Measurements Laboratory had 
developed, fabricated and maintained a global network of low-level 
radionuclide sensors. The EML monitoring system was the most extensive 
and comprehensive low-level radionuclide sampling network in the world, 
comprised of a Global Fallout Program, Surface Air Sampling Program 
(SASP) and Remote Atmospheric Measurements Program (RAMP). The network 
included more than 70 monitoring sites in the U.S. and abroad, 
including Antarctica, Australia, the Bahamas, Bolivia, Chile, China, 
France, Greenland, Panama, Singapore, South Africa, Turkmenistan, the 
United Kingdom, Uruguay and Venezuela. The network has been used 
extensively by scientists to validate global meteorological and 
atmospheric transport models. But the system also collected data that 
assisted U.S. and international nuclear non-proliferation efforts, 
helping to rapidly identify any new sources of radiological activities 
due to accidental releases or nuclear weapons tests.
    In January 2002 EML established a monitoring station in Guiyang in 
southwest China and in April 2002 it established a second site at Mt. 
Waliguan. In August 2003, EML also installed a RAMP system in Ryori, 
Japan. The lab had plans to install a new radiation detector at Long 
Feng Shan in China, near the North Korean border that would have been 
installed in early 2006. But DHS terminated the lab's entire global 
radiation monitoring program in October 2005, including its plans to 
install a new detector near the North Korean border. This was 
particularly unfortunate, since North Korea conducted a nuclear weapons 
test in October 2006. Although portions of the program were classified, 
the significance of the program to U.S. nuclear non-proliferation 
efforts would have appeared obvious to anyone who had looked.
    The EML sent e-mails to the sites maintaining the radiation 
detectors and informed those involved that they should dispose of the 
EML radiation sensors in accordance with local laws. Much of the 
equipment was old and it would have been too expensive to pack them up 
and return them to EML. The new radiation sensor that EML had planned 
to install at Long Feng Shan, China, near the North Korean border was 
never fully assembled and pieces of that planned detector remain at EML 
today.
    With the specialized skills that the lab's core group of scientists 
and engineers possessed and their ability to design, fabricate and 
manufacture unique radiation sensors and their history of developing 
and producing plans and protocols for measuring and identifying 
radioactive isotopes it is particularly disturbing that S&T Managers 
could not envision how this laboratory--based in the heart of 
Manhattan--could have contributed to DHS. Instead, the lab's newly 
proposed projects were rejected, its former programs were terminated 
and its ability to function at virtually any level was micromanaged to 
the extreme. No one, it seems, in the S&T Directorate had a clear 
understanding of what some of the lab's most impressive programs did or 
how they might play a role in homeland security. Instead, they were 
viewed as not being part of the ``DHS mission'' and were terminated. 
The leadership chasm that existed in the S&T Directorate was chilling.
    In fact, it is not clear how the S&T Directorate expected EML to 
thrive, even function, within the Department of Homeland Security given 
the constraints that were placed on them. It's extraordinarily telling, 
for instance, that the lab had no computer access to the DHS Intranet 
until 2005, two years after EML transferred to DHS. Even then, EML was 
only provided with four computers that could access the DHS Intranet 
and one printer, despite the fact they had more than 40 employees. John 
Clarke also prevented DHS employees from attending conferences and 
routinely questioned their travel plans. Documents DHS provided to the 
Subcommittee show Clarke did this because of concerns over the 
laboratory's financial management. But even Marc Mandler, former 
Technical Director of the U.S. Coast Guard Research & Development 
Center, who was detailed to DHS for a short four month tour in 2004 and 
reviewed the lab's capabilities, along with Clarke, believed the 
financial microscope that was placed on EML was ``very extreme,'' he 
said. ``They could not even buy toilet paper,'' said Mandler, half-
joking.
    In the critical Mandler/Clarke review that was concluded in October 
2004, Marc Mandler says he provided an honest assessment of what he 
encountered during his short tenure at DHS, but acknowledges that he 
did not speak to individuals outside of EML to get their perspective on 
the lab or work the lab had done for them. Mandler, who is well 
respected, said he felt that many of the EML employees were steadfastly 
resistant to change and unable to tailor their work towards their new 
mission at the Department of Homeland Security. But he did believe the 
staff that was willing to move in this direction were technically 
proficient, could contribute to homeland security efforts and that the 
lab had strategic value because of its location in the midst of New 
York City. Mandler says he respected John Clarke, but also says that 
the way the DHS S&T Directorate managed the Environmental Measurements 
Laboratory had a lot to be desired. ``It was micromanagement without 
direction,'' said Mandler.

Witnesses

    The Subcommittee hearing will use three separate panels to tell the 
story of the Environmental Measurements Laboratory and to explore and 
explain the systemic mismanagement that occurred on the part of the 
Science & Technology Directorate in supervising, managing and leading 
the laboratory.

    Panel 1 will be composed of individuals from local, State and 
Federal Government agencies that have utilized the services of EML as 
well as a former DHS official in the S&T Directorate who quit over the 
way, he believed, the laboratory was being mistreated. Two of these 
witnesses have had programs they relied on with the EML terminated by 
the Department of Homeland Security. Mrs. Lynn Albin, Radiation Health 
Physicist, Office of Radiation Protection, Washington State Department 
of Health, utilized EML's QAP for nearly two decades. She will address 
the significance this program had on preparing her agency for the DHS-
led TOPOFF2 counterterrorism exercise in 2003. Mr. Charles F. 
McBrearty, Jr., Former Director of Materials Technology, Air Force 
Technical Applications Center, Patrick Air Force Base, Florida, just 
retired last month from the Air Force. He had a relationship with EML 
for nearly three decades and took a trip to DHS Headquarters in D.C. to 
make the case that EML was a critical asset and that in his experience 
they were ``the masters of the universe in terms of radiation 
measurements.'' Despite that, DHS terminated all of EML's work for the 
Air Force. Assistant Commissioner Jonathan A. Duecker, New York Police 
Department, Counterterrorism Bureau, will describe the work that EML 
has been performing for first responders in the New York region since 
9.11. Dr. Tony Fainberg, Former Program Manager, Radiological & Nuclear 
Countermeasures, Office of Research and Development, Science & 
Technology Directorate, Department of Homeland Security, will describe 
how he believed many of EML's programs could have benefited DHS. 
Fainberg witnessed many of the lab's programs killed off by the S&T 
Directorate and he eventually quit when he concluded that the 
directorate was intent on closing the laboratory.

    The sole witness for Panel 2 is Dr. John F. Clarke, Deputy 
Director, Office of National Laboratories, Science & Technology 
Directorate, Department of Homeland Security. Clarke is a Pacific 
Northwest National Laboratory employee detailed to the S&T Directorate, 
and is a key player in the ultimate degradation of the Environmental 
Measurements Laboratory's capabilities and programs.

    Panel 3 will look ahead to the Environmental Measurements 
Laboratory's future. Admiral Jay M. Cohen, Under Secretary for Science 
and Technology, Department of Homeland Security and Mr. Vayl Oxford, 
Director, Domestic Nuclear Detection Office, Department of Homeland 
Security will both discuss what role they see for the lab moving 
forward.

Conclusion

    The history of the Environmental Measurements Laboratory--in the 
four years since it was transferred to the Department of Homeland 
Security--should serve as a case study of government mismanagement and 
incompetence. Once a valued critical asset, the lab has been stripped 
of some of its most successful and important programs and sorely 
mischaracterized by a small handful of officials in the S&T 
Directorate. John Clarke particularly served as a funnel through which 
information about EML flowed to many others within the S&T Directorate. 
His motivations may never be clear, but Clarke's mischaracterization of 
the Environmental Measurements Laboratory, the skills of its staff and 
the lab's programmatic capabilities are unmistakable. Subcommittee 
staff found that he has misconstrued conversations with both local 
first responders and non-DHS federal agencies about their stated 
positions regarding specific EML projects that Clarke eventually 
terminated. Even worse, Maureen McCarthy, Clarke's supervisor and the 
former Director of the Office of Research and Development (ORD) within 
the DHS S&T Directorate told Subcommittee staff that John Clarke had no 
``programmatic role'' in the S&T Directorate. If he was involved in 
making programmatic decisions about the EML, said McCarthy--which he 
clearly and repeatedly was--this was outside of his set of 
responsibilities.
    But McCarthy had been made aware of Clarke's propensity to overstep 
his lines of authority, particularly when it came to management of the 
Environmental Measurements Laboratory, by at least two DHS officials in 
2005, including Tony Fainberg. Responsibility for reigning in the 
detrimental actions by John Clarke regarding EML clearly fell to her. 
While McCarthy says she spoke to Clarke about some of his actions, it 
clearly had little if any impact. Clarke managed to terminate EML's 
work for the Air Force, for example, even after those conversations. In 
fact, Tony Fainberg ended up quitting his position in the S&T 
Directorate partly because of the actions of John Clarke and partly 
because no one above Clarke was willing to prevent him from essentially 
destroying the programs, resources and morale at the Environmental 
Measurements Lab.
    Admiral Cohen has told Subcommittee staff that he has no plans to 
close EML. He intends to maintain the lab's presence in New York City 
and to re-emphasize the lab's core mission towards the Testing & 
Evaluation (T&E) of equipment. This is a role the lab has taken on 
since 9.11 on an ad hoc basis for the New York and New Jersey first 
responder community in any event. Admiral Cohen sees EML becoming one 
of the premier testing and evaluation centers for DHS nationwide, he 
says. In addition, the Domestic Nuclear Detection Office (DNDO) intends 
to utilize about ten of the EML staff in the Countermeasures Test Bed 
(CMTB) and other related efforts that focus on the detection and 
identification of radiological threat material in the New York area.
    It is encouraging that after more than four years the S&T 
Directorate seems to finally have some direction for the Environmental 
Measurements Laboratory. Up until now the laboratory has been left 
rudderless without a paddle. Admiral Cohen has emphasized that he wants 
to maintain the intellectual capital of EML's employees. Unfortunately, 
many of the lab's cadre of scientists and engineers have already 
retired or resigned since the lab was transferred into DHS. When the 
lab was transferred to DHS they had 54 employees, 12 with Ph.D.s and 18 
with Master's degrees. Today the lab has 35 employees, seven with 
Ph.D.s and 11 with Master's degrees. Damage to the intellectual capital 
of the laboratory has already occurred, but Admiral Cohen can still 
help stem the flow.
    The S&T Directorate--led by Admiral Cohen--now has an opportunity 
to clearly lead the lab into the future by providing them with clear 
guidance, renewed encouragement about their ability to contribute to 
the Nation's security and by obtaining a much clearer understanding of 
the skills and abilities of the lab's remaining personnel and how they 
can be utilized to their full potential. The lab has been left to 
wither for too long, staff has fled and critical programs have been 
inexplicably terminated. Admiral Cohen has an opportunity to curtail 
the damage that has already been done and begin a positive path forward 
that will benefit the lab, its employees, DHS and the Nation.
    Chairman Miller. Good morning. The Committee will come to 
order for the hearing on transitioning the Environmental 
Measurements Laboratory to the Department of Homeland Security.
    We learned from Hurricane Katrina that we were woefully 
unprepared for an entirely foreseeable natural disaster. The 
failures of our response expose the sorry state of our 
emergency preparedness. Many of us wondered what else was 
suffering from similar neglect that we might only learn of if 
something goes horribly wrong?
    Today the Subcommittee is going to review the management of 
the Environmental Measurements Lab by the Department of 
Homeland Security's Science and Technology Directorate. It 
appears that we have stunningly neglected our obvious national 
security and homeland security need to detect and measure 
radiation, hindering our ability to respond to nuclear 
proliferation around the world and here in the United States, 
to prevent and respond to the detonation of a dirty bomb, a 
promise that terrorist groups have telegraphed for years. And 
while we are spending billions to develop the technology to 
intercept a missile in the air, to hit a bullet with a bullet, 
a task that many think is a fool's errand, we have shortchanged 
research to develop the technology to prevent a nuclear device 
from being smuggled into the United States and detonated in an 
American city, a far more likely event.
    EML has specialized in radiation detection analysis for 60 
years. It traces its roots to the Manhattan Project. It should 
have been a welcome asset and a natural fit for an agency 
chartered with protecting our country from radiological 
threats. Instead, detailed plans to close the lab were 
concealed from both the EML staff and Congress. Critical 
national security programs at the lab were terminated and the 
lab's employees to be left to wonder about their future for the 
past four years without any clear direction or decisions from 
the Department of Homeland Security.
    When the Environmental Measurements Laboratory was 
transferred to Homeland Security from the Department of Energy 
in 2003, Congress expected that the laboratory would add value. 
Beginning with the work on the Manhattan Project, EML 
scientists developed a world-renown expertise in low-level 
radiation measurement, a skill that would be of critical value 
to both help prevent and respond to potential radiological or 
nuclear terrorist attack. Instead of exploring and expanding 
unique skills and the capabilities of the laboratory in a 
strategic location in Manhattan, Homeland Security's S&T, 
Science and Technology, Directorate soon proceeded to reject 
the lab's proposals for future work and terminated its existing 
programs.
    S&T managers downplayed, dismissed, disparaged the 
capabilities of the lab, arguing that it had no real unique 
skills, had low credibility in the view of local first 
responders, and could not compete with other larger national 
laboratories. Our first panel today is composed of local, State 
and federal, officials and a former DHS manager. They will 
provide a contrary view to that assessment. We will also 
examine some of EML's key programs that were terminated. One of 
those was the lab's worldwide radiation monitoring program.
    Beginning in 1963, EML had built a global network of low-
level radiation sensors that were used by scientists to 
validate global atmospheric transport models. But the system 
also played a key role in nuclear nonproliferation efforts, 
rapidly identifying any new sources of radiological activities 
from nuclear weapons tests. The lab had installed two radiation 
monitors in China in 2002 and had plans to install a new one, a 
new detector in China, near the North Korean border, in early 
2006. But on October 1, 2005, the program was terminated by 
DHS. Almost exactly a year later, on October 9, 2006, North 
Korea carried out a nuclear weapons test. It is hard to know 
how valuable the EML's Global Monitoring Program, and 
particularly its new radiation sensor, would have been in 
helping determine the sophistication of the North Korean 
nuclear test. We only know that because of DHS's action, the 
sensor was not in place and remains unassembled at EML today.
    In 2005, DHS also stripped EML of its radioisotope chemical 
analysis labs, critical for the continuation of its 
radiochemistry Quality Assessment Program. That is pronounced 
QAP. It sounds like Elmer Fudd using a mild profanity--QAP. It 
is praised by both State and federal participants as directly 
contributing to homeland security efforts. This program helped 
ensure the results produced by radiochemistry tests by 
radiochemistry labs, whose task is to analyze radioactive 
samples whether from a nuclear facility or in response to 
radiological attack, were accurate.
    Some projects EML initiated with local first responders in 
New York City, including a network of rooftop radiation 
sensors, were halted by DHS. Other programs were started and 
stopped and then transferred. The way the EML has fared since 
being transferred to DHS shows an appalling lack of leadership 
at DHS S&T Directorate. The lack of clear decisions and 
direction regarding EML permitted a haphazard approach and its 
programs to fester within the S&T Directorate. And as a result, 
the lab's programs were decimated and its staff demoralized and 
a seemingly reckless disregard for how the lab's skills and 
projects could have benefited DHS, other federal agencies or 
the Nation.
    Top S&T managers responsible for terminating some of the 
lab's key programs had no idea what those programs actually did 
and had no discussions about how they might benefit DHS. In 
addition, S&T managers squandered an inordinate amount of time 
and effort planning for the demise of the EML laboratory, 
rather than attempting to determine how the lab might be 
effectively used and its staff successfully employed to 
contribute to DHS. Because of all of these actions, the lab has 
been left in limbo. Many of its programs have been terminated, 
new projects halted, the skills and capabilities of its 
employees disparaged, and its staff reduced by a third.
    The Subcommittee hopes that EML and the leadership of S&T 
Directorate have turned the corner and we can now expect some 
positive change in the future. Our last panel today will look 
at the lab's future role in DHS. The vast majority of those 
actions did not occur under Under Secretary of Science and 
Technology Admiral Cohen's watch. The Subcommittee is pleased 
that the new leadership of the S&T Directorate appears willing 
to utilize a lab that many have referred to as a national 
asset. Again, we appreciate that the S&T Directorate and the 
Domestic Nuclear Detection Office will work together to employ 
fully the skills of the staff at the Environmental Measurements 
Laboratory.
    And now I would like to recognize the Ranking Member, Mr. 
McCaul, for his opening statement.
    [The prepared statement of Chairman Miller follows:]
               Prepared Statement of Chairman Brad Miller
    Good morning.
    We learned from Hurricane Katrina that we were woefully unprepared 
for an entirely foreseeable natural disaster. The failures of our 
response exposed the sorry state of our emergency preparedness.
    Many of us wondered what else was suffering from similar neglect 
that we might only learn of if something else goes horribly wrong.
    Today, the Subcommittee is going to review management of the 
Environmental Measurements Laboratory (EML) by the Department of 
Homeland Security's Science & Technology Directorate. It appears that 
we have stunningly neglected our obvious national security and homeland 
security need to detect and measure radiation, hindering our ability to 
respond to nuclear proliferation around the world, and here in the 
United States to prevent or respond to the detonation of a ``dirty 
bomb,'' a punch that terrorist groups have telegraphed for years. And 
while we are spending billions to develop the technology to intercept a 
missile in the air, we have shortchanged research to develop the 
technology to prevent a nuclear device from being smuggled into the 
United States and detonated in an American city, a far more likely 
event.
    EML has specialized in radiation detection and analysis for 60 
years. It traces its roots to the Manhattan Project. It should have 
been a welcomed asset and natural fit for an agency charged with 
protecting the country from radiological threats. Instead, detailed 
plans to close the lab were concealed from both the EML staff and 
Congress, critical national security programs at the lab were 
terminated and the lab's employees have been left to ponder their 
future fate for the past four years without any clear direction or 
decisions from DHS.
    When the Environmental Measurements Laboratory was transferred to 
Homeland Security from the Department of Energy in 2003, Congress 
expected that the laboratory would add value. Beginning with their work 
on the Manhattan Project, EML's scientists developed a world renowned 
expertise in low-level radiation measurement, a skill that would be of 
critical value to both help prevent and respond to a potential 
radiological or nuclear terrorist attack. But, instead of exploiting 
and expanding the unique skills and capabilities of the laboratory and 
its strategic location in New York City, Homeland Security's S&T 
Directorate soon proceeded to reject the lab's proposals for future 
work and terminated its existing programs.
    S&T managers downplayed, dismissed and disparaged the capabilities 
of the lab arguing that it had no unique skills, had low credibility in 
the view of the local first responders it worked with and could not 
compete with other larger national laboratories. Our first panel today 
is composed of local, State and federal officials and a former DHS 
program manager. They will provide a contrary view to that assessment.
    We will also examine some of EML's key programs that were 
inexplicably terminated. One of those was the lab's worldwide radiation 
monitoring program. Beginning in 1963, EML had built a global network 
of low-level radiation sensors that was used by scientists to validate 
global atmospheric transport models. But the system also played a key 
role in nuclear non-proliferation efforts, rapidly identifying any new 
sources of radiological activities from nuclear weapons tests. The lab 
had installed two radiation monitors in China in 2002 and had plans to 
install a new detector in China near the North Korean border in early 
2006. But on October 1, 2005, the program was terminated by DHS. Almost 
exactly a year later, on October 9, 2006, North Korea carried out a 
nuclear weapons test. It is hard to know how valuable the EML global 
monitoring program and particularly its new radiation sensor that the 
lab had planned to install near the North Korean border would have been 
in helping to determine the sophistication of the North Korean nuclear 
test. We only know that, because of DHS's actions, the sensor was not 
in place and sits unassembled at EML today.
    In 2005, DHS also stripped EML of its radioisotope chemical 
analysis labs critical for the continuation of its radiochemistry 
Quality Assessment Program (QAP) praised by both State and federal 
participants as directly contributing to homeland security efforts. 
This program helped ensure that the results produced by radiochemistry 
labs--whose task is to analyze radioactive samples whether from a 
nuclear facility or in response to a radiological attack--are accurate. 
Some projects EML initiated with local first responders in New York 
City, including a network of roof-top radiation sensors, were halted by 
DHS. Other programs were started, stopped and then transferred.
    The incomprehensible way the Environmental Measurements Laboratory 
has fared since being transferred to DHS is testimony to an appalling 
lack of leadership at the S&T Directorate. The lack of clear decisions 
and direction regarding EML permitted a haphazard approach to the EML 
and its programs to fester within the S&T Directorate. As a result, the 
lab's programs were decimated and its staff demoralized with a 
seemingly reckless disregard for how the lab's skills and projects 
could have benefited DHS, other federal agencies or the Nation as a 
whole. Top S&T managers responsible for terminating some of the lab's 
key programs had no idea what these programs actually did and held no 
discussions on how they might benefit DHS. In addition, S&T managers 
squandered an inordinate amount of time and effort planning for the 
demise of the Environmental Measurements Laboratory rather than 
attempting to determine how the lab could be effectively utilized and 
its staff successfully employed to contribute to DHS.
    Because of all of these actions, the lab has been left in a 
disturbing state of limbo. Many of its programs have been terminated, 
new projects halted, the skills and capabilities of its federal 
employees disparaged and its staff reduced by one-third. The 
Subcommittee hopes that the EML and the leadership at the S&T 
Directorate have finally turned the corner and that we can expect 
positive change to be forthcoming.
    Our last panel will look towards the lab's future role in DHS. The 
vast majority of these actions did not occur under Under Secretary of 
Science & Technology, Admiral Cohen's watch. The Subcommittee is 
pleased that the new leadership at the S&T Directorate appears willing 
to utilize a laboratory that many have referred to as a national asset. 
We anticipate that the S&T Directorate and the Domestic Nuclear 
Detection Office will work together to fully employ and exploit the 
skills of the staff at the Environmental Measurements Laboratory.

    Mr. McCaul. Thank you, Chairman Miller. As I said, it is 
your lucky day. I am filling in for Mr. Sensenbrenner today. I 
want to welcome our witnesses and those out there. I want to 
thank the Chairman for holding this hearing on the Department 
of Homeland Security's Environmental Measurements Laboratory.
    As the Ranking Member on the Homeland Security Committee's 
Subcommittee on Emerging Threats, Cybersecurity, and Science 
and Technology, I am particularly interested in the future of 
the Department's national labs. To that end, I hope the 
witnesses before us today can help us understand what EML's 
capabilities are and how they can best fit into DHS. Any time a 
facility is transferred from one agency to another, there is 
understandably a realignment of work in order to serve the 
agency's and the Nation's best interest. EML is no exception. 
They will have to adapt to their new homeland security mission, 
which will likely mean a different focus and direction for the 
lab. In identifying this new path, we should also be mindful of 
other work EML does that may not be in line within the DHS 
structure and mission and make sure that we don't lose a 
national capability just because of turf considerations.
    That being said, I am confident that there is a safe place 
for EML in DHS, after all, EML is a unique asset located in the 
heart of downtown Manhattan. They have built up a strong 
relationship with State and local entities there and are 
undisputedly experts in low-level radiation analysis, clearly a 
high priority for DHS. As I said, I look forward to the 
testimony. I hope this will be a productive hearing and we will 
leave here with a better understanding of how EML can best be 
utilized in the future. And with that, I yield back, Mr. 
Chairman.
    [The statement of Mr. McCaul follows:]
         Prepared Statement of Representative Michael T. McCaul
    Thank you, Mr. Miller. I will be filling in for Mr. Sensenbrenner 
today as Ranking Member. I want to welcome our witnesses here today and 
thank the Chairman for holding this hearing on the Department of 
Homeland Security's Environmental Measurements Laboratory. As the 
Ranking Member on the Homeland Security Committee's Subcommittee on 
Emerging Threats, Cyber Security, and Science and Technology, I'm 
particularly interested in the future of the Department's national 
labs.
    To that end, I hope the witnesses before us today can help us 
understand what EML's capabilities are, and how they can best fit into 
DHS. Anytime a facility is transferred from one agency to another, 
there is understandably a realignment of work in order to serve the 
agency's, and the Nation's, best interests. EML is no different. They 
will have to adapt to their new homeland security mission, which will 
likely mean a different focus and direction for the lab. In identifying 
this new path, we should also be mindful of other work EML does that 
may not be aligned with the DHS mission and make sure that we don't 
lose a national capability just because of turf considerations.
    That being said, I am confident that there is a place for EML in 
DHS. After all, EML is a unique asset: Located in the heart of 
Manhattan, they have built up strong relationships with State and local 
entities, and are undisputedly experts in low-level radiation 
analysis--clearly a high priority for DHS. I look forward to all of our 
witnesses' testimony--particularly Under Secretary Cohen's and Mr. 
Oxford's. I hope this will be a productive hearing, and that we will 
all leave here with a better understanding of how EML can best be 
utilized in the future.

    Chairman Miller. Thank you, Mr. McCaul. If there are other 
Members--Mr. Rothman is welcome to submit any kind of opening 
statement for the record, which he has shaken his head to show 
that he does not.
    Mr. Rothman. If I may, Mr. Chairman, let me say that I am 
very interested in today's hearing, period.
    Chairman Miller. The Chairman welcomes similar opening 
statements from the Members of the Committee.
    [The prepared statement of Mr. Sensenbrenner follows:]
    Prepared Statement of Representative F. James Sensenbrenner Jr.
                             Ranking Member
              Subcommittee on Investigations and Oversight

                      Sensenbrenner Lauds Value of

                Environmental Measurements Laboratories

    Washington, May 3, 2007--As the Ranking Republican on the House 
Science and Technology Subcommittee on Investigations and Oversight, 
Representative Jim Sensenbrenner (R-MI) made the following comments 
following today's Subcommittee hearing on Environmental Measurement 
Laboratories (EML), and its transition from the Department of Energy to 
the Department of Homeland Security (DHS):

    ``If an American city was a victim of a dirty bomb attack, our lack 
of preparedness would affect our ability to triage medical care and 
limit panic,'' said Sensenbrenner. ``Proper equipment and training 
would allow experts to quickly assess and disclose the levels of 
radiation and the risk to the public, allowing people who are not at 
risk to be put at ease and freeing emergency responders to focus on 
those people most in need of care.''
    ``After a Subcommittee investigation that has spanned the past 
several months, it is clear that DHS has, thus far, struggled to fully 
realize the value of EML's expertise,'' Sensenbrenner continued. ``It 
is equally clear that EML, which specializes in low-level radiation 
measurements, can have a valuable place within DHS and can help prepare 
America to respond to a catastrophic attack.''
    A supervisor with the Wisconsin State Laboratory of Hygiene, Lynn 
West, worked with EML through its Quality Assessment Program (QAP) 
before that program was terminated by DHS. Ms. West explained that 
while America has done a lot to prepare for a full-scale nuclear 
disaster, it has lagged in its preparedness to respond to lower-level 
radiological emergencies, like a dirty bomb.
    ``There is currently no program, federal or otherwise, focused on 
developing the ability of radiochemistry labs to respond to 
radiological emergencies. The QAP program, had it not been terminated, 
would have helped in this area,'' Sensenbrenner concluded.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good morning. Thank you Mr. Chairman for calling this hearing to 
receive testimony from witnesses on the Department of Homeland 
Security's (DHS)'s Science and Technology Directorate Environmental 
Measurements Laboratory (EML).
    In the 1970s, EML established a radiochemistry quality assessment 
program that grew to include the participation of more than 150 labs. 
They have provided a support role for the Department of Energy's 
Nuclear Emergency Search Teams, whose task is to locate and disable 
nuclear weapons or radiological dispersal devices in the U.S. and 
abroad.
    EML was transferred from the Department of Energy to the DHS's 
Science and Technology Directorate in 2003, under the Homeland Security 
Act of 2002. Since its transfer to DHS, programs at EML have been 
terminated and curtailed in order to plan for the lab's ultimate 
closure. The reasons for shutting down the lab are not clear and the 
Science and Technology Directorate within the DHS has not provided an 
explanation to Congress or the public of the rationale for closure.
    I look forward to hearing from our panel of witnesses in order to 
obtain full disclosure on what happened with the EML and why Congress 
was not made aware of the systemic mismanagement that occurred in 
supervising, managing, and leading the laboratory.

    Chairman Miller. We would now like to introduce our panel 
of witnesses. On the first panel is Mr. Charles McBrearty, 
former Director of Materials Technology, Air Force Technical 
Applications Center, Patrick Air Force Base in Florida; Dr. 
Tony Fainberg, former Program Manager, Radiological and Nuclear 
Countermeasures, Office of Research and Development, Science 
and Technology Directorate, Department of Homeland Security; 
Lynn Albin, Radiation Health Specialist or Physicist, Office of 
Radiation Protection, Washington State Department of Health; 
and Assistant Commissioner Jonathan Duecker with the New York 
Police Department Counterterrorism Bureau. You can all take 
your seats. Thank you.
    Your oral testimony is limited to five minutes. All of you 
have submitted written testimony which will be placed in the 
record and without objection, we may enter various documents in 
the hearing, whether identified or not during the hearing. I 
assume that is without objection. So after the entire panel has 
given your five-minute testimony, the Members of the Committee 
will have five minutes each to ask questions. I will try to be 
fairly strict about that, although Mr. McCaul has not been an 
offender in that regard. And we do swear the witnesses, so it 
is our practice to do so. Do any of you have any objections to 
being sworn in, to taking an oath? You also have the right to 
be represented by Counsel. I know hearing that does not 
necessarily put you at your ease. There is no reason. None of 
us anticipate that you need Counsel, but you may have Counsel 
if you want it and none of you have Counsel today.
    Okay, if you would all now please stand and raise your 
right hand.
    [Witnesses sworn]
    Chairman Miller. Thank you. Thank you, Mr. McBrearty. You 
may begin.

                                Panel 1:

STATEMENT OF MR. CHARLES F. MCBREARTY, JR., FORMER DIRECTOR OF 
MATERIALS TECHNOLOGY, AIR FORCE TECHNICAL APPLICATIONS CENTER, 
                     PATRICK AIR FORCE BASE

    Mr. McBrearty. I appreciate the opportunity to represent 
the Air Force Technical Applications Center (AFTAC) at this 
hearing on the transition of EML. A detailed response to the 
questions you asked me, sir, is in the written testimony that I 
provided. I will just give a quick summary of some of those 
points and would be happy to answer and elaborate.
    The mission of AFTAC is to provide the national authorities 
quality technical measurements to monitor nuclear treaty 
compliance by foreign nations, and to develop advanced 
proliferation technologies which are vital to the national 
security. In terms of this Committee's inquiry, AFTAC had 
maintained an outstanding relationship with the Environmental 
Measurements Laboratory for almost four decades. In 2005, when 
Dr. Clarke of DHS informed AFTAC that EML would be closing, I 
traveled to the DHS offices to personally discuss the matter 
with him. My purpose was to emphasize the importance of the 
work that EML was doing for AFTAC, as well as my view of the 
potential value, an important value EML represented to the new 
department.
    The DHS decision did not change as a result of that mission 
meeting, so AFTAC proceeded to transfer its nuclear monitoring 
support functions, which we're doing on at EML, to Los Alamos 
National Laboratories and its engineering and nuclear analysis 
sampling technology evaluation support functions to Pacific 
Northwest Laboratories, two laboratories which, again, we have 
had and do have long-term relationships with.
    The termination of AFTAC's efforts at EML created a short-
term impact on our programs during the transfer of the analysis 
work to the other laboratories. Based on the DHS decisions, we 
adjusted our operations and today are generally comfortable 
with the new arrangements. Because of this decision, or the 
threat of it, key EML staff scientists have moved on or retired 
and specialized equipment has been transferred. Thus the core 
of the capability of great value to AFTAC no longer currently 
exists at EML.
    From my position as a customer of EML and versed and 
experienced with about 38 or so years in this field, I believe 
that the intangible worth of EML's excellent technical 
experience and contacts within the international radiation 
measurements community were not fully appreciated. We did 
appreciate them and made great use of all of those contacts in 
matters like the Comprehensive Test Ban Treaty and things of 
that nature.
    However, that said, the ultimate decision of whether or not 
to continue EML's operations was one ultimately DHS had to 
make. Our operations only funded a small portion of the work 
that went on there, so we had no choice once the decision was 
apparently made to terminate other than to move on, move our 
stuff onwards.
    If you have any other questions, I will be happy to answer 
them.
    [The prepared statement of Mr. McBrearty follows:]
            Prepared Statement of Charles F. McBrearty, Jr.
    Mr. Chairman, distinguished Members of the Committee, I appreciate 
this opportunity to represent the Air Force Technical Applications 
Center (AFTAC) at this hearing on the transition of the Environmental 
Measurements Laboratory (EML) to the Department of Homeland Security 
(DHS). The mission of AFTAC is to provide national authorities quality 
technical measurements to monitor nuclear treaty compliance and 
develops advanced proliferation monitoring technologies to preserve our 
nation's security. In terms of this committee's inquiry, AFTAC had a 
long and valued association with the Environmental Measurements 
Laboratory going back over three decades. During that period, EML 
provided services to AFTAC through the Department of Energy (DOE) 
``Work of Others Program.'' These efforts consisted of task-order 
based, technical support and consulting services associated with the 
area of their expertise, the measurement of radioactivity in the 
environment. EML also provided AFTAC with assistance on other national 
security projects that we will not be able to discuss in today's open 
hearing.

EML Program Support to AFTAC

    At the time the EML was transferred to the DHS, we were maintaining 
a relatively small effort (on the order of $200K-$300K per year) with 
the laboratory. The focus of that work was largely for trace 
radionuclide analysis of specific samples collected by the United 
States Atomic Energy Detection System (USAEDS) operated by AFTAC. EML 
performed this analysis on gas samples collected by AFTAC's Nuclear 
Debris Collection and Analysis (NDC&A) program to monitor provisions of 
the Limited Nuclear Test Ban Treaty of 1963.
    In addition, AFTAC made good use of EML's scientific expertise and 
excellent connections/reputation in the International Community. We 
routinely asked their advice, support, and assistance in tasks 
associated with the enhancement of the USAEDS, innovative sampler 
design and development, and consulted closely on matters of common 
interest with regard to the Comprehensive Test Ban Treaty (CTBT).
    During development of CTBT protocols in the mid 1990's AFTAC, 
strongly recommended that EML be designated as the U.S. ``States 
Party'' radionuclide analysis laboratory. They were subsequently so 
designated.
    Dr. John Clarke of the DHS notified AFTAC in September 2005 that, 
``Our year-long review has now concluded and the programmatic decision 
has been made to close the EML.'' He also informed EML and AFTAC that 
the DHS would no longer accept funding for this work. Dr. Clarke noted 
in that e-mail that he had contacted both Mr. Scott Smith, the AFTAC 
Project Officer, and I and stated, ``They both understand and accept 
that the nature of future radiation measurement work at EML is still 
under review in DHS and that DHS cannot commit to a new contract with 
their organization at this time.'' AFTAC worked with EML over the next 
seven months to relocate the government furnished equipment needed to 
perform our nuclear treaty monitoring mission to Los Alamos National 
Laboratory. AFTAC also assisted EML in relocating their sample 
inventory to qualified sample management facilities at AFTAC and AFTAC-
sponsored laboratory facilities at Los Alamos National Laboratory and 
Pacific Northwest National Laboratory.

Value of EML Activities to AFTAC and Support to National Security

    We highly valued the work of EML. Not only was the laboratory a 
reputable and highly respected analytical facility from whom we could 
always count on quality and cost effective work, they were unmatched in 
their understanding of the operational realities of sample collection 
operations. The culture that had evolved at the laboratory was, in my 
view, one of seeking practical, rugged and sustainable collection 
systems and collection concepts.
    Again, we cannot go into the details of the national security work 
performed by EML in this environment. While we had significantly 
reduced the amount of national security work being performed by EML 
under this portion of the effort, some aspects were quite valuable to 
the USAEDS treaty monitoring efforts.
    The engineering and nuclear debris sampling and radiometric 
technology evaluation support was of high value to AFTAC. The EML 
scientists, as federal employees, were noted for impartial and 
independent judgment on nuclear measurement related issues.
    The radiometric measurements on gas samples collected by AFTAC's 
NDC&A program were of very high value to AFTAC. Many of the national 
laboratories could perform these types of radiometric measurements, but 
EML was unique in its proximity to our gas sample processing laboratory 
in New Providence, NJ. Samples could be driven to EML in less than an 
hour if required and time is often of the essence for measuring the 
short lived isotopes associated with nuclear weapons testing.

AFTAC's Efforts to Persuade DHS to Maintain EML Programs

    I was initially quite pleased to learn that a decision had been 
made to transfer EML to the DHS. My organization and I highly regarded 
the expertise and competence of EML in the field of trace radionuclide 
detection, and I believed those same capabilities that were of such 
value to AFTAC could also be of great help to the new Department. EML's 
excellent national and international reputation in a field of critical 
need by DHS (trace radioactive materials detection and expertise in 
sample collection, data analysis and quality control) were, in my mind, 
extremely valuable assets.
    I was surprised when I learned that closure of the laboratory was 
being considered. When we received clear indication from the new 
program office in DHS that closure was planned, I made a special trip 
to Washington to discuss the issue, its implications for my programs, 
and expressed my opinion of the inherent value EML capabilities 
represented to DHS.
    During this visit in September 2005, I meet with Dr. John Clarke 
and discussed these topics. Dr. Clarke indicated that actions were 
underway to close the lab and that unless we wanted to pick up the tab 
for the operation, (a sum of about $10M per year as I recall), we 
should plan on moving our work elsewhere. I expressed my surprise at 
the proposed decision and emphasized my view that a credible, unbiased 
resource for testing, reviewing, and quality control of the plethora of 
radiation detection concepts being pushed by numerous commercial 
enterprises as well as the National Laboratories themselves. . 
.capabilities I believed resided in EML. . .was critically needed.
    DHS's response to my points was that ``EML was quite costly and did 
not fit into their `Business Model'.''

AFTAC's Response to DHS's Decision to Halt EML Support to AFTAC

    After being notified of the DHS programmatic decision to close EML, 
AFTAC considered a number of possible alternatives to continue the 
national security portion of the effort. Dr. Clarke offered to assist 
AFTAC in finding an organization within the Federal Government that 
could take over this effort. Based upon the new capabilities, either 
already in place or scheduled for being operational with the next two 
years, AFTAC decided to terminate the national security effort rather 
than attempting to transition that effort to another organization.
    The majority of the remaining engineering and nuclear debris 
sampling and radiometric technology evaluation support transitioned to 
Pacific Northwest National Laboratory, another long-term USAEDS mission 
partner for AFTAC. This work is sponsored by both AFTAC and the DOE 
Office of Nonproliferation Research and Development. AFTAC particularly 
valued the ability to consult with EML as an honest broker for 
engineering advice and technical evaluation. AFTAC successfully 
transitioned the gas sample radiometric measurement effort to Los 
Alamos National Laboratory, a long-term USAEDS mission partner for 
AFTAC, in the spring of 2006. EML requested permission to discontinue 
operating and maintaining these systems, and AFTAC approved this 
request on 14 March 2006. Personnel from EML and Los Alamos packed up 
the detectors and other Air Force government-furnished equipment and 
shipped them to Los Alamos in late April 2006.

Conclusion

    AFTAC had maintained an outstanding relationship with the 
Environmental Measurements Laboratory for four decades. When Dr. John 
Clarke, DHS, informed AFTAC that DHS would be closing EML, I traveled 
to DHS to personally discuss the matter with him. The DHS decision did 
not change as a result of that meeting, so AFTAC proceeded to transfer 
its nuclear treaty monitoring support functions to Los Alamos National 
Laboratory and its engineering and nuclear debris sampling and 
radiometric technology evaluation support functions to Pacific 
Northwest National Laboratory. AFTAC terminated its support for the 
national security work due to increased capabilities elsewhere and 
other priorities.
    The termination of AFTAC efforts at EML created short-term impact 
on our program during the transfer of analysis work to other 
laboratories. Based on the DHS decisions, we adjusted our operations 
and today are generally comfortable with the new arrangements. Because 
of this decision (or threat of it), key EML scientific staff have moved 
on or retired and specialized equipment has been transferred. Thus, the 
core of the capability of value to AFTAC no longer exists at EML.
    From my position as a customer of EML's, I believe the intangible 
worth of EML's excellent technical experience and contacts within the 
international radiation measurements community was not fully 
appreciated. From AFTAC's perspective, this was important, and in my 
view was, in many ways, a unique national asset representing an 
experience base unlike any other laboratory in the DOE complex. 
However, in the larger picture, DHS as the parent agency, the primary 
designated customer of EML's output and the agency which was funding 
the bulk of EML's activities was better positioned than we, as 
occasional users, were to make the final funding decision. Ultimately, 
we--AFTAC--made our own decision as to whether or not to support a 
wider range of activities than we had historically supported in order 
to keep EML together, and we, too, decided that we couldn't provide 
that level of support.
    Thank you for your attention. If you have any questions, I would be 
happy to address them.

                Biography for Charles F. McBrearty, Jr.
    Charles F. McBrearty, Jr., retired as the Director of Materials 
Technology at the Air Force Technical Applications Center (AFTAC), 
Patrick Air Force Base, Florida on 30 April 2007. Prior to his 
retirement, Mr. McBrearty directed AFTAC's largest product area with an 
annual program budget of more than $140 million and directed the work 
of over 200 scientific and engineering personnel. He was responsible 
for the management of a network of 13 analytical laboratories engaged 
in trace nuclear and non-nuclear materials analysis, in support of 
AFTAC's global treaty-monitoring tasking to detect, collect, and 
analyze nuclear material associated with nuclear tests. He guided 
AFTAC's research and development programs exploring new technologies to 
enhance and assist treaty verification and efforts to limit the 
proliferation of nuclear, chemical and biological weapons of mass 
destruction. His responsibilities covered diverse sciences and 
technologies ranging from nuclear engineering, chemistry, and 
meteorology, to collection and analysis technique development. Mr. 
McBrearty directed AFTAC nuclear analysis and evaluation support to the 
International Atomic Energy Agency and the Department of State, in 
their monitoring of the nuclear Nonproliferation Treaty.
    Mr. McBrearty has served in a variety of leadership, academic and 
technical positions in government and industry. He entered the Air 
Force in 1967 as a distinguished graduate of the Texas A&M University 
Reserve Officer Training Corps (ROTC) program and served as a 
commissioned officer until 1991.
    He held two command positions with AFTAC, taught at the Air Force 
Academy, and served in numerous staff and scientific positions. 
Following his retirement from active duty, he managed NASA's Toxic 
Vapor Detection Laboratory supporting Space Shuttle operations at 
Kennedy Space Center.
    Mr. McBrearty returned to federal service in 1993 to assume his 
current position and was appointed to the Air Force Senior Executive 
Service in 1998. He was awarded The Presidential Rank, Meritorious 
Executive Award in 2005.

    Chairman Miller. Thank you, Mr. McBrearty. Remarkably, you 
had a minute and 45 left. Dr. Fainberg.

 STATEMENT OF DR. M. ANTHONY FAINBERG, FORMER PROGRAM MANAGER, 
 RADIOLOGICAL AND NUCLEAR COUNTERMEASURES, OFFICE OF RESEARCH 
AND DEVELOPMENT, SCIENCE AND TECHNOLOGY DIRECTORATE, DEPARTMENT 
                      OF HOMELAND SECURITY

    Dr. Fainberg. Mr. Chairman and Congressman McCaul, thank 
you and Members of the Committee. Thank you for the opportunity 
to discuss my experiences with EML and my views on that lab 
today. I wish first to state that while I happen to be adjunct 
staff member at the Institute for Defense Analyses, my views 
are entirely personal and no way reflect any positions taken by 
that organization. I will try quickly to cover several topics 
requested by Committee staff.
    My background and training is as an experimental physicist 
and I recently retired from the government after 20 years of 
service. In 2003, for the first few months at DHS, I was 
responsible for both administrative and programmatic oversight 
of EML and the DHS Office of Research and Development within 
the S&T Directorate. Later on, I managed radiation detection 
and explosive detection research at national labs and at EML.
    While at DHS, I visited the lab several times to learn 
about its history and resources. Its work had been mainly in 
the area of radiochemistry and low-level radiation 
measurements. There was some mismatch between some of their 
activities and DHS needs, but I judged that, in the field of 
radiation detection, their experience would be useful for DHS. 
My initial assessment was that the lab space was in sad 
condition, rented from GSA at far too high a price. There were 
60 staff members, down from over a hundred some years earlier. 
DOE had left the lab as a neglected backwater, perhaps because 
of DOE's recently declining emphasis on environmental cleanup, 
which had become the lab's chief area of responsibility. 
However, although the lab had been in decline, staff welcomed 
and indeed embraced the chance for a rebirth as part of a 
mission in which they held a strong and vital interest. Located 
about a mile north of the World Trade Center, they were 
strongly and viscerally affected by 9/11 and were extremely 
motivated to become part of the global anti-terrorism effort.
    Regarding the staff, some had been employed a task that had 
not changed much for decades and appeared ready for retirement. 
On the other hand, a large fraction of the technical staff, of 
varied ages, impressed me as highly motivated, energetic and 
very capable in their areas of expertise. Upon moving to DHS, 
EML management had transitioned their work to projects that it 
felt would be useful to and welcomed by DHS. One example of 
this activity was a New York area science and tech working 
group which held seminars for first responders in the area on 
radiation and operating radiation detection equipment. I 
learned later from some participants that these sessions were 
well attended and appreciated.
    I found several projects to be of interest. They are 
written about more in my remarks, but one that particularly 
struck me was an experiment related to the so-called neutron 
ship effect, carried out by a physicist of national stature, 
Dr. Paul Goldhagen. This involved measurements of neutrons 
generated by cosmic rays striking large structures such as 
ships. It was directly relevant to determining whether it would 
be useful to try to detect nuclear material in containers bound 
for the United States on cargo ships.
    Overall, I would like to make one comment. Since, upon its 
creation, the S&T Directorate had willingly accepted EML as 
part of its new organization, it was clearly incumbent on S&T 
management to establish that lab's new mission. In fact, one 
would have thought S&T would have had some idea of how the lab 
would be useful to them before agreeing to accept them. 
However, I saw little evidence that serious thought had been 
given to this matter. Indeed, after a year or two, I heard 
grumbling in headquarters that EML had no idea of what its 
mission should be, as though this were not the responsibility 
of S&T itself.
    Committee staff have asked me to explain why I resigned 
from S&T. The matter is not that important, except that the 
reasons reveal some existence of management issues and without 
going into too many details, I had some disagreements with Dr. 
John Clarke, who was supposed to be responsible for facility 
management, over projects at EML. After a series of meetings 
with him, I suggested that he manage the programs himself, 
except for those that had already been approved at a higher 
level by the Office Director of ORD. He agreed but shortly 
thereafter he came to me and tried to block this neutron ship 
effect project, for which I had a certain amount of interest 
and respect. I had asked my management after that for--well, I 
appealed to my management after that for help because they had 
previously approved that project and my management chain was 
entirely deaf to my e-mails, all of them, except at one point 
the Deputy Office Director, Robert Hooks, told me that we 
should fix the matter ourselves.
    Since they ignored my pleas to reaffirm their earlier 
commitments on this project, and since I was having a very 
difficult time keeping other projects there alive and 
functioning, I submitted my resignation, deciding that 
management was broken. Management proved later to me, three 
days, that it was broken, because my immediate supervisor, Dr. 
Gerald Parker, came to me and handed me a letter of counseling, 
which was a reprimand, for daring to resign and then he 
threatened me with sanctions if I continued such bad behavior. 
This divorcement from reality, I thought, was noteworthy and 
complete.
    Naturally, I left ORD as soon as I could, within about two 
working days, I think it was, and was able, fortunately, to 
join the DHS Domestic Nuclear Detection Office for my remaining 
federal service, where I found the working environment quite 
satisfactory. The ship project went forward eventually, but it 
is kind of interesting that I had to be forced to resign to 
accomplish this.
    From my perspective, I concluded, then, that S&T management 
was trying to squeeze EML out of existence by turning off or 
crippling projects, one by one, so that it could be finally 
asserted that the lab had no function. I do not know why this 
was done. Several other projects I had thought useful had also 
been rejected earlier by my superiors. I cannot prove there was 
an overt intent to close the lab. Indeed, Mr. Hooks assured me, 
at this time, that such was not the case. However, in spite of 
such an assurance, the facts indicated to me that an intention 
to shut down the lab was the simplest explanation for what was 
going on.
    My view is that S&T should have realized it was fortunate 
in acquiring an asset in New York City, which is a prime 
terrorist target. The lab had, on its own, established 
excellent working relations with city officials and could have 
functioned as S&T's presence in the area and these relations 
could have facilitated communication and cooperation between 
federal and State and local homeland security officials, at 
least in the radiological arena. This opportunity to take 
advantage of a ready-made local asset was unfortunately missed 
by S&T.
    As to what should have been done with EML, my suggestions 
would have been to allow it to continue some of the local 
projects in which it had been engaged. I would have supported 
continual global monitoring, thinking that, in 2004, it was not 
impossible that it might be useful to have some detectors near 
North Korea. I would have had it fully engaged in supporting 
the rest of DHS and the local radiological projects. And 
finally, I would have authorized the hiring of some young 
scientists with recent degrees to reinvigorate what had been a 
leading radiation laboratory some 20 to 30 years earlier. 
Briefly, I would have decided that, although the lab had some 
issues that needed to be fixed, it would have been worthwhile 
rebuilding it into a high-profile DHS S&T facility in New York. 
It may be too late for some of these thrusts, but on the whole, 
the lab still can and should be resuscitated. I am very glad to 
learn that finally this may happen.
    To save time, I have dropped some other remarks from my 
oral presentation regarding another S&T lab, the Transportation 
Security Lab in Atlantic City, with which I have some 
acquaintance over a decade or two. This lab is the Nation's 
premier source of expertise in explosives detection and in 
development of detection equipment, particularly regarding 
aviation security. Practically everything you see in terms of 
security equipment at U.S. and many foreign airports has been 
developed at that lab. This lab has suffered from devastating 
institutional buffeting since 9/11, transferring between 
agencies twice, having its budget rocket up by factors of two 
and three and then drop by factors of four. I feel we may be in 
danger of losing this major national asset that helps protects 
us from terrorist attack.
    I would be happy to respond to questions about this lab as 
well as about EML. Thank you for your attention.
    [The prepared statement of Dr. Fainberg follows:]
               Prepared Statement of M. Anthony Fainberg
    Mr. Chairman, Congressman Sensenbrenner, I thank you for the 
opportunity to discuss my experiences with the Environmental 
Measurements Laboratory (EML) in New York City, as an official who was 
present at the stand-up of the Department of Homeland Security (DHS) on 
March 1, 2003.
    I had actually begun work with the predecessor of the Science and 
Technology (S&T) Directorate--the Transition Planning Office (TPO)--a 
few months before stand-up, in December 2002. At the time I began work 
there, I had over 17 years of experience in government. I had been an 
analyst, in areas where science and national security policy intersect, 
and a program manager, overseeing research and development programs for 
the Federal Aviation Administration and the Defense Threat Reduction 
Agency. As an analyst for the former Congressional Office of Technology 
Assessment, I had, in 1990-1991, written the first detailed analysis of 
the potential uses of technology in countering terrorism. My training 
is as an experimental physicist in the field of high energy physics, in 
which I received a doctorate in 1969.
    When I began at the TPO, later the S&T Directorate, there were very 
few people on staff, perhaps some 25. That number ramped up quite 
quickly in the months after March 2003. At first, many of us shared 
duties; I was in charge of the Explosives Countermeasures Portfolio for 
a few months and at the same time responsible for overseeing EML, this 
latter task only for a few months. In addition, I worked in the 
Radiation and Nuclear Countermeasures Portfolio group as well. My 
efforts to understand EML were aided by the presence of two EML staff, 
who were on detail to the TPO and subsequently to S&T.
    By summer 2003, things had settled down a bit, and I had just a 
dual responsibility: Program Manager for Radiation and Nuclear 
Countermeasures and Program Manager for Explosives Countermeasures in 
the Office of Research and Development (ORD). In these roles, I was 
responsible for research programs that were carried out by the 
Department of Energy's (DOE) National Laboratories, and those carried 
out by EML. Nearly all of my efforts were devoted to the large National 
Laboratories, as their projects consumed nearly all the budget 
allocated to my Program.

EML Programs at Transition to DHS

    My responsibilities regarding EML began soon after departmental 
stand-up, with administrative and programmatic oversight. During the 
time that I had this broad responsibility, I visited the site, became 
acquainted with current projects and staff and learned about the lab's 
capabilities, which they were trying to adapt to DHS needs.
    It was clear that there would be some mismatches in capabilities 
relative to the new DHS needs. Their previous work centered around low-
level radiation measurements. These were in support of environmental 
clean-up and monitoring and of global monitoring for fallout from 
nuclear weapons testing. However, I judged that their abilities in the 
area of radiation detection were adaptable to DHS requirements. EML 
staff also worked on or led activities that provided the environmental 
monitoring community with manuals on procedures and protocols for 
environmental sampling. This work could have some application for DHS, 
for example, in providing advice for clean-up after a dirty bomb 
attack.
    Another major line of work at EML was the Quality Assurance Program 
(QAP), which vetted scores of radiological laboratories, in the United 
States and also in other countries, to determine the quality of their 
analytical practices. This was a service provided by EML, earlier 
funded by DOE, but in which DHS had no interest at the time (I 
understand that recently, S&T is setting up an Integrated Consortium of 
Laboratory Networks, in which the QAP might have been a useful 
component). Unfortunately, this service, which was used by many State 
and local laboratories, and, to my knowledge, was widely appreciated, 
disappeared when DHS decided to end funding for it. I understand that a 
commercial laboratory is now providing a similar service, but at 
significant cost.

Overall Assessment of EML at Transition

    My assessment of the laboratory and its potential uses for DHS were 
as follows. First, the laboratory space, rented from the General 
Services Administration, was in sad condition, depressing, and barely 
functional. The rent paid was far too high for the quality of the 
plant. About 60 staff members were on the payroll, down from about 120, 
a decade or two earlier. DOE had clearly left this laboratory in a 
neglected state, as a backwater, perhaps because emphasis on DOE clean-
up activities dropped in recent years. The lab was in a clear decline, 
but welcomed and embraced the chance for a rebirth as part of a mission 
in which they had a strong and vital interest. The lab is located only 
about a mile from the World Trade Center, and staff were strongly and 
viscerally affected by 9/11. They were extremely motivated to become 
part of the global anti-terrorism effort, as well as to be in a 
position to take practical steps to aid in protecting New York against 
future attacks.
    Some of the technical staff had been employed at tasks that had not 
changed much for several decades. Many appeared ready for retirement, 
and, indeed, in the following years, a large number did retire. Some 
retirements, however, especially in 2005 and beyond, were apparently 
occasioned by disappointment, if not outrage, at the treatment they 
felt EML was receiving from DHS Headquarters.
    On the other hand, a large fraction of the technical staff, of 
varied ages, impressed me as highly motivated, energetic, and very 
capable in their areas of expertise. The laboratory had transitioned 
their work over to projects that they felt would be useful and welcomed 
by DHS.
    One activity, the NY Area Science and Technology (NYAST) Working 
Group, held seminars for New York Metropolitan Area first responders: 
police, firemen, medical technicians, and civilian staff from the 
Office of Emergency Management. Lessons were given these non-scientists 
about understanding radiation, the dirty bomb threat, and how to use 
radiation measuring equipment. In talking with some participants on 
later occasions, I learned that these sessions were appreciated and 
considered very useful. They were quite well attended.
    Another project of interest to me and to New York City officials 
was the Comprehensive Radiation Sensor Program, which deployed a small 
number of inexpensive but effective gamma ray detectors on rooftops in 
Manhattan. This network was intended to send data back via a wireless 
connection to a command center at the lab. The project was meant to 
function as an early prototype for a detection architecture that would 
produce relatively inexpensive monitoring of selected areas of the 
city, in the case of a radiation release. City officials at the Office 
of Emergency Management were enthusiastic about this program (as long 
as they did not have to fund it). This project was scheduled to be 
halted at the time I left, and headquarters funding was cut off, but it 
has been resurrected since, paid for only by staff salaries and time.
    A third project, extremely interesting to me, was run by an EML 
physicist of national stature, Paul Goldhagen. Dr. Goldhagen was 
measuring the spectrum of neutrons from cosmic rays, in order to 
understand better the ``ship effect.'' If we understood this effect, it 
might enable us to reject this background and be able to detect 
radiological material in containers on ships, as they traveled across 
oceans to United States ports. This was basic research with a clear and 
vital connection to homeland security needs, and only a very few 
researchers in the country were involved in similar work.
    Finally, there was program of global atmospheric monitoring, which 
had national security implications. It was co-funded by DOE/NNSA and 
the USAF, and provided useful, near-real time sets of atmospheric data.
    By summer, I had transitioned to my program management role, and 
had no further oversight over the lab as a whole, except insofar as 
they carried out projects for me.

My View of the Proper Role for EML

    Since, upon its creation, DHS had willingly accepted EML as part of 
its organization, it was clearly incumbent upon DHS management to 
establish that lab's new mission, of course with input from and in 
collaboration with lab management. Indeed, DHS should have had an idea 
how the lab would be useful to them before accepting it on board. I saw 
no evidence that serious thought was given to this. Indeed, after a 
year or two, I heard grumbling among S&T management that EML had no 
idea what its mission should be, as though this were not the 
responsibility of S&T itself. Actually, EML had proposed some ideas for 
the proper scope of their activities, but none was accepted. I was 
concerned that there appeared to be no meaningful dialogue between S&T 
and EML to address the lab's mission. During this period, EML tried to 
conduct its own planning, work, and outreach without much help or, 
indeed, interest from S&T.
    My view, then and now, is the following: DHS was fortunate in 
acquiring an existing laboratory asset located in New York City, a 
prime target of international terrorists. The lab had, on its own, 
developed excellent working relations with city officials and could 
function as S&T's presence in the area. These relationships could have 
greatly facilitated communications and cooperation between federal and 
local homeland security officials, at least in the radiological area. 
The opportunity to use a ready-made asset in this way was unfortunately 
missed by S&T.
    The laboratory had both negative and positive aspects: some staff 
were old and tired, but others were extremely energetic and effective. 
The physical plant was in bad shape, but could be improved or else the 
lab could be moved, perhaps to an existing DHS facility in the area, 
where the cost of rental would not be an issue. Finally, some excellent 
capabilities existed at the lab, which could have been expanded upon. 
Some of these were:

        <bullet>  the atmospheric monitoring project;

        <bullet>  the neutron ``ship effect'' work;

        <bullet>  a strong operational and statistical understanding of 
        low-level radiation contamination measurements;

        <bullet>  the vetting of a nationwide network of radiochemical 
        laboratories;

        <bullet>  the development of an inexpensive distributed network 
        of radiation detectors;

        <bullet>  and, most importantly, a cadre of willing and active 
        scientists who were anxious to help, for example, with 
        developing, operating, and staffing a radiation measurement 
        test bed in New York.

    This last item was fortunately accomplished: EML scientists became 
an integral part of DHS's Countermeasures Test Bed, operationally 
testing radiation detection equipment that was deployed at air- and 
seaports in the New York area.
    Unfortunately, most other items were not accomplished.
    Had I had the authority, I would have tried to have EML both engage 
in the above work and also support the rest of DHS fully in other 
radiological projects in the New York area. I would have considered 
trying to provide some of the services, such as the QAP, for the good 
of the community of radiochemical laboratories in the country, probably 
in collaboration with DOE. And I would have kept some of the 
atmospheric monitoring work that was useful for other U.S. Government 
agencies, even though it did not fit within the prevailing definition 
of DHS responsibilities.
    Further, I would have authorized the lab to hire some young 
scientists with recent degrees, to reinvigorate what had been a leading 
radiation measurements laboratory, some 20-30 years earlier. Many such 
newly-minted Ph.D.s would, in my opinion, have been keenly interested 
in contributing their knowledge and talents to defending the Nation 
against the terrorist threat. Briefly, I would have decided that 
although the lab had some issues, it would have been worth rebuilding 
it into a high profile DHS/S&T facility in New York.
    Apparently, DHS management did not share my feeling.

Proposals and Rejections

    During 2003, S&T management wisely decided to permit ongoing 
projects to continue. In 2004, management naturally and correctly 
wanted to develop a program plan for EML that corresponded more to DHS 
needs and requirements. EML proposed several projects, working with me 
as appropriate, but very few of these met approval from management 
above my level. The Comprehensive Radiation Sensor project, for 
example, was disapproved, even though NY City officials were very 
interested in it. Management decided that many projects were not within 
DHS's mission, and, indeed, this might have been true in some cases, 
although I disagreed with their assessments in others. At this point, I 
sensed a growing difficulty in the relations and communications between 
EML and S&T's management.
    By spring 2005, as we were still working on programs and budgets 
for FY05, which had begun six months earlier, little remained of what 
EML had initiated post 9/11. Technical assistance and training for 
local officials was cut back by two-thirds. Other proposals were 
rejected in their entirety.
    In addition, a bit later, a new project, involving EML, was 
requested by S&T 's Portfolio Manager for Radiation and Nuclear 
Countermeasures, Dr. Sonya Bowyer. This effort was called 
``reachback.'' It proposed using EML scientists (together with 
scientists from Brookhaven National Laboratory in Long Island) to 
provide assistance to local officials and responders, when their 
radiation monitoring equipment produced alarms. The general idea, which 
had been conceived much earlier, was to have a process in place to deal 
quickly with inevitable false alarms. Experts from the labs would 
provide advice to the responder in real time in analyzing the alarm. On 
those few occasions where they could not resolve the alarm, another 
level of reachback would be provided by the national weapons 
laboratories. This program was to serve the New York region. There were 
efforts to make similar arrangements with other laboratories for other 
regions of the country.
    Fortunately, reachback has now been resurrected by the Domestic 
Nuclear Detection Office (DNDO), located within DHS, but independent of 
S&T. I understand that this work is about to be realized, both 
regionally and nationally. However, I am told that there are still 
problems in that EML was experiencing difficulties in getting approval 
to purchase a few hundred dollars of equipment to enable their 
participation. I hope this has been resolved.

My Resignation from S&T

    Committee staff have requested that I recount the story of my 
resignation from S&T. In most respects, this is not an important 
matter. However, the reasons that led me to resign may be of interest. 
With your forbearance and for the record, here is the long story.
    In March and early April of 2005, I had to spend much time 
explaining the detailed costs of several EML projects. I was asked to 
justify detailed expenditures, at a minute level, for several proposed 
ideas. This was demanded by an ORD colleague, Dr. John Clarke, who was 
supposedly in charge of EML as a facility. It was disturbing to me that 
the facility manager was deciding at such a nickel and dime level how 
much each R&D project should cost and whether it should proceed, since 
this should reasonably have been the purview of the program manager. 
However, to maintain comity, I took time away from far more complex and 
larger projects at other laboratories, for which I was also 
responsible, to try to accommodate his requests. In the end, since I 
had those other demanding tasks to take care of, and since this 
exercise was draining my time over relatively small matters, I 
suggested that Dr. Clarke take over the whole set of EML projects, with 
the exception of a few that I had been told (by Robert Hooks, Deputy 
Director of ORD) had already been approved at the Office Director 
level.
    One of the exceptions was the ``ship effect'' project, being 
handled by the excellent physicist I mentioned above. I had approved 
the project, but Dr. Clarke somehow was able to place a hold on the 
money, because he objected to the purchase of a neutron detector that 
was included as part of the work. Dr. Clarke insisted that he had this 
right. He further stated that he could not approve such an expense 
unless we could show that the detector could be used after the 
project's end. This demonstrated that Dr. Clarke had no idea of how 
research and development is carried out: if a project is approved, you 
buy the necessary equipment to carry it out, whether or not you can 
find another use for it later. The cost and need of equipment are 
factored into the approval process. Indeed, one usually can find 
another use for equipment and this case was not an exception: we could 
have. The impression was clearly that Dr. Clarke was trying even to 
derail a project already approved at the highest appropriate level.
    Having vociferously defended this project earlier, and since I had 
been previously assured by Mr. Hooks that this project had indeed been 
approved at the Office Director's level, I was quite properly outraged. 
I sent e-mails that included my direct supervisor, Dr. Gerald Parker, 
and his supervisor, who was Mr. Hooks, but they brought no response. 
Finally, I received a response from Mr. Hooks on March 28, 2005, to the 
effect that Dr. Clarke and I had to work this out. This contradicted 
what Mr. Hooks had told me about the project's approval a week or two 
earlier. A further request to Dr. Parker for clarification elicited no 
response whatsoever.
    At this point, I decided that S&T/ORD management was broken to the 
degree that I could no longer perform my job, and I had to leave my 
position. On April 4, I sent an e-mail with my resignation to my chain 
of command, including Dr. Parker, Mr. Hooks, and the Office Director, 
Dr. Maureen McCarthy.
    It turned out that I was correct in determining that management was 
broken: within three days, Dr. Parker summoned me to his office and 
handed me a ``Letter of Counseling''--essentially a reprimand--for 
daring to resign, and threatening me with reprisals if I continued such 
unreasonable behavior. I was also chastised for objecting to Dr. 
Clarke's overstepping his authority. This divorcement from reality was 
noteworthy.
    Incidentally, in nearly 20 years of government service, I had never 
before received a reprimand of any sort. I have, however, received a 
number of commendations for my work, both verbal and written.
    Naturally, I left S&T as soon as I could, within two working days, 
and accepted a position with the Domestic Nuclear Detection Office, 
remaining there for the rest of my federal service, and retiring on 
September 30, 2005. Indeed, most radiological work was already being 
transitioned from S&T to this new office. The working environment there 
was quite satisfactory.
    Afterwards, I was happy to discover, the ``ship effect'' project 
had been approved in its entirety, probably as a result of the furor. 
But, to keep the project going as it should have, I had been forced to 
resign in order to draw sufficient attention to the matter.

Conclusions

    It appeared to me that in 2005, S&T management was trying to 
squeeze EML out of existence by turning off projects one by one, so 
that it could finally be asserted that the lab had no function. It 
became increasingly difficult to obtain approval for any expenditures 
beyond the basic minima of salaries and benefits, heat, light, and 
rent. Further, EML was not permitted to replace staff departures, and 
the number of personnel has shrunk from 60 in 2003 to 34 today. I 
cannot prove there was an overt intent to close the lab; indeed, Mr. 
Hooks assured me at the time I left that this was not the case, but 
Occam's Razor (adopt the simplest hypothesis that satisfies all the 
known data) indicated to me strongly that this was, in fact, what was 
happening.
    EML still exists, to my knowledge, in great part because DNDO is 
using some of their personnel for projects in the New York area. 
Perhaps, since responsibility for radiological and nuclear issues has 
transitioned to DNDO, it might be appropriate for EML to come entirely 
under its aegis.
    If EML were to remain in existence, my remarks above contain some 
ideas on what I feel it might do, and how it might make a significant 
contribution to homeland security. Even at its current, depressed, 
levels, it can be successfully resurrected, if a clear mission is 
articulated and appropriate management is applied. I do think this is 
possible. Some changes will be needed, of course: for one thing, it 
should probably move to a new venue in the New York area, perhaps, as I 
noted above, within a DHS-owned facility.
    If its mission would include functioning as the focus of DHS's 
technical capabilities in the New York area, beyond radiological and 
nuclear issues, it would be necessary to hire some new scientists and 
engineers with expertise in chemical and biological countermeasures. 
This would transform EML into a broader and more capable organization. 
One could also imagine adding collaborative efforts with another S&T 
laboratory, the Transportation Security Laboratory in Atlantic City, 
about 100 miles to the south. TSL specializes in explosives detection, 
and joint work in testing this sort of equipment in New York City would 
probably be a useful synergy. If EML were to be broadened in this way, 
one could argue that it should remain within S&T, which, having 
recently been reorganized, might be more receptive to such a concept 
than it was in the past.

An Additional Observation

    There may be a broader issue here.
    In 2003, two laboratories, EML and the Plum Island Animal Disease 
Center (PIADC), were relocated from other agencies to S&T, a new 
organization within a new organization. I understand from the press 
that there are now plans to close Plum Island and relocate its 
activities elsewhere, probably with a largely new staff. It is not 
surprising that, amidst all the difficulties of establishing new, 
nested structures, and under the watchful eye of a fearful public 
following 9/11, these two laboratories have experienced serious 
difficulties while trying to fit into a new Department and to develop 
missions rather different from their previous ones.
    However, I am also concerned about a third laboratory, the above-
mentioned Transportation Security Laboratory (TSL), also involved in 
post-9/11 turmoil. TSL has just (2006) transitioned to S&T from the 
Transportation Security Administration (TSA), which is, of course, also 
within DHS.
    TSL is not a minor player: it is the world's gold standard for 
developing and certifying explosives detection equipment, especially as 
applied to transportation security. Virtually all security technology 
in U.S. (and in many foreign) airports today have been developed there. 
Vitally needed improvements are being developed there right now. The 
lab and its staff are impressive: I urge the Committee Members to visit 
it.
    Unfortunately, in the bureaucratic turbulence following 9/11, TSL 
has been moved between agencies twice. Its budget has undergone wild 
fluctuations, both up and down. This year, I am told, their budget has 
dropped by a factor of two from last year. This unstable situation, 
both institutional and fiscal, is destroying morale there; some 
scientists have left, others may well leave soon. Staff have been 
reduced from about 80, a few years ago, to 54 now. Like EML, they have 
not recently been able to hire new scientists or engineers. There are 
rumors that its equipment certification unit, which has been looked 
upon to provide aviation security equipment standards around the world, 
may be asked to raise money from vendors to continue its effective 
existence, beyond the fees currently levied on those asking for 
certification. There are other rumors that this federal laboratory, 
staffed by federal employees, may be required to compete for its 
existence with national laboratories (that have relatively immense 
levels of staffing, much other funding and other missions) and with the 
private sector.
    I hope these tales aren't true. The Federal Government's ability to 
issue standards for explosives detectors should not depend on a revenue 
stream. Moreover, TSL and other federal laboratories are part of the 
federal infrastructure: they are federal assets, run by federal 
employees, who have loyalty to the mission, and who do not have to keep 
an eye out for profits or for obtaining the next contract. This 
laboratory is especially needed to provide for the Nation's security, 
particularly regarding air travel, where we all know there is a 
serious, ongoing terrorist threat.
    I trust and hope that DHS will now be able to provide TSL with 
steady and predictable funding and a consistent vision, so that it may 
continue its excellent work. I fervently hope that TSL will not be 
subject to the same perturbations that the other two laboratories 
within DHS have endured during this difficult period of adjustment.

                   Biography for M. Anthony Fainberg
    Upon retiring from federal service after twenty years, Dr. Fainberg 
recently became a Staff Member at the Institute for Defense Analyses. 
At retirement, Dr. Fainberg was Director of the Office of 
Transformational Research and Development of the Domestic Nuclear 
Detection Office of the Department of Homeland Security. At the 
Department of Homeland Security, he had previously been Program Manager 
for Radiological/Nuclear Countermeasures and for Explosives 
Countermeasures in the Science and Technology Directorate of the 
Department. Earlier, he served as Director for Federal Laboratories in 
that Directorate. Previously, he was Division Chief at the Advanced 
Systems and Concepts Office, Defense Threat Reduction Agency, 
Department of Defense, and before that, he held the title of Director 
of the Office of Policy and Planning for Aviation Security in the 
Federal Aviation Administration.
    After receiving his training and degrees in experimental particle 
physics, Dr. Fainberg worked as a researcher and university lecturer 
for eleven years, producing some 40 technical publications. His 
experience includes work at U.S. National Laboratories; at CERN, the 
international nuclear laboratory in Geneva; and at universities in the 
U.S. and Italy. He turned to applied physics in 1977, entering the 
field of nuclear safeguards and nonproliferation at Brookhaven National 
Laboratory, where he was responsible for projects involving technical, 
systems, and policy issues. In the course of his duties at Brookhaven, 
he worked with officials at the U.S. Department of Energy, the U.S. 
Nuclear Regulatory Commission, and the International Atomic Energy 
Agency in Vienna.
    In 1983, Dr. Fainberg became a Congressional Science Fellow of the 
American Physical Society and spent a year as a legislative aide in the 
office of a U.S. Senator. Following the fellowship, he joined the staff 
of the Congressional Office of Technology Assessment, where he 
specialized in national security issues. He worked for several years in 
analyses of missile defense technologies. Later, he worked on projects 
dealing with the Department of Energy nuclear weapon complex, the 
proliferation of weapons of mass destruction, and has originated and 
directed projects on terrorism and on technologies of use in military 
operations other than war.
    Dr. Fainberg has frequently testified before Congress and has 
briefed both congressional staff and the media in his areas of 
expertise; he has appeared on National Public Radio, CNN, BBC, CNBC, 
and other outlets. He has also briefed National Academy of Sciences 
panels on aviation security matters. Dr. Fainberg is also active in the 
American Physical Society and the American Association for the 
Advancement of Science, and has co-edited a book on energy supply and 
demand.

EDUCATION:

Ph.D., 1969, University of California, Berkeley; High Energy Physics.

A.B., 1964, New York University; Magna cum Laude, Physics.

EXPERIENCE:

Currently: Adjunct Staff Member at the Institute for Defense Analyses, 
        researching issues related to the international nuclear non-
        proliferation regime, risk analysis in the context of homeland 
        security, and problems at the intersection of technology and 
        counterterrorism.

2005: Director of Office of Transformational Research and Development, 
        Domestic Nuclear Detection Office, Department of Homeland 
        Security. Develops and implements research program to produce 
        breakthroughs that radically improve on current radiation 
        detection technologies and methods.

2004-2005: Program Manager for Radiological and Nuclear Countermeasures 
        and for Explosives Countermeasures in the Office of Research 
        and Development of the Science and Technology Directorate, 
        Department of Homeland Security. Structures and manages about 
        $50 M of research and development programs in these two areas. 
        Most of this work is implemented by the laboratories internal 
        to the Department, including those parts of the Department of 
        Energy laboratories that now function as part of the Homeland 
        Security research and development complex.

2003: Director for Federal Laboratories, Science and Technology 
        Directorate, Department of Homeland Security. Responsible for 
        oversight of the federal laboratories that are part of the 
        Science and Technology Directorate of the Department.

2002: Special Assistant for Technology, Office of Policy and Planning 
        for Civil Aviation Security, Transportation Security 
        Administration. Planning and analysis of science and technology 
        approaches to improving transportation security.

1999-2001: Division Chief, Advanced Systems and Concepts Office, 
        Defense Threat Reduction Agency. Planning and overseeing 
        projects with long-term impact studying the reduction of 
        threats to the United States from weapons of mass destruction 
        and establishing criteria for future U.S. nuclear forces 
        structure. Preceptor, Georgetown University, Program in 
        Science, Technology, and International Affairs.

1996-1999: Director, Office of Policy and Planning for Aviation 
        Security, Federal Aviation Administration. SES-level position 
        responsible for overseeing aviation security research and 
        development; promulgating rules and regulations governing civil 
        aviation security; and developing policies and procedures for 
        assuring security at FAA facilities.

1995-1996: Self-employed consultant, national security analyst 
        specializing in counterterrorism, nuclear safeguards, remote 
        sensing technology. Clients included Department of Defense, 
        Brookhaven National Laboratory, National Academy of Sciences, 
        George Washington University, Lawrence Livermore National 
        Laboratory, and other research organizations.

1985-1995: Senior Associate and Project Director, Office of Technology 
        Assessment, U.S. Congress, Washington, DC. Areas of expertise: 
        technology and terrorism; ballistic missile defense; nuclear 
        proliferation; proliferation and the former Soviet Union; 
        science policy. Most recent project: international peace 
        support operations.

1991-1992: Visiting Fellow, Center for International Security and Arms 
        Control, Stanford University, worked on issues in nuclear non-
        proliferation.

1983-1984: Legislative Aide, Office of Senator Jeff Bingaman, 
        Washington, DC. Handled foreign policy issues as well as 
        technical matters related to arms control; worked in areas 
        related to Armed Services Committee, foreign policy, and 
        science policy.

1977-1983: Physicist, Brookhaven National Laboratory, Upton, New York. 
        Responsibilities included technical and systems studies of 
        problems in nuclear safeguards and non-proliferation.

1977-1978: Adjunct Associate Professor of Physics, Syracuse University, 
        Syracuse, New York. Responsible for developing proposals for 
        experiments in particle physics.

1973-1977: Research Assistant Professor of Physics, Syracuse 
        University, in residence at Brookhaven National Laboratory. 
        Research in particle physics and teaching, directed small teams 
        of physicists and technicians.

1970-1972: Staff Physicist, Italian National Institute of Nuclear 
        Physics, Turin, Italy. Engaged in particle physics research at 
        European Centre for Nuclear Research, Switzerland.

LANGUAGES:

    Fluent French, Italian, German, conversational Spanish.

HONORS, PROFESSIONAL SOCIETIES, and OFFICES:

    Member, American Physical Society (APS), American Association for 
the Advancement of Science (AAAS). Fellow, APS. Congressional Science 
Fellow, APS, 1983-1984. Past Chair, Forum on Physics and Society of 
APS; Vice-Chair, APS Panel on Public Affairs.

CLEARANCES:

    Top Secret, Q (Dept. of Energy).

SELECTED PUBLICATIONS, 1985-present

Office of Technology Assessment (OTA) publications:

``Improving the Prospects for Future International Peace Operations,'' 
September 1995.

``Nuclear Safeguards and the International Atomic Energy Agency,'' May 
1995.

``Proliferation and the Former Soviet Union,'' September 1994.

``Technology and Terrorism: Structuring Security,'' January 1992.

``Technology and Terrorism: The Federal Effort,'' July 1991.

``Review of the Department of Energy Modernization Plan,'' September 
1989.

``The Potential Biological and Electronic Effects of EMPRESS II,'' 
November 1988.

``SDI: Technology, Survivability, Software,'' May 1988.

``A Treaty-Compliant Accidental Launch Protection System,'' April 1988.

``Permanently Orbiting Space Cyclers Between Earth and Mars,'' April 
1986.

``Ballistic Missile Defense Technologies,'' September 1985.

Non-OTA publications:

``National Comparative Risk Assessment Pilot Project,'' IDA Document D-
3309, 2006.

``Terrorist Use of Weapons of Mass Destruction (WMD): Past Performance, 
Future Prospects, and Technical Issues,'' Paper presented to The First 
Bi-Annual International Symposium of the Center for Asian Terrorism 
Research, October, 2005, Denpasar, Indonesia, The Anatomy of Terrorism 
and Political Violence in South Asia, Proceedings published as IDA 
Paper P-4096.

``Aviation Security in the United States: Current and Future Trends,'' 
Transportation Law Journal, Vol. 25, No. 2, 1998.

``Technology for International Peace Operations,'' (Washington, DC: The 
Institute for Technology Assessment, March 1998).

``Strengthening IAEA Safeguards: Lessons from Iraq,'' (Stanford, CA: 
Center for International Security and Arms Control, May 1993).

``Explosives Detection for Aviation Security,'' Science, 20 March 1992.

``How Soviet, U.S. Scientists Could Cooperate on Research,'' op-ed, San 
Francisco Chronicle, January 22, 1992.

With Ruth Howes, co-editor, The Energy Sourcebook, (New York: American 
Institute of Physics, February 1991).

``Fossils Fuels: Coal, Petroleum, Natural Gas'' in The Energy 
Sourcebook, R. Howes and A. Fainberg, co-editors (New York: American 
Institute of Physics, February 1991).

``SDI: How Much Should the Public be Told?'' Forum for Applied Research 
and Public Policy, University of Tennessee, Knoxville, TN, Spring 1990.

``ALPS and the ABM Treaty,'' Arms Control Today, April 1989.

``Observations on the Feasibility and Survivability of Near-term 
Strategic Defense,'' in Nuclear Arms Technologies in the 1990s, eds. 
Hafemeister, D. and Schroeer, D., (New York: American Institute of 
Physics, 1989).

Book Review of ``Lost at the Frontier: U.S. Science and Technology 
Policy Adrift,'' by R. Roy and D. Shapley in BioScience, May 1986.

With E.V. Weinstock, ``Verifying a Fissile-Material Production Freeze 
in Declared Facilities, with Special Emphasis on Remote Monitoring,'' 
in Arms Control Verification, ed. Tsipis, K., Hafemeister, David W., 
and Janeway, P., (Pergamon-Brassey's: Washington, DC), 1986.

    Chairman Miller. Thank you, Dr. Fainberg. Ms. Albin.

STATEMENT OF MS. LYNN ALBIN, RADIATION HEALTH PHYSICIST, OFFICE 
 OF RADIATION PROTECTION, WASHINGTON STATE DEPARTMENT OF HEALTH

    Ms. Albin. Chairman Miller, Congressman McCaul and 
Committee Members, thank you for the opportunity to provide 
testimony on the experience of Washington State in our 
environmental radiation monitoring efforts following the 
termination of EML's Quality Assurance Program. I have worked 
for the Washington State Department of Health for 21 years. I 
began as a radiochemist with the responsibility to provide 
accurate analysis of radioactive contaminants in environmental 
samples. Presently, I am a health physicist with the Department 
of Health, where I use the data to assess public and 
environmental health risks and to provide oversight of federal 
and State licensed facilities that could potentially release 
radioactive contaminants into the environment. I am also 
responsible for analyzing radiochemical data to determine its 
quality and its validity.
    The Washington State Department of Health has operated in 
environmental radiation monitoring programs since 1961. All of 
the samples collected by the Department of Health are analyzed 
by the Public Health Laboratory. This laboratory has the 
capability to analyze for very low levels of naturally 
occurring radionuclides, mixed fission products and source 
materials in any environmental media.
    Of particular interest to the Department of Homeland 
Security, the Public Health Lab analyzes the air we breathe, 
the water we drink, the soil in which we grow our food, the 
food we eat and the external radiation levels that surround us. 
The laboratory uses rapid methods to screen deposition samples 
to quickly identify contaminants. The data provides the basis 
of environmental assessments and decisions that are made during 
radiological emergencies. I can't emphasize enough how 
important it is that we are confident that the data is both 
accurate and precise when we make public health decisions.
    When it was part of the Department of Energy, EML provided 
performance testing samples for exactly the type of work the 
Public Laboratory performs. This program was available at no 
charge to the Public Health Laboratory and was an important 
component of quality assurance.
    QAP provided a link to the scientists within the 
Environmental Monitoring Laboratory. Radiochemists who develop 
many of the classical methods of analyzing radionuclides in the 
environment worked for EML. These methods were complied into a 
manual that is widely regarded as the standard of radiation 
measurement techniques. As a new radiochemist, I was handed the 
manual as a basis of understanding radiochemistry. This 
practice continues today.
    It wasn't only the EML performance testing samples and the 
radiochemistry manual that benefited the quality of 
measurements. It was also that the scientists themselves were 
easily approached to assist Public Health Laboratory chemists 
in solving questions regarding radiochemistry. Radiochemistry 
is part science and part art. The science behind the chemistry 
allows separation and concentration of specific radionuclides, 
but there is also an art that requires experience to correctly 
interpret resulting data. It takes years of experience to be 
proficient in radiochemistry. The EML assisted the Public 
Health Laboratory whenever called upon.
    Performance testing is important for assessment of 
laboratory capabilities, as well as important to the Department 
of Health's credibility when we use lab data to support 
decisions. The value of the performance testing comes into play 
when data or decisions are questioned. From Washington State's 
point of view, the more performance tests we have to support 
our data the better.
    Two examples of how QAP helped prepare Washington State to 
respond to an actual emergency are the state's response to 
fires on the Hanford nuclear site in 2000 and the Department of 
Homeland Security's TOPOFF2 exercise in 2003. During the 
Hanford fire, the state mobilized field teams to collect 
samples. As the fire burned, wind created the concern that soil 
surface contamination would be blown offsite. The Department of 
Health analyzed soil, airborne particulates and charred 
vegetation samples. Sampling results showed that first 
responders were not working in a radiologically hazardous 
environment and no offsite public or environmental health 
impact existed.
    It is just as critical that decision-makers are confident 
that the laboratory has reached appropriate detection limits, 
even in cases where the data reveal no impact. QAP provided an 
independent evaluation of lab performance that specifically 
supported the credibility of Washington State protective 
actions. Performance testing is essential in assuring that if 
results are questioned, there is a reliable method to verify 
data. Washington State, since losing the program, participates 
less often in performance testing programs because of budget 
considerations.
    During TOPOFF2, Washington State had to make quick 
assessments of radiological conditions following a simulated 
terrorist attack. Although unplanned, samples collected by 
other agencies, including the EPA and the Federal Radiological 
Monitoring Assessment Center, were also brought to the Public 
Health Laboratory for analysis. The lab's strong quality 
assurance program gave confidence that the initial assessments 
were correct, even though samples were not commonly analyzed at 
the laboratory. It further provided evidence to other agencies 
that lab services had documented verification and it was 
capable of accurately and precisely measuring radioactive 
contamination in environmental samples. Once again, the data 
reported by the Public Health Lab was used to support 
protective action decisions. Confidence in that data was 
essential.
    In 2003, the department participated in a performance test 
sponsored by NIST, designed to test the capability and capacity 
of laboratories to quickly measure radioactive contaminants in 
environmental media as well as synthetic urine and feces. One 
of the findings of the study was an appreciation for the 
analytical uncertainty in the reported result, which was much 
higher than for traditional performance tests. This gave rise 
to questions of how good is good enough for emergency samples, 
how do we communicate analytical uncertainty to decision-
makers, and how, in turn, will that uncertainty be factored 
into protective action? These are all questions that remain 
unanswered and could be a starting point for future EML support 
to states for homeland security-related emergencies.
    As a person who reviews data validity, I must be confident 
that I am handing the best information to the decision-makers. 
The welfare of the public, emergency workers and the 
environment rely on the quality of laboratory data. These 
results for the basis for decisions concerning health risk, 
food embargoes and population relocation. Performance testing 
supports data quality assessment by providing an independent 
evaluation of lab capability. This independent review helps 
defend data, whether they support recommended protective 
actions that may impact someone's life, or whether they lend 
confidence to a recommendation of no action.
    In conclusion, accurate, defensible data improves 
environmental assessments and enables managers to make better 
and more cost-efficient decisions. The termination of the QAP 
affects Washington State because we can't guarantee the level 
of participation in the private laboratory replacement programs 
due to costs. Cutting performance programs weakens the 
defensibility of the data. We are also missing the solid 
technical support to the Public Health Laboratory provided by 
the Quality Assurance Program and the scientists at 
Environmental Measurements Laboratory.
    [The prepared statement of Ms. Albin follows:]
                    Prepared Statement of Lynn Albin
Dear Chairman Miller and Ranking Member James Sensenbrenner,

    Thank you for the opportunity to provide testimony on the 
experience of Washington State in our environmental radiation 
monitoring efforts following the termination of the Environmental 
Measurements Laboratory (EML) Quality Assurance Program (QAP). My name 
is Lynn Albin and I have worked for the Washington State Department of 
Health for 21 years. I began as a radiochemist with the responsibility 
to provide accurate analyses of radioactive contaminants in 
environmental samples. Presently, I am a radiation health physicist 
with the Department of Health's Office of Radiation Protection. My 
responsibilities include using radiochemical analyses to assess public 
and environmental health risks and to provide oversight of federal and 
State-licensed facilities that could potentially release radioactive 
contaminants in the environment. Additionally, I am the liaison between 
Office of Radiation Protection and the Department's Public Health 
Laboratory (PHL). In this capacity, I am responsible for analyzing 
radiochemical data to determine its quality and validity.
    The Washington State Department of Health has operated an 
environmental radiation monitoring program since 1961. The early 
program looked primarily at atmospheric fallout from nuclear weapons 
tests. The program expanded to evaluate off-site environmental impacts 
related to operations of nuclear facilities and to provide readiness 
for assessment in case of a radiological emergency. An essential part 
of the assessments is the independent analysis of environmental 
samples.
    All of the samples collected by the Department of Health are 
analyzed at the Public Health Laboratory. The Laboratory has the 
capability to analyze for very low levels of naturally occurring 
radionuclides, mixed fission products and source materials in any 
environmental media.
    Of particular interest to the Department of Homeland Security, the 
Public Health Laboratory analyzes the air we breathe, the water we 
drink, the soil in which we grow our food, the food we eat and the 
external radiation levels that surround us. The Laboratory also uses 
rapid methods to screen deposition samples to quickly identify 
radioactive contaminants. The data provided is the basis of 
environmental assessments and decisions made during radiological 
emergencies. I cannot emphasize enough how important it is that we are 
confident that the data is both accurate and precise when we make 
public health decisions.
    When it was part of the Department of Energy, the Environmental 
Measurements Laboratory, provided performance testing samples for 
exactly the type of work the Public Health Laboratory performs. This 
program was available at no charge to the Public Health Laboratory and 
was an important component of laboratory quality assurance. Through 
this program, the Public Health Laboratory was supplied with 
environmental samples that contained well-quantified amounts of 
radionuclides. The Laboratory analyzed the samples and reported the 
results back to EML. EML would then evaluate the data and document the 
accuracy of the submitted result against the known value and against 
the mean value submitted by all participating laboratories.
    As far as I know, all radiochemistry laboratories supporting 
environmental monitoring in the Northwest participated in the Quality 
Assessment Program. Because the QAP results for all laboratories were 
included in the summary reports, I was able to use these reports when 
reviewing performance of other Northwest environmental radiochemistry 
labs.
    Additionally the QAP provided a link to the scientists within 
Environmental Monitoring Laboratory. Radiochemists who developed many 
of the classical methods for analyzing radionuclides in environmental 
samples worked for EML. These methods were compiled into a manual that 
is widely regarded as the standard of radiation measurement techniques. 
As a new radiochemist, I was handed that manual as the basis of 
understanding radiochemistry. This practice continues today.
    It wasn't only the EML performance testing samples and the 
radiochemistry manual that benefited the quality of measurements; it 
was also that the chemists themselves were easily approached to assist 
Public Health Laboratory chemists in solving questions regarding 
radiochemistry. Radiochemistry is part science and part art. The 
science behind chemistry allows the separation and concentration of 
specific radionuclides but there is also an art requiring experience to 
correctly interpret the resulting data. It takes years of experience to 
be proficient in radiochemistry. The Environmental Measurements 
Laboratory assisted the Public Health Laboratory in evaluating the 
ability to correctly interpret spectral data through consultation and 
through their Gamma Spectrometry Data Evaluation Program. This program 
provided simulated spectral data to the Laboratory to test the accuracy 
of the gamma-ray spectrometry software and the ability of the chemists 
to correctly interpret the results of their own software. There is no 
replacement for this program.
    The Quality Assurance Program was one of several performance 
testing programs in which the Public Health Laboratory participated. 
Table 1 attached to this testimony summarizes the history of those 
programs. When the QAP program terminated, the Department of Health 
lost a cost-effective resource for evaluating laboratory performance as 
well as the resource provided by EML scientists themselves. The Public 
Health Laboratory replaced the QAP with a performance testing program 
provided by a private laboratory and augmented tests from an existing 
program. This private laboratory provides the same environmental media 
and tests that were previously provided by QAP. The disadvantage of the 
new program is that it is expensive. In fact, this year the Public 
Health Laboratory could not afford to fully participate in this 
performance testing program.
    While there is no legal requirement to participate in all 
performance tests, laboratories cannot be certified by EPA to analyze 
drinking water samples or be qualified to perform environmental 
measurements in support of the Department of Energy's Environmental 
Management's activities without successfully passing a minimum number 
of tests. Performance testing is important for assessment of laboratory 
capabilities as well as important to the Department of Health's 
credibility when we use laboratory data to support decisions. The value 
of the performance testing program comes into play when data or 
decisions are questioned. From Washington State's point of view, the 
more performance tests we have to support our laboratory results, the 
better.
    Two examples of how the Quality Assurance Program helped prepare 
Washington State to respond to actual emergency situations are the 
State's response to the fires on the Hanford Nuclear Site in 2000 and 
the Department of Homeland Security's TOPOFF2 exercise in 2003.
    During the Hanford fire, the State mobilized field teams to collect 
samples. The Laboratory provided quick-turnaround results and health 
physicists interpreted results and guided decision-makers regarding 
protective actions. As the fire burned, wind created concern that soil 
surface contamination would be blown offsite. The Department of Health 
analyzed soil, airborne particulates and charred vegetation samples. 
Sampling results showed that the first responders were not working in a 
radiological hazardous environment and no offsite public or 
environmental health impact existed.
    It is just as critical that decision-makers are confident that the 
laboratory has reached appropriate detection limits even in cases where 
data reveal no impact. QAP provided an independent evaluation of 
laboratory performance that specifically supported credibility of 
Washington State protective actions. Performance testing is essential 
in assuring that if results are questioned, there is a reliable method 
to verify data. Washington State, since losing the program, 
participates less often in performance testing programs because of 
budget considerations.
    During TOPOFF2, Washington State had to make quick assessments of 
radiological conditions following a simulated terrorist attack. The 
first samples analyzed by the Public Health Laboratory were non-
standard media: deposition collected on tape and soiled bandages from a 
victim of the initial simulated blast. These samples provided the 
hazard description and were followed by the customary environmental 
samples such as air particulates and soil. Although unplanned, samples 
collected by other agencies including the Environmental Protection 
Agency and the Federal Radiological Monitoring and Assessment Center 
were also brought to the Public Health Laboratory for analysis. The 
laboratory's strong quality assurance program gave confidence that the 
initial assessments were correct even though the samples were not 
commonly analyzed at the laboratory. It further provided evidence to 
other agencies using the State's laboratory services that the 
laboratory had documented verification that it was capable of 
accurately and precisely measuring radioactive contamination in 
environmental samples. Once again the data reported by the Public 
Health Laboratory was used to support protective action decisions. 
Confidence in that data was essential.
    In 2003 the Department of Health participated in a performance test 
sponsored by the National Institute of Science and Technology designed 
to test the capability and capacity of the laboratories to quickly 
measure radioactive contaminants in environmental media as well as in 
synthetic urine and feces. This was the first such performance test and 
Washington State was one of two states that participated. The samples 
were a challenge to complete within the designated time and required 
adjustments in measurement protocol. One of the findings of the study 
was an appreciation for the analytical uncertainty in the reported 
result which was much higher than for traditional performance tests. 
This gave rise to questions of how good is good enough for emergency 
samples, how do we communicate analytical uncertainty to decision-
makers and how, in turn, will that uncertainty be factored into 
protective actions? These are all questions that remain unanswered and 
could be a starting point for future EML support to states for homeland 
security-related emergencies.
    As the person who reviews the data validity, I must feel confident 
that I am handing the best information to the decision-makers. The 
welfare of the public, emergency workers, and the environment rely on 
the quality of the laboratory data. These results form the basis for 
decisions concerning health risk, food embargoes, and population 
relocation. Performance testing supports data quality assessment by 
providing an independent evaluation of laboratory capability. This 
independent review helps defend data, whether they support recommended 
protective actions that may impact someone's life or whether they lend 
confidence to a recommendation of no action.
    In conclusion, accurate, defensible data improves environmental 
assessments and enables managers to make better and more cost-effective 
decisions. The termination of the QAP affects Washington State because 
we cannot guarantee the level of participation in the private 
laboratory replacement program due to costs. Cutting performance 
programs weakens the defensibility of the data. We also are missing the 
solid technical support to the Public Health Laboratory provided by the 
Quality Assurance Program and the scientists at the Environmental 
Measurements Laboratory.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        Biography for Lynn Albin
    Lynn Albin is a Radiation Health Physicist with the Washington 
State Department of Health. She has 21 years experience in the 
environmental radiation field assessing public and environmental 
health. She began her career analyzing plutonium in coral soils from 
the United States nuclear testing ground in the Marshall Islands. As 
part of her graduate studies in Radiation Ecology at the University of 
Washington, Ms. Albin studied the removal rates of radioactive 
contaminants from the Marshall Island Atoll ecosystem.
    Ms. Albin was influential in initiating environmental monitoring at 
the University of Washington to assess radioactive fallout following 
the 1986 fire and explosion of the Chernobyl Nuclear Power Plant in the 
Ukraine. The Washington State Department of Social and Health Services 
(later the Department of Health) also responded to the accident. In 
addition to monitoring fallout in air, rainwater and ambient radiation 
levels, the Department monitored for contamination in milk, food and 
other environmental media. In June of 1986, Ms. Albin joined the 
chemists at the State's Public Health Laboratory to assist with their 
response to the Chernobyl accident.
    In 1988, Ms. Albin transferred within the Department of Health to 
the Office of Radiation Protection. As a senior Radiation Health 
Physicist, her duties include environmental oversight of radiological 
monitoring programs within Washington State including the US Department 
of Energy's Hanford Site and the Energy Northwest nuclear power plant. 
She provides technical support in radiological site assessment and 
radiological risk evaluation and leads quality assurance activities 
within the Office of Radiation Protection.
    Ms. Albin is the laboratory liaison between the Office of Radiation 
Protection and the Department of Health's Public Health Laboratory. She 
is responsible for analyzing radiochemical data to determine validity, 
quality and scientific significance related to public health and the 
environment.
    Ms. Albin is member of the Department of Health's Emergency 
Response Team. In this capacity she uses her expertise to provide 
support at the project level to ensure sampling design and analysis 
criteria are appropriate and technically defensible. She has 
participated in numerous emergency response drills and exercises 
including TOPOFF2 and has also responded to actual emergencies such as 
the fire on the U.S. Department of Energy's Hanford site in 2002.
    Ms. Albin is a member of the Conference of Radiation Control 
Program Directors' G-2 Committee on Ionizing Measurements.

    Chairman Miller. Thank you, Ms. Albin. Assistant 
Commissioner Duecker.

 STATEMENT OF MR. JONATHAN A. DUECKER, ASSISTANT COMMISSIONER, 
    NEW YORK CITY POLICE DEPARTMENT, COUNTERTERRORISM BUREAU

    Mr. Duecker. Good morning, Chairman Miller and Members of 
the Committee. My name is Jonathan Duecker. I am the Assistant 
Commissioner of Counterterrorism for the New York City Police 
Department and previously, I was the Director of the Office of 
Homeland Security of the Commonwealth of Pennsylvania. I am 
pleased to be here today and I thank you for the opportunity to 
speak to you about something that is of vital importance to 
both the city and State of New York as well as the United 
States.
    When Police Commissioner Raymond W. Kelly took office in 
January 2002, the pyre in the grounds of the World Trade Center 
was still burning. He made his personal mission to ensure that 
New York City would never fall victim to such an event again. 
Commissioner Kelly's leadership and vision was the nascence of 
the NYPD's Counterterrorism Bureau. The mission, to make New 
York City inhospitable to terrorists, to their sympathizers, 
their supporters and their facilitators.
    Fortunately, New York City and the NYPD has thwarted more 
than one plot against New York since September 11, 2001. One 
widely supported success was the investigation, the arrests and 
the convictions of terrorists planning to blow up the Herald 
Square subway station two weeks before the Republican National 
Nominating Convention. In addition, the NYPD's robust 
deterrence and counter-surveillance program has proved its 
success, confirmed by Khaled Sheik Mohammed himself, who cited 
NYPD deployments as the sole reason that an Ohio truck driver, 
Iyman Farris, presently serving a prison sentence for his role 
in the plot to demolish the Brooklyn Bridge, decided that he 
would, in fact, not carry out that plot.
    In New York City, we are combating terrorism aggressively. 
We acknowledge and welcome the synergy that comes with joining 
State, regional and federal partners, all of whom bring 
resources and expertise to the fight. Over the past few years, 
our relationship with the Department of Homeland Security has 
matured. I can say that, despite differences that have cropped 
up from time to time, the level of cooperation we presently 
enjoy has never been better. It is in the spirit of cooperation 
and collaboration that I ask you today to ensure that the 
critical federal resources are neither squandered nor withdrawn 
from New York City. I am talking about the yeoman's work taking 
place at the Environmental Measurements Laboratory located in 
Manhattan.
    The EML has distinguished roots dating back to the 
Manhattan Project. It enjoys a renowned reputation as a subject 
matter expert in all things nuclear and radiological, from 
detection to testing to measurement and assessment. Although 
EML moved organizationally from under the direction of the 
Atomic Energy Commission to the Department of Energy and then 
to the Department of Homeland Security, it never left its home 
in New York City.
    The NYPD has found EML to be a responsive neighbor and 
partner. A few years ago, when we determined that we needed to 
purchase small, portable but reliable radiation detectors, we 
asked our federal colleagues to recommend a laboratory capable 
to testing the products then available on the market. We were 
told that we would have to travel across the country to the 
northwest, where testing would consume a year's time. EML 
stepped in and performed the testing for us in a few weeks and 
made recommendations that work for us to this day.
    As a result, the NYPD has acquired approximately 700 hand-
held gamma monitors and 120 gamma neutron detectors to detect 
potential radiological weapons of mass destruction. They have 
been deployed throughout the department and are in daily use 
throughout Manhattan and access points to the city. In 
addition, advanced gamma detectors and Geiger counters have 
been assigned to specialized units such as the Emergency 
Service Unit and the Bomb Squad. The department continues to 
seek out and acquire new technologies to aid us in the war on 
terror. In the future, we plan to procure additional nuclear, 
biological and chemical detection monitoring devices. EML has 
been instrumental in helping us make wise choices from among 
the available technology and the available products.
    Now, however, the importance of keeping a vibrant EML in 
New York City is more important than ever. Secretary Chertoff 
announced last year that the Securing the Cities Initiative, 
STC, would be inaugurated in New York City. Under STC, the 
Domestic Nuclear Detection Office at DHS has been tasked with 
developing and implementing the deployment of a system to 
detect the introduction of nuclear material into our cities for 
illicit purposes. The EML plays a pivotal role in STC in New 
York City, providing technical and management roles.
    The Acting Director of EML, Dr. Adam Hunter, has served as 
a key liaison between DHS and the myriad of federal, State and 
local partners that comprise the STC partnership. He has served 
as a mentor to jump start initiative activities and has been a 
key advisor on technical details regarding the acquisition, 
evaluation and operation of radiological detection equipment, 
and he has provided critical guidance on the operational 
exercise activities currently underway in support of these 
initiative goals. Without Director Hunter's guidance and 
assistance from his laboratory, the STC goals of creating a 
formidable, in-depth defense of New York City and the region 
from radiological or nuclear attack would be severely degraded.
    In fact, EML stood next to New York City in our early 
efforts to establish a defense of the city through the 
successful Regional Radiological Pilot Project. That program 
yielded significant research and funding, which led to the 
fielding of discrete radiological detection equipment currently 
used to locate and identify radiological source material.
    Clearly, EML's work in the New York region has been 
tremendously successful and has provided a substantial 
credibility for federal, State and local agencies to join in a 
coordinated defense against a terror threat of the radiological 
or nuclear attack against the New York region. In fact, more 
assistance from EML would be welcome and would help consolidate 
the initial success achieved through the programs, such as 
Securing the Cities. The outcome of that program will result in 
a significant increase in the number of detection equipment 
deployed by STC partners, equipment which will need precision 
calibration and support going forward.
    Also, private industry is rising to the challenge to 
enhance the sensitivity and capabilities of radiological 
detection equipment and we look to EML to provide further 
guidance on acquisition, evaluation and operational deployment 
on technologies yet to be identified. The question is not 
whether EML has been a success in answering the threat posed by 
international terrorism; rather, the question is whether EML 
stands ready to expand its efforts going forward. The success 
of STC in New York is important to the entire Nation and we 
expect it to be a model for implementing similar initiatives 
throughout the country.
    I would be delighted to answer any questions you may have.
    [The prepared statement of Mr. Duecker follows:]
               Prepared Statement of Jonathan A. Duecker
    Good morning Chairman Miller, Ranking Member Sensenbrenner and 
Members of the Committee. My name is Jonathan Duecker and I am the 
Assistant Commissioner of the New York City Police Department's (NYPD) 
Counterterrorism Bureau (CTB). I was previously the Director of the 
Office of Homeland Security for the Commonwealth of Pennsylvania. I am 
pleased to be here today and I thank you for this opportunity to 
address your committee on a matter that is vital to the health and 
welfare of, not only the State and City of New York, but our nation.
    When Police Commissioner Raymond W. Kelly took office in January of 
2002, the pyre on the grounds of the World Trade Center was still 
burning. He made it his personal mission that New York City never fall 
victim to such a calamity again. Commissioner Kelly's leadership and 
vision was the nascence of the NYPD Counterterrorism Bureau. The 
mission: make New York City inhospitable to terrorists, and to their 
sympathizers, their supporters, and their facilitators.
    Fortunately, the NYPD has thwarted more than one plot against New 
York City since September 11, 2001. One widely reported success was the 
investigation, arrests and convictions of terrorists planning to blow 
up the Herald Square subway station two weeks before the Republican 
National Nominating Convention. In addition, the NYPD's robust 
deterrence and counter-surveillance program has proved its success, 
confirmed by Khaled Sheik Mohammed himself, who cited NYPD deployments 
as the reason that an Ohio truck driver, Iyman Farris, presently 
serving a prison sentence for his role in the plot to demolish the 
Brooklyn Bridge, decided that he could not carry out the plot.
    In New York City, we are combating terrorism aggressively. We 
acknowledge and welcome the synergy that comes with joining State, 
regional and federal partners, all of whom bring resources and 
expertise to the fight. Over the past few years, our relationship with 
the Department of Homeland Security has matured. I can say that, 
despite differences that crop up from time to time, the level of 
cooperation we presently enjoy has never been better. It is in this 
spirit of cooperation and collaboration that I ask you today to ensure 
that critical federal resources are neither squandered nor withdrawn. I 
am talking about the yeoman's work taking place at the Environmental 
Measurements Laboratory (EML) located in Manhattan.
    The EML has distinguished roots, dating back to the Manhattan 
Project. It enjoys a renowned reputation as the subject matter expert 
in all things nuclear and radiological, from protection to testing to 
measurement and assessment. Although EML moved organizationally from 
under the direction of the Atomic Energy Commission to the Department 
of Energy and then to the Department of Homeland Security (DHS), it 
never left its home in New York City.
    The NYPD has found EML to be a responsive neighbor and partner. A 
few years ago, when we determined that we needed to purchase small, 
portable but reliable radiation detectors, we asked our federal 
colleagues to recommend a laboratory capable of testing the products 
then available on the market. We were told that we would have to travel 
across the country to the Northwest, where testing would consume a 
year's time. The EML stepped up and performed the testing for us in a 
few weeks and made recommendations that work for us to this day. As a 
result, the NYPD has acquired approximately 700 hand-held gamma 
monitors and 120 gamma neutron detectors to detect potential 
radiological weapons of mass destruction. They have been deployed 
throughout the Department and are in daily use throughout Manhattan and 
access points to the city. In addition, advanced gamma detectors and 
Geiger counters have been assigned to specialized units such as the 
Emergency Service Unit and the Bomb Squad. The Department continues to 
seek out and acquire new technologies to aid us in the war on terror. 
In the future, we plan to procure additional nuclear, biological, and 
chemical detection and monitoring devices. EML has been instrumental in 
helping us make wise choices from among available products.
    Now, however, the importance of keeping a vibrant EML in New York 
City is more important than ever. Secretary Chertoff announced last 
year that the Securing the Cities (STC) initiative would be inaugurated 
in New York City. Under STC, the Domestic Nuclear Detection Office 
(DNDO) at DHS has been tasked with developing and implementing the 
deployment of a system to detect the introduction of nuclear material 
into our cities for illicit purposes. The EML plays a pivotal role in 
STC-NY, providing technical and management roles.
    The Acting Director of EML, Adam Hutter, has served as the key 
liaison between DHS and the myriad groups of federal, State, and local 
partners that comprise the STC partners. He has served as a mentor to 
jump-start initiative activities and has been a key advisor on 
technical details regarding the acquisition, evaluation and operation 
of radiological detection equipment and he has provided critical 
guidance to the operational exercise activities currently underway in 
support of initiative goals. Without Director Hutter's guidance and 
assistance from his laboratory, the STC goals of creating a formidable, 
in-depth defense of the New York region from radiological or nuclear 
attack would be severely degraded.
    In fact, EML stood next to New York City in our early efforts to 
establish a defense of the city through the successful Regional 
Radiological Pilot Project. That program yielded significant research 
and funding which led to the fielding of discrete radiological 
detection equipment currently used to locate and identify hostile 
radiological source material.
    Clearly, EML's works in the New York region have been tremendously 
successful and have provided a substantial capability for federal, 
State, and local agencies to join in a coordinated defense against the 
terrorist threat of a radiological or nuclear attack against the New 
York region. In fact, more assistance from EML would be welcome and 
would help consolidate the initial success achieved through programs 
such as Securing the Cities. The outcome of that program will result in 
a significant increase in the numbers of detection equipment deployed 
by STC partners, equipment which will need precision calibration and 
support. Also, private industry is rising to the challenge to enhance 
the sensitivity and capabilities of radiological detection equipment 
and we look to EML to provide further guidance on acquisition, 
evaluation, and operational deployment on technologies yet to be 
identified. The question is not whether EML has been a success in 
answering the threat posed by international terrorism; the question is 
whether EML stands ready to expand its efforts going forward.
    The success of STC-NY is important to the country--it is expected 
to be the model for implementing similar initiatives throughout the 
country.
    I would be delighted to answer any questions you may have.

                   Biography for Jonathan A. Duecker
    Assistant Commissioner of Counterterrorism Jonathan Duecker 
graduated from the United States Naval Academy in 1986 and was 
commissioned an Ensign in the U.S. Navy. After attending Navy flight 
school at Pensacola, FL, and receiving his Naval Flight Officer wings, 
he was assigned to the EA-6B ``Prowler'' tactical electronic warfare 
community and flew electronic countermeasures missions from several 
fleet aircraft carriers. After his initial sea tour, Assistant 
Commissioner Duecker was assigned as the Electronic Warfare Range 
Officer at the Atlantic Fleet Weapons Training Facility at Naval 
Station, Roosevelt Roads, PR, where he was responsible for all aspects 
of operational electronic warfare training of surface, sub-surface, and 
aviation units prior to their deployment overseas.
    Assistant Commissioner Duecker attended the University of Wisconsin 
Law School where he received his Juris Doctor, and was admitted to the 
Wisconsin Bar in 1995. He attended the U.S. Department of Justice Drug 
Enforcement Administration (DEA) Basic Agent Training at Quantico, VA, 
and was ultimately assigned as a Special Agent to the Mobile 
Enforcement Team in the DEA Philadelphia Field Division.
    Immediately after September 11, 2001, Assistant Commissioner 
Duecker was assigned by the DEA to the Philadelphia FBI Joint Terrorism 
Task Force. Subsequently, he was mobilized to active duty to the Joint 
Intelligence Task Force--Combating Terrorism at the Defense 
Intelligence Agency (DIA) providing counterterrorism intelligence 
analysis in support of Operations Noble Eagle and Enduring Freedom. 
While at the DIA, Assistant Commissioner Duecker was responsible for 
creating the Homeland Defense Division, which monitors the 
transnational terrorist threat to the continental U.S.
    Assistant Commissioner Duecker was demobilized at the end of 2002. 
In 2003, he was appointed the Deputy Director of the Pennsylvania 
Office of Homeland Security by Pennsylvania Governor Ed Rendell, and in 
2004, was elevated to Director. He served in that position until 
October 2005. Assistant Commissioner Duecker is currently a Commander 
in the U.S. Navy Reserve assigned to the DIA in Washington DC.

                               Discussion

    Chairman Miller. Thank you. And before beginning with the 
questioning, I mentioned earlier that there would be various 
documents, but there is a specific set of documents that have 
been provided to the Minority staff and I now ask unanimous 
consent to enter that set of documents in the record. Thank 
you.
    [The information referred to appears in Appendix: 
Additional Material for the Record, Documents for the Record.]

        Air Force Programs With the Environmental Measurements 
                            Laboratory (EML)

    Chairman Miller. And now the Chair recognizes himself for 
five minutes of questions. Mr. McBrearty, beginning with you. I 
understand that the Air Force has had a longstanding 
relationship with EML, and the lab has participated in various 
nuclear nonproliferation-related programs. I understand that 
some of the work, some of the arrangements, some of what EML 
has done may be classified. Obviously, if we ask a question 
that would lead you into disclosing classified information, do 
not answer that. If it is necessary that we know that to 
understand the answer to the question, we may make other 
arrangements to get that information from you.
    Mr. McBrearty. That would be perfectly fine.
    Chairman Miller. But in this setting, do not.
    Mr. McBrearty. Right.
    Chairman Miller. Obviously, do not disclose classified 
information. And that goes for anyone else who has classified 
information. Mr. McBrearty, is AFTAC now engaged in any program 
or project with EML?
    Mr. McBrearty. We had terminated all the activities that we 
had with them. So currently, no, we have none going on.
    Chairman Miller. Why is that?
    Mr. McBrearty. Well, at the time we had both--some of the 
points made here were excellent. We used their quality control 
and the engineering support to a large extent and used them as 
advisors to our activities. The major reason is that we had--
the small project that we did have was approximately $400,000 a 
year. It was the level-of-effort project. The reason we 
terminated the activities was, as I sort of alluded to and made 
mention in my written testimony, upon notification by DHS that 
there was an intention to close the laboratory, it was 
absolutely necessary that we move these important activities to 
other laboratories within our United States Atomic Energy 
Detection System Network. We had to make that move upon the 
notification that the laboratory was to be closed. So while we 
value it, as I said, very much, what they are capable and have 
been able to do, it was necessary for us to move on.
    Chairman Miller. Okay. And again, how did you learn that 
there was a decision to close EML?
    Mr. McBrearty. In about 2005, in the fall, my project 
officer got a call from, I think, Dr. Clarke or people in the 
DHS office, notifying us that the laboratory was--they were 
planning--that DHS had planned to terminate the laboratory and 
that it would be necessary for us to move our work elsewhere. 
Or the other option given to us would be to pick up the tab for 
it. DHS did not seem interested in the laboratory or what it 
had for their particular job that they had identified.
    Chairman Miller. Okay. And I understand that EML that--
excuse me. The e-mail that you have referred to is one of the 
documents that we----
    Mr. McBrearty. Yes. We have that exchange of e-mails. It 
was absolutely essential for us to move quickly and over the 
course of the next year, we transitioned the equipment and a 
large portion of the sample library, which is a nice national 
asset in some respects, to our other laboratories.
    Chairman Miller. Right. And Mr. McBrearty, I understand 
that you were not pleased with that decision to close EML. What 
did you do about it, if anything?
    Mr. McBrearty. I personally came up here from Florida. It 
is always an interesting trip to come from Florida up here, so 
it was important for me to do so. I came up to talk with the 
people at the Department to explain the importance of the work 
that we saw going on, albeit small, with regard to EML, but 
more importantly, to sort of touch on some of the points that 
were made in here. As I said in my written testimony, I was 
initially extremely pleased to hear DHS had picked the EML up, 
because the DOE had not really had a lot of use for them, as 
the transitions from environmental measurements and things were 
going on. The focus, as has been identified, was more toward 
the larger laboratories. EML has, and had had in the past, 
large assets that were rather unique in the system. So in 
seeing DHS pick this little laboratory, but a very competent 
laboratory, up, I was initially extremely pleased.
    As was mentioned by Mr. Duecker, there has been a plethora 
of what I call Tricorders created for detection of radiation, 
and the entrepreneurship that is out there on the market to 
sell these things is huge. Quality control, measurements, 
validation and testing of these sorts of things, so that you 
have compatibility and things actually work, is critical. And 
to me, that was a job that EML has shown capability to do in 
the past.
    So my initial impression when I heard they were being 
picked up by DHS was great, this is a good location. I was 
disappointed, obviously, when the decision was made, or 
indications of that decision, from two perspectives. One, we 
had to do some moving and shuffling of stuff, which was an 
impact which we have recovered from. But I think, as has been 
mentioned here, the intangibles are the things that worried me 
most.
    Chairman Miller. Okay. I have further questions, but in 
order to set an example for the Committee, I will now recognize 
Mr. McCaul.

        EML's Role in the Department of Homeland Security (DHS)

    Mr. McCaul. Thank you, Mr. Chairman. Dr. Fainberg, I want 
to--if you could, tell us about EML's infrastructure 
capabilities and morale prior to its transfer to DHS. I wonder 
if you could expand beyond that, whether you think these 
capabilities fit within the DHS mission.
    Dr. Fainberg. As to the morale before it transferred, I was 
not directly aware of it. I didn't have close contact. The 
morale shortly after transition I can talk about. People were 
very happy to be away from DOE and within DHS. Regarding their 
infrastructure, as I said, their plant, their lab space was 
fairly depressing and barely functional. However, they did have 
laboratories within that lab space that they did keep 
functioning quite well, supporting the QAP program, for 
example.
    And they had quite a bit of capability in radiation 
detection technologies. Their development of--I think it was a 
called comprehensive monitoring system--was kind of 
interesting. This was a set of gamma ray detectors they had 
assembled from parts on the market, but at much cheaper prices 
than you could buy assembled detectors on the market. That 
became the core of their rooftop sensor system. Hooking that 
all into a central command room at DHS was--at EML was quite a 
useful thing to do as a demonstration for what one might do in 
the future, putting a radiation monitoring system in a large 
city. What you have to be careful of, you don't want to put a 
million monitors out there, because you will never be able to 
manage that, but you could think of putting maybe 50 or 100 
monitors in strategic places. And this kind of work was an 
interesting pilot for that.
    As I also indicated in my remarks, some of the people there 
were clearly ready for retirement. However, I identified at 
least a quarter of the technical staff who I thought were 
extremely active, up with current technologies and good and 
many of them, in fact, were useful to the comprehensive--the 
monitoring test bed that was set up by other elements in DHS in 
New York City. They assisted with that, where they were out on 
bridges and tunnels at all hours of the day, taking 
measurements, testing out systems and running down alarms. What 
they could be useful for in the future, all of that expertise 
in radiation detection still is there. I am not sure how many 
people remain in the radiochemical area. Reconstituting that 
certainly is possible, but it is not certain to me that the 
cost benefit analysis would favor reconstituting laboratories 
that were there. It would be useful, however, I think, to use 
those people who are still in the system, who are still federal 
employees there, and their expertise in helping other 
laboratories do quality assistance--quality assurance work. I 
think that could be done. There is a lot that can be done there 
and if S&T wanted to establish a serious technological presence 
in New York City, nothing would prevent them from hiring a few 
more people, as I said, younger people, to reinvigorate it.
    I would also suggest that they are really being ripped off 
by GSA. That is not a good place to be and the prices, I 
understand, are going up for the rental, because the prices in 
Greenwich Village, where this is located, are going up and GSA 
is able to match rental to local market values. If it were up 
to me, I would try to put them in another facility in the New 
York area, perhaps in Lower Manhattan, owned by other elements 
at DHS. That probably would be a lot more----

               EML and Counterterrorism in New York City

    Mr. McCaul. Thank you for raising that point and it is a 
good transition. I was going to ask Mr. Duecker the value of 
having the DHS Science and Technology footprint in Manhattan or 
where you are located, in response to Dr. Fainberg's comments, 
but also what role they can play to better assist your 
counterterrorism efforts in New York.
    Mr. Duecker. Yes, sir. In your opening remarks, you 
commented that this was critical for national security 
purposes, it was a critical resource. We take a very parochial 
approach to that in that regard and we look at this as a very 
critical local resource. They provided us significant test and 
evaluation capabilities, as I mentioned, looking at the rad 
pagers that we currently have on the street. And as was 
mentioned, there is so much technology out there nowadays that 
making sure that what our cops on the streets carry, in terms 
of detection equipment, in fact, is going to detect something 
that we should be watching for, is of critical importance.
    There is a lot of technology out there and frankly, the New 
York City Police Department isn't--we are not the subject 
matter experts on test and evaluation of this kind of 
equipment. We rely on our partnership with EML. And having them 
local to Manhattan, and having them basically a partner within 
the city, has become something that we rely on to a great 
degree. Otherwise, we would either have to go further up on 
eastern Long Island to BNL, which is a laboratory about 65 
miles outside the city, or elsewhere outside the region.
    And in terms of the threat to the city, the rad threat and 
nuke threat to the city, that is just not a workable solution 
for us. So we look at the partnership that we have with EML, 
Dr. Hunter, in particular, as being something that has been 
good in the past and we are looking to grow that in terms of 
the Securing the Cities Initiative that we currently have. 
Ultimately what we want to do is we want to create a ring of 
sensor technology around the region to protect to New York 
City, because, as we know, New York City is the primary threat 
set for the threats
    Mr. McCaul. In your experience, has the transition from EML 
to DHS been a smooth one? Is it a positive experience or what 
could be done to make it better assist you?
    Mr. Duecker. We have always asked for more. You know, if 
the New York City Police Department constantly asks--requests 
for items and we get a portion of those and we are happy with 
those, but we are always constantly asking for more. I can't 
really speak to the transition from DOE to DHS in that term, 
but I can tell you that, since about 2004, the relationship 
that we have had with them has been growing since 2003, and we 
would like for them to stay in New York City and greatly 
enhance their capabilities in New York City, so that as we go 
forward with the rad detection system that we envision, we have 
a partner that is right there that we can work with that is 
local. I mean, one of the things that we rely on in New York 
City is that we don't have to rely on folks in Washington, D.C. 
or outside the region. We like to interact with them right 
there in the city.
    Mr. McCaul. Thank you. I see my time has expired.
    Chairman Miller. Thank you. There should be ample time for 
all of us to have a second or even a third round of questions. 
Mr. Rothman.

                       DHS' Decision to Close EML

    Mr. Rothman. Thank you, Mr. Chairman, and let me thank you 
for holding these hearings this morning. Let me just start by 
saying, not surprisingly, as a Representative from the northern 
part of New Jersey, across the George Washington Bridge from 
Manhattan, representing that district, I am a firm believer 
that the number one target of terrorists, New York City and the 
New York metropolitan area, should be given the commensurate 
amount of the Homeland Security funding and counterterrorism 
funding, because it is justified on the basis of risk.
    In addition, because of the quality of the work of the New 
York Police Department and the other law enforcement, the first 
responders in New Jersey and New York, we have come up with 
great approaches to the threats and have invented the wheel, so 
to speak, and so other targets around the Nation can come to 
us, as they often do, as the model for programs and it is a 
more efficient use of the Nation's national security or 
Homeland Security funding. So the burden of proof, in my mind, 
should be on any agency or individual who would withhold funds 
or close Homeland Security projects in New York City, or New 
York metropolitan area, to prove why that is a good thing or 
necessary.
    Here is my general question to any of the panel members or 
all of you who want to answer. I look forward to hearing from 
Dr. Clarke and I have read his testimony. Is the closing or the 
decision to close EML, was that simply a good faith decision 
that people can disagree with, but nonetheless, was it a good 
faith effort on their part to best manage the taxpayers' funds, 
yet accomplish its mission? Or did it evidence some bias or 
poor judgment or pattern of bad management decisions that you 
would like to comment on?
    Dr. Fainberg. Well, Congressman, sympathetic to where you 
come from, I grew up in Hackensack and my parents are still 
there.
    Mr. Rothman. My constituents.
    Dr. Fainberg. That is a coincidence. I had no idea of this 
beforehand.
    Mr. Rothman. Okay.
    Dr. Fainberg. I was told, as I said in my testimony, that 
there had been, in May of 2005, no plan to close the laboratory 
and in fact, there had been talk of establishing, sort of in 
its place or transitioning it into something called a technical 
liaison office, which I never understood and it didn't make any 
sense to me, but maybe you can hear about that from later 
witnesses. It appeared to me that there was a decision to close 
it down and I do not know why. I don't know what caused it, if 
there were bad feelings that had been generated by earlier 
miscommunications between laboratory management and 
headquarters. I don't know if it was just, and I suspect this 
is what it is, the difficulties of starting a new organization, 
S&T, within another new organization, DHS, and assimilating 
pieces and laboratories from elsewhere and the confusion that 
reigned at that point. It may well have been a good faith 
effort. I wouldn't question that. I do think it was a very poor 
judgment and that is all I can say about it.
    Mr. Rothman. Any other panel members wish to comment?
    Mr. McBrearty. Yes, sir, I guess I would throw a little 
into this, too. Was there a decision to close? Yes, we had the 
impression there was a decision to close the place. Was there 
bias? Two parts to your question. Bias, I don't know that that 
was the case. I simply feel that there was a lack of 
appreciation of the intangible values that were embedded in 
this small laboratory located in New York City. Two, it was 
very costly. You have heard indications of the cost of doing 
business in the city and I guess that comes with the territory. 
But it was viewed as a costly operation vis-a-vis the new 
organization and I don't think the new organization appreciated 
that it could utilize those--that it had those talents.
    Mr. Rothman. But you don't see a bias or an under-
appreciation of the threat that New York City and its 
surrounding areas were under, vis-a-vis the corn fields of Iowa 
or the sheep farms in Montana, who are getting a 
disproportionate share of DHS money?
    Mr. McBrearty. Well, sir, I don't know how the 
distributions go, but I will say this, as I said earlier, I 
thought it was good that they had been picked by DHS, because 
they were in the location that needed some help. There is 
analog to the DHS/New York City thing in the Argonne National 
Laboratory located in Chicago. The synergy that is derived by 
the presence and working closely with first responders, the 
homeland security kind of initiatives that Chicago has 
developed has made great use of Argonne and to me, that model 
was one I thought was going to prevail in the EML relationship.
    Mr. Rothman. Thank you, Mr. Chairman.
    Chairman Miller. Thank you, Mr. Rothman. Mr. McBrearty, you 
described DHS, the S&T Directorate not really understanding 
what they had. The image that comes to my mind is the last 
scene in the Raiders of the Lost Ark, where the Ark of the 
Covenant is in a crate being loaded into a warehouse on top of 
other crates by a forklift, and I have the sense that they 
don't--they didn't quite comprehend what they had, from what 
you have said, and that is your impression as well. You said 
you came to Washington to discuss the value of the lab. Did you 
give a classified briefing to Mr. Clarke or anyone else?
    Mr. McBrearty. No, sir. During that visit, the venue was 
not available for a classified briefing. However, the 
importance of EML to us, in any unclassified venue, there are 
relationships with the international community, our 
associations with them in the Comprehensive Test Ban Treaty 
development, development of samplers, those sort of things, 
those values that we derive from this little entity, those were 
those sorts of things I imparted.
    Another particular bias of mine, perhaps, is that I valued 
EML and AFTAC valued EML, too. It is a small government 
laboratory as opposed to a DOE facility. Now, we love the DOE 
laboratories. We have great associations with them and a lot of 
work that goes on. But what EML uniquely provided, in my 
opinion and it is in my written testimony, is the ability to 
independently assess technologies and do so in a very capable 
manner. So in that regard, they were--that was part of the 
value or pitch that I thought EML represented to the DHS.

                  More on Air Force Programs With EML

    Chairman Miller. Thank you. We have been called to a vote. 
We will continue for a while. We all have a very good idea of 
exactly how long it takes us to get to the Floor and we have 15 
minutes and we should be able to at least complete my round of 
questions. Did the decision by DHS force you to terminate any 
of your programs?
    Mr. McBrearty. Is that directed to me, sir? Yes?
    Chairman Miller. Yes. I am sorry. Yes.
    Mr. McBrearty. Well, actually, we had some activities with 
which EML assisted us that we were not able to carry out. So I 
will have to leave that at that point.
    Chairman Miller. Is that because of the nature of the 
information?
    Mr. McBrearty. Yes, and----
    Chairman Miller. Okay.
    Mr. McBrearty.--I would rather not go into that.
    Chairman Miller. Thank you. And at that point, did you have 
any plans to transfer or terminate or halt or cancel any of the 
programs until you got the e-mail telling you that EML was 
going to be terminated?
    Mr. McBrearty. No, sir, not at all. We and my staff had 
full impressions that we would continue operations into the 
future pretty much as we had in the past.
    Chairman Miller. Okay. And if EML employees were told that 
the Air Force was not any longer interested in working with 
them, was that--that was inaccurate?
    Mr. McBrearty. Oh, absolutely. We were basically told that 
we needed to find other places for our work, because there was 
an intention to close the laboratory. We were also told that it 
was considered private information and that we were asked not 
to discuss the issue with EML staff. We respected the fact that 
the decision had not been made and we made no contact to any of 
the employees, per se, regarding that.

                   EML's Global Sensors: North Korea

    Chairman Miller. Okay. One last question and I think we 
will all go to vote and then we will be in recess and come back 
and complete the hearing, and I apologize for the herky-jerky 
nature of this. It is simply what our schedules are like. But 
one last question, Mr. McBrearty, and I know that probably you 
more than any other witness have to tread carefully to avoid 
disclosing classified information. But I know that you must 
have been aware of EML's network of global sensors.
    Mr. McBrearty. Yes, sir, very much so. In fact, we were 
close with them on that and appreciated the work that they did 
in developing that network, because it gave the monitoring 
community at large a better capability.
    Chairman Miller. Okay. And EML had installed two radiation 
sensors in China in 2002 and had plans to install a third 
sensor near the North Korea border in 2005, just before DHS 
shut down that program. From the technical expertise you have 
in this area, what would have been the value of the information 
gained from those sensors?
    Mr. McBrearty. As part of the expansion of an international 
network of samplers and a national or international----
    Chairman Miller. I am sorry. Excuse me.
    Mr. McBrearty. That is a hard question to answer directly, 
but always more samplers, more locations, more interplay 
between these networks, samplers within a network, is of value. 
So from AFTAC's perspective, with its job of worldwide nuclear 
test monitoring, we have always been interested in the 
advancements at EML and the associations that they had with 
these things. To have a sampler closer to Korea, given those 
things, a joint operation with the Chinese and the United 
States through EML, was certainly a valuable undertaking and we 
were quite interested in seeing that as means of improving the 
ability to globally monitor those things that all the nations 
who have signed up to this Comprehensive Test Ban Treaty have 
expressed a utility in.
    Chairman Miller. And I know my time has expired and we need 
to go vote, but just one last question. I know there are other 
sources of information about the detonation of a nuclear device 
anywhere in the world. Was the information you would have 
gotten from those sensors duplicative? Would it have been 
helpful additional information?
    Mr. McBrearty. It could have been supplemental, sir. AFTAC 
is the operator of the United States Atomic Energy Detection 
System. We are the ones that provide that information and did 
detect and report it on that nuclear test. For those sorts of 
things, we look at the entire suite of systems available, both 
United States, international and those that EML would have had 
and it could--those things could help under certain 
circumstances. In the North Korean test, they would not have 
helped because the situation is that the samplers that are 
involved or were involved, whether worldwide RMP, or Remote 
Monitoring Program, have to do with monitoring particulate 
debris as opposed to the noble gases that actually came out of 
the tunnel. In that particular case, we, AFTAC, collected the 
gases using our aircraft. So those samplers, per se, were not--
would not have, in hindsight, been useful in that case. 
However, if the event that occurred had vented, had thrown 
particulate debris into the atmosphere, depending on the 
meteorology, depending on where the sample was transported to, 
they could have indeed played a part, but that is a scenario 
that did not occur. However, the more is always better.
    Chairman Miller. All right, thank you. Okay, again, I 
apologize to all of the witnesses, but we do need to stand in 
recess to allow us to vote and we will back as quickly as we 
can. Thank you.
    [Recess]
    Chairman Miller. The Committee will be back in order. Any 
moment, Mr. Rothman will be prepared to ask some questions. Mr. 
Rothman.
    Mr. Rothman. Okay, thank you, Mr. Chairman. Commissioner 
Duecker or Duker?
    Mr. Duecker. Duecker.
    Mr. Rothman. Duecker. Thank you for your service, first of 
all, and please convey our thanks to all the men and women that 
you serve with on NYPD.
    Mr. Duecker. Thank you. I appreciate that.
    Mr. Rothman. You just do a great job and thank you for your 
work with New Jersey's finest and bravest and all of our first 
responders.
    Mr. Duecker. We were out with them yesterday carrying the 
Cities Initiative. We were with Passaic and Bergen Counties. It 
was the second phase to the Securing the Cities Initiative. 
There is going to be quite a few more phases going forward, but 
yesterday was a good day for us.

                New York City First Responder Community

    Mr. Rothman. Great. As you know, many people in my district 
work in Manhattan and many of our first responders were the 
ones who came into New York City to help out, as well as doing 
a lot of the medical care at Liberty State Park.
    Commissioner Duecker, there was apparently a report 
prepared by the employees of DHS that evaluated EML. I think 
the report is 2004-2005. That report painted a portrait of the 
New York City first responder community as being lukewarm in 
its feelings about EML. Do you recall if that is an accurate 
statement of the feelings of the New York City first responder 
community at that time?
    Mr. Duecker. I don't know what comprises the first 
responder community to which you refer. I don't know how broad 
that was.
    Mr. Rothman. Right.
    Mr. Duecker. I don't know to what degree the New York City 
Police Department was involved in that assessment or that 
survey. I can tell you that, with respect to the relationship 
that we have, and it is evolutionary with EML, it is 
evolutionary because the technology that we see in terms of rad 
and nuke detection devices, that is evolutionary. Our 
relationship with them has grown. It has grown more in the last 
year, I think, than it did in the two or three years previous 
to that. A lot of that has to do with the leadership of Dr. 
Hunter, as I mentioned, and his willingness to be a partner in 
the Securing the Cities Initiative and understanding that. 
Instead of having technology drive operations, I think he is 
willing to allow operations to drive technology and he is----
    Mr. Rothman. Commissioner, how long have you been aware of 
the workings of EML?
    Mr. Duecker. I have been with the NYPD for about a year and 
a half, so it has been--I was aware of the rad issues as soon 
as I got there and the fact that EML played a pivotal role in 
the testing of the rad detection devices that we have on the 
street.

                              EML Funding

    Mr. Rothman. Okay, thank you. Dr. Fainberg, Dr. Clarke's 
prepared testimony, in it he says that a review of EML found no 
S&T project manager who intended to fund EML beyond 2006 and 
any other activity, other than the CMTB, Countermeasures Test 
Bed Project. You were the Program Manager for radiological and 
nuclear countermeasures in the DHS S&T Directorate at the time. 
Did you plan to fund any projects at EML beyond 2006?
    Dr. Fainberg. Yes, I was Program Manager until--I believe 
it was late April of 2005.
    Mr. Rothman. Right.
    Dr. Fainberg. At that time, we were not planning anything 
very much in the fiscal 2007 timeframe for EML or for any of 
the labs. We were kind of consumed with doing fiscal 2005 and 
2006. My intention had been to propose continuing funding in a 
number of areas. I had not been asked, at least I do not recall 
having been asked, if I intended to fund them beyond fiscal 
2006. Had I been asked, I would have said yes, I would have.
    Mr. Rothman. In your experience, decades of experience in 
your field, is it customary to--or for people to ask about 
projects and their longevity several years beyond the present?
    Dr. Fainberg. It can be. I mean, some projects by their 
nature are large, long-term projects.
    Mr. Rothman. But your testimony is you just weren't asked?
    Dr. Fainberg. Yes, I do not recall having ever been asked 
if I--what I wanted them to do in 2007. In documentation that 
we were supposed to provide each year for the research plan, 
there was a list of projects and how long they would last and 
how long we anticipated they would last. Some of the ones I had 
down, like the ship effect, was supposed to finish in 2006, but 
there was a possibility it might have continued into 2007, for 
example. Other things that were going on, like the New York 
area Science and Tech working group, were ongoing things which 
I would have wanted to keep. I wanted to keep the global 
monitoring, for example. But a number of these projects that I 
had wanted to keep, I had been told at a higher level, not by 
Dr. Clarke, but by other people who had responsibility up the 
chain, that they were not going to be approved.

                        The Neutron Ship Effect

    Mr. Rothman. If I may, just one other question. The neutron 
ship project.
    Dr. Fainberg. Yes, neutron ship effect.
    Mr. Rothman. That ultimately was worked on by some other 
group?
    Dr. Fainberg. Well, no, it is worked on by Dr. Goldhagen, 
even today, I believe, in collaboration with RSL, a laboratory 
at the Nevada Test Site. It also has interest in it. But Dr. 
Goldhagen, I believe, is still working on that today.
    Mr. Rothman. So just forgive me. Was he at EML?
    Dr. Fainberg. Yes.
    Mr. Rothman. And then----
    Dr. Fainberg. As far as I know, he still is.
    Mr. Rothman. Oh, he still is?
    Dr. Fainberg. Yes.
    Mr. Rothman. So that work continued----
    Dr. Fainberg. That work----
    Mr. Rothman.--at EML?
    Dr. Fainberg. That work did continue, yes.
    Mr. Rothman. Then I must have misunderstood you. Was there 
some slowing down or hindrance of that work?
    Dr. Fainberg. Oh. Dr. Clarke wanted to prevent the 
acquisition of a detector that was vital to do the work 
properly. After people at the higher level, the office 
director, had approved it and it was over this issue that I 
resigned. I said it seems to me that you are trying to block 
something that you don't have competence to do. I went to my 
management and I said, why are you allowing this, and my 
management ignored me.
    Mr. Rothman. And how long after you resigned did the 
equipment get approved?
    Dr. Fainberg. I don't know. Probably within a month or two, 
but I don't know. I was told within a few weeks that it would 
be or it had been.
    Mr. Rothman. Well, you believe there was a causal 
relationship between your resignation and the acquisition of 
this equipment?
    Dr. Fainberg. I think so, yes.
    Mr. Rothman. Okay. Thank you, Mr. Chairman.

                              Dirty Bombs

    Chairman Miller. Thank you. I understand Mr. McCaul has no 
further questions of this panel. I do have a few more of Ms. 
Albin. Ms. Albin, I mentioned in my opening remarks that one of 
the most likely terrorist events, one that has been amply 
telegraphed, is a dirty bomb. Could you describe what role EML 
might play in the event of a dirty bomb or any other kind of 
radioactive event?
    Ms. Albin. So far, we have been talking and implying that 
the events that would be covered, people would be able to carry 
instrumentation into the area and say whether or not it is safe 
or not safe, kind of go or no go. Those hand-held instruments 
are good for that, good for looking at first responder safety 
and good for making a quick call if you need to evacuate an 
area.
    In the case of dirty bomb, those instruments have limited 
capabilities and it really is going to be the radiochemical 
analysis of samples that are going to give us the information 
we need to know what is the extent of the contamination, if it 
was a dirty bomb and unsafe. Can they come back to their 
houses, if they have been evacuated? And for us, and a lot of 
people in the trenches, we are the people that are doing that 
analysis and we are handing our results off to government 
officials that are going to make decisions and we need to have 
the credibility and make sure that we are doing the best we can 
do. So if we are analyzing samples and we are giving data and 
we tell people, you know, you need to stay away, that is one 
problem. But if we are also telling people it is okay to go 
back, it is safe to come back, there is no hazard here, those 
no-action decisions require that we have a lot of confidence in 
our data and that is where the performance testing, like the 
QAP program helped us, because it independently verified the 
work that we do and independently gave us that assurance that 
the data that was being produced by the Public Health 
Laboratory can be used by decisions makers to address those 
problems.

                  The Quality Assessment Program (QAP)

    Chairman Miller. Okay. You mentioned the Quality Assessment 
Program, QAP, and as I understand it, it set standards for 
laboratories to verify the reliability of their detection 
equipment. Can you describe how Washington State's involvement 
with QAP at EML helped your programs?
    Ms. Albin. Well, the QAP program was directly providing our 
samples that were directly related to the type of work we do, 
low-level radiochemistry analysis, so that is how we used them 
with the QAP program. But EML also had other programs. They 
sponsored an international inter-comparison to look at external 
radiation levels, and there was another program where they 
tested the ability for the analysts to correctly look at 
spectral data, and there was a lot of interaction with EML, 
from the QAP program as well as availability of the scientists 
to answer questions, to collaborate on what to do if we get 
into a situation and we have a problem analysis.
    Chairman Miller. I feel like I am talking to you by cell 
phone. You are kind of going in and out.
    Ms. Albin. Oh, sorry. How is that?
    Chairman Miller. Oddly enough, the Science and Technology 
Committee does not always have the best technology. And oddly 
enough, our witnesses are sometimes worse than Congress in 
using the technology. I don't know if you have answered this, 
but now that QAP has closed, what do you do? Who do you go to 
for what QAP formerly did?
    Ms. Albin. We participate in other performance testing 
programs and one of them is through a mixed--it is a program 
that is sponsored by a DOE lab in Idaho and it is developed for 
mixed waste and they augmented their program to include some of 
the radionuclides and the work that the QAP program was doing 
and their performance and distribution schedule. And there is 
also a private laboratory that has picked up quality assurance 
for environmental samples. And the difference is that we cannot 
fully participate in the private laboratory's program because 
of costs and we are limited by costs and the government samples 
or the samples from EML were at no charge to us. And the Idaho 
laboratory samples are similar but they lack some of the 
natural products and things that were provided by the QAP 
program.
    Chairman Miller. Your answer to this question seems 
evident, but if the QAP program were reconstituted in EML would 
you use it again?
    Ms. Albin. We would use it again, yes.
    Chairman Miller. Thank you. I think we are fine now with 
this panel. Thank you all very much for your testimony. Mr. 
McCaul, I know you need to leave shortly. If we could maybe 
take a shorter break than we would ordinarily take and we could 
have you ask questions first.
    Mr. McCaul. Thank you.
    Chairman Miller. Okay. The next panel is not really a 
panel. It is Dr. Clarke. So if we could just take a couple, 
three minutes to stretch and let people reposition ourselves, 
we could begin with Dr. Clarke.
    [Recess]
    Chairman Miller. Okay, the Committee has now reconvened and 
Dr. Clarke is our next witness. Dr. John F. Clarke is the 
Deputy Director of the Office National Laboratories, Science 
and Technology Directorate, Department of Homeland Security. As 
you know, Dr. Clarke, your testimony will be limited to five 
minutes, but you have submitted a written statement which has 
become part of the record. And after you have given the 
testimony, each of the Committee Members will have five 
minutes. We may have more than one round and we will call on 
Mr. McCaul first to accommodate his schedule. We do swear our 
witnesses, Dr. Clarke, if you would stand. Do you have any 
objection to being sworn?
    Dr. Clarke. No.
    Chairman Miller. Okay. And you also have a right to 
Counsel. If you could raise your right hand.
    [Witness sworn]
    Chairman Miller. Thank you. Dr. Clarke, you may begin.

                                Panel 2:

  STATEMENT OF DR. JOHN F. CLARKE, DEPUTY DIRECTOR, OFFICE OF 
  NATIONAL LABORATORIES, SCIENCE AND TECHNOLOGY DIRECTORATE, 
                DEPARTMENT OF HOMELAND SECURITY

    Dr. Clarke. Good morning, Chairman Miller, Ranking Member 
Sensenbrenner and distinguished Members of the Subcommittee. It 
really is a pleasure to be here today. I want to thank you for 
holding this hearing and specifically for inviting me to 
testify. I think that your oversight is providing the catalyst 
for key decisions by the leaders of the Department of Homeland 
Security that I hope will allow the EML staff to develop a more 
productive role within the department.
    I have been honored to serve in the Department of Homeland 
Security since July of 2004. Like many of my colleagues in 
Homeland Security, I was moved by the events of 9/11. I 
interrupted my career to devote time to national security. Now, 
for me, the motivation was quite personal. I am a New Yorker. 
Eleven people with my family name and 69 fellow Fordham 
University alumnae died on that day and that was basically my 
motivation for coming to Homeland Security. I was very 
fortunate to find the Office of Research and Development and 
they gave me the opportunity to apply my 37 years of research 
and management experience to assist in the integration of the 
DOE national laboratories and the specialized DHS organic 
laboratories into a complex, a laboratory complex that would 
serve the need of homeland security.
    Now, you have asked me to testify regarding the termination 
or transfer of programs, projects or activities at one of these 
labs, the EML. You wanted to know how these decisions were made 
and the impact of these decisions. My written testimony 
addresses these issues in context and I apologize for the 
length, but it is a historical record based on extensive 
written documentation--and it has been entered in the record. 
Now, the extensive Science and Technology reviews in which I 
participated found that the EML had serious challenges, let me 
put it that way, to overcome with regards to matching their 
legacy capabilities with the current missions of the Department 
of Homeland Security.
    I assure you that to properly address this kind of issue, 
the transition of a laboratory, involves people and their past 
experience and many, many factors. You have to approach it with 
frankness and candor in order to make realistic management 
decisions about the future of the institution. And these 
judgments and findings are summarized in my testimony for the 
record. But I wanted to do is to assure you that throughout the 
process of investigation, review which went on for oh, well 
over year, perhaps 18 months, the leaders within the Science 
and Technology Directorate at that time always acted with great 
empathy for the people, the individuals at the EML who, after 
all, had been caught up in a difficult transition which was not 
of their making. Nonetheless, the Under Secretary and his 
predecessors are pursuing an important national mission with 
limited resources. They have attempted to tackle the difficult 
challenges associated with the EML forthrightly, honestly and 
in my view, courageously in order to blend the EML capabilities 
with the national needs served by the Department of Homeland 
Security.
    And with that, Mr. Chairman, I am prepared to answer 
questions.
    [The prepared statement Mr. Clarke follows:]
                  Prepared Statement of John F. Clarke

Introduction

    Good morning, Chairman Miller, Ranking Member Sensenbrenner, and 
distinguished Members of the Subcommittee I am John Clarke, Deputy 
Director of the Office of National Laboratories in the DHS Science and 
Technology Directorate. I would like to thank the Committee for the 
opportunity to discuss the transition of the Environmental Measurements 
Laboratory (EML) from the Department of Energy (DOE) to the Department 
of Homeland Security (DHS) and the Science and Technology (S&T) 
Directorate's management of EML since its transfer in March 2003.
    In particular, you have asked me to testify regarding the 
termination or transfer of programs, projects or activities at the EML, 
how these decisions were made, and the impact of these actions. In 
previous correspondence, the Committee inquired about the period FY 
2002 through the present, part of which predated the Department of 
Homeland Security (DHS), so the prior history of EML within DOE is 
relevant to subsequent DHS management decisions.
    In 2004 the Office of Research and Development conducted a series 
of reviews concerning the EML. I was only peripherally aware of the EML 
during my service in the Department of Energy. Consequently, when I was 
asked to participate, I consulted EML staff and also talked to current 
and former DOE officials in the Office of Science (OS), the OS Office 
of Health and Environmental Research and the Office of Environmental 
Management who had managed, and had personal knowledge of, EML from the 
late 1970's until its transfer to DHS.

Background on EML

    The EML is located in a General Services Administration (GSA) 
office building in lower Manhattan. It was transferred from the 
Department of Energy to the Department of Homeland Security in March 
2003 by the Homeland Security Act of 2002.
    The current EML evolved from the Health and Safety Laboratory 
(HASL) of the Atomic Energy Commission (AEC). HASL contributed 
significantly to various national programs during the ``Cold War.'' 
However, the laboratory's size and the uniqueness of its capability 
declined as the global nuclear industry matured and national priorities 
changed. With the formation of the Department of Energy (DOE) in 1977, 
the HASL was renamed to EML to reflect its narrower focus on the 
measurement of low level environmental radiation.
    In subsequent years, continued changes in national priorities led 
to a decline in EML's technical capability relative to the private 
sector and other DOE National Laboratories all of whom possessed 
broader scientific and engineering capabilities and missions. According 
to officials in the DOE Office of Science and its Office of Health and 
Environmental Research, during the 1990's, the DOE Office of Energy 
Research struggled to decide whether to close the facility or to find a 
viable mission for EML. Finally, in 1997, the EML was transferred to 
the DOE Office of Environmental Management (EM) where it provided 
radiation measurement and quality control services supporting DOE's 
internal environmental monitoring, decommissioning, decontamination, 
and remediation mission. Periodically, EML also provided radiation 
measurement services to the National Nuclear Security Administration 
(NNSA) and, through an Interagency Agreement between the Air Force and 
DOE, it provided similar services to the Air Force Technical 
Applications Center (AFTAC), both of which were concerned with nuclear 
non-proliferation.
    Immediately following its transfer to DHS in 2003, the EML 
continued to work on the internal DOE Quality Assessment Program (QAP), 
which supported DOE environmental site cleanup, some radiation detector 
projects and two small and intermittent measurement activities related 
to non-proliferation. By 2004 when the S&T reviews began, EML was 
supplying a few staff to provide local support to the S&T Directorate 
Standards (1.5 FTE) program and Counter-Measures Test Beds (CMTB) 
project (4.8 FTE) in its testing of radiation and explosive detectors, 
performing two radiation monitoring projects and offering advice and 
seminars to local first responders.

Science & Technology Directorate Management Reviews of EML:

    Since its transfer to DHS in March 2003, the S&T Directorate's 
Office of Research and Development (ORD) had numerous meeting with the 
EML's Director and staff of the EML to inform them about the evolving 
S&T program. ORD also provided funding to EML to support transition 
planning and the Director had weekly discussions with the ORD Director. 
In 2004, growing concerns about EML's progress in transitioning its 
capabilities to support S&T programs, led to a series of reviews by 
ORD. The first was conducted by Dr. Mark Mandler, who, at the time was 
the Technical Director of the Coast Guard Research & Development Center 
on assignment to S&T to assist with lab transitions.
    Dr. Mandler's review of the FY 2005 EML Facilities Plan revealed 
that the EML had a carryover from FY 2004 of 42 percent in their O&M 
budget and 26 percent in their assigned project funds. This increased 
S&T concerns about EML's progress in managing its transition to DHS. 
Further, Dr. Mandler's review also found that, despite the EML's large 
FY 2004 under run, the EML Director's funding projections for FY 2005 
staff were significantly overestimated and also contained inflated 
funding for self-initiated EML projects. It concluded that EML 
management did not understand the organization's actual capabilities 
and entertained unrealistic expectations of its potential role within 
DHS. The final conclusion of Dr. Mandler's review was that S&T needed 
to reassess how it could utilize the EML. After review and acceptance 
by the Under Secretary, these conclusions led to the initiation of a 
more comprehensive Top-to-Bottom ORD management review of the EML.
    My personal involvement in the management of the EML began in the 
fall of 2004 when I was tasked by the ORD Director to work with Dr. 
Mark Mandler in performing this Top-to-Bottom review.
    The Top-to-Bottom management review was to examine whether EML 
staff could provide more support to the S&T Directorate projects such 
as the ongoing CMTB project, which was S&T's largest operational 
activity in New York and New Jersey. It was also to examine what other 
work was ongoing at EML, what S&T programs it served, what new work was 
proposed and what priority these EML activities had within DHS. 
Finally, and most importantly, it was to determine how S&T could best 
apply the resources invested in maintaining the EML to support the 
science and technology needs of DHS components as well as the local 
agencies in the New York area.
    The Top-to-Bottom review followed a systematic data gathering 
process to answer these questions. This included visiting EML, talking 
to EML staff, examining EML progress reports with S&T project managers, 
reviewing its quarterly cost reports with S&T Chief Financial Office 
(CFO) staff, discussing EML's role and contributions with CMTB 
management and S&T Project Managers, consulting DOE officials familiar 
with EML and reviewing EML's new and existing work proposals in context 
of the program plans of S&T managers. The review was completed by late 
October of 2004. At that time, it was decided by the ORD Director that 
the results of the review should be presented to EML's management. The 
conclusions are summarized below.
    An S&T team consisting of Dr. Parker, Mrs. Alyce Bridges from S&T 
Human Resources and I visited EML on Dec. 17, 2004. We met with Dr. 
Erickson and his senior managers and reviewed the S&T Directorate's 
mission and goals with them. We informed them of the conclusions of the 
Top-to-Bottom review and reminded them of ORD's expectations for EML.
    After reviewing S&T's current and future program directions, it was 
noted that the CMTB, which utilized some of the EML staff, seemed to be 
the closest match to the EML's radiation measurement competency. 
However, Dr. Parker also warned the EML management team that, even 
within the CMTB, change was coming. We further noted that the ongoing 
CMTB test and evaluation program required more than experience in 
radiation measurement and, as it developed, it would need core 
competencies in field operations, pilot deployment and consequence 
management. We informed them that ORD expected EML management to engage 
in a serious assessment of its strengths, weaknesses, opportunities and 
barriers to its success in identifying and serving DHS customers such 
as CMTB project.
    We then reviewed the detailed findings of the Top-to-Bottom Review 
on each of the currently funded activities at the EML. The review had 
found that in the area of standards development, urban atmospheric 
circulation measurements and radiation monitoring development 
activities, S&T program managers believed that EML was not competitive 
with other institutions. Consequently, these managers expected that 
current EML activities in these areas would be completed by 2005 with 
little, if any, follow-on work. The review had not found any S&T 
project manager who intended to fund EML beyond 2006 in any activity 
other than the CMTB project.
    The review had also gathered mixed reviews of the EML relationships 
with local New York area government agencies. EML was recognized for 
holding seminars for local government personnel, for answering their 
questions related to radiation measurement and for the contributions of 
their staff to the CMTB test program. However, the review found that 
Homeland Security support to local government agencies was multi-
faceted and required not only a broad range of technical expertise but 
significant skills in relationship management with both S&T, other DHS 
components and local agencies, skills which EML had not exhibited 
outside of the CMTB test program.
    Based on overall DHS goals, we told the EML managers that creating 
an operational platform to coordinate the development, operational 
testing and transfer of homeland security technology to local 
government agencies was potentially a critical success factor for S&T. 
The CMTB fulfilled part of these functions and EML was already 
contributing to its test and evaluation program. However, this 
participation, while certainly valuable, employed only a fraction of 
the EML staff and was not sufficient by itself to justify the existence 
of EML. We informed the EML managers that ORD would be performing a 
market survey of S&T technology suppliers and potential users in New 
York to determine a concrete value proposition for such an operational 
platform. ORD expected to evaluate EML's future role based on their 
institutional strategic and business plans and the results of the DHS 
market survey.
    Following this meeting, S&T together with a team of organizational 
management experts from Booz Allen Hamilton (BAH), conducted dozens of 
interviews with potential customers for, and suppliers of, science and 
technology services in New York for the purpose of determining a vision 
and value proposition for S&T activities in New York. The teams also 
gathered information from several DOE National Laboratories, other 
government laboratories, DHS component agencies and local agencies both 
at Headquarters in Washington, DC and in New York.
    The teams identified S&T operational activities in New York of 
value to a broad cross-section of homeland security technology 
suppliers and operational users. These activities fell into four 
categories: 1) Providing operational liaison to maintain interactive 
communication between developers and operators; 2) Identifying 
opportunities to exploit emerging science and technology; 3) Spiral 
development to evaluate developmental technology in an operating 
environment and; 4) Providing continuous technical support during 
technology test and evaluation, insertion and deployment.
    The team briefed ORD management throughout the process and by the 
summer of 2005, the ONL team was instructed to developed strategic and 
business plans for an operational platform to perform these identified 
functions: the Technology Liaison Office (TLO). The TLO's value 
proposition focused on providing relationship management between 
technology developers and potential users to coordinate operational 
test and evaluation and on providing interactive communication and 
mutual support between potential users and S&T developmental technology 
programs.
    As recommended by the Top-to-Bottom review, ONL then evaluated 
EML's potential future role in S&T based on its staff capabilities, its 
institutional strategic and business plans and the results of the DHS 
market survey and resulting value proposition. The EML's leadership of 
the CMTB local support activities (4.8 FTE) fell within the scope of 
the TLO value proposition. Unfortunately, when ORD compared the range 
of professional skills required to achieve the TLO value proposition 
with those skills extent at EML, it found only this small overlap.
    This led to a recommendation to ORD management that the EML should 
be phased out as an institution because its capabilities were neither 
competitive nor necessary to the mission of the S&T Directorate. 
Furthermore, it had no prospects of future S&T R&D program support, the 
skills of most of its staff were not suited for a useful S&T 
operational role in New York, and its operating costs were high and 
rising. The team also recommended that a TLO serving the identified 
customer needs in New York be established and that EML staff and 
capabilities be transitioned as far as possible.
    ORD management accepted this recommendation in the summer of 2005. 
ONL, S&T Human Resources and Congressional Relations were then tasked 
to prepare detailed transitions plans for the EML staff and facilities. 
This work was completed during September 2005 and Under Secretary 
McQueary was briefed on the results. He commented on ORD's thorough and 
systematic preparation for a difficult decision. He verbally agreed 
that phase-out of the EML was the right thing to do and asked that a 
final decision package be prepare for Secretarial approval. The 
Secretarial decision package was completed by ONL and forwarded to the 
Under Secretary by ORD.
    Under Secretary McQueary announced his resignation shortly 
thereafter and the Secretarial decision package was put on hold pending 
the arrival of his successor. After Dr. Runge was named Acting Under 
Secretary, he received a memo from Dr. Vayl Oxford, Director of the 
Domestic Unclear Detection Office (DNDO), noting that DNDO was planning 
a regional reach back initiative and proposed to use staff from 
Brookhaven National Laboratory and EML as its staff on a part time 
basis. This request required modification of the plan for the EML phase 
out and the startup of the TLO. A second Secretarial decision package 
with these modifications was prepared for Acting Under Secretary Runge. 
However, when Retired Rear Admiral Jay M. Cohen was nominated to be 
Under Secretary of the S&T Directorate, this second package was held 
pending his confirmation.

S&T Management Actions and Rationale:

    While the options for the future of EML were being developed and 
reviewed, a number of S&T management actions were taken to address 
concerns identified during the Top-to-Bottom Review. The overall intent 
was to increase EML's focus on transitioning its staff to viable 
missions within Homeland Security.
    First ORD conducted a detailed review of the EML Program Execution 
Plan (PEP) for FY 2005. This review was conducted for Dr. Parker and 
coordinated with S&T's Chief Financial Office (CFO), the Chief 
Information Officer (CIO) and the project managers who were currently 
funding activities at EML. For this purpose, ONL supported Dr. Parker.
    With respect to the EML operation and maintenance budget, the PEP 
Review found that most of the cost was due to EML occupying space 
equivalent to more than an entire city block--with most of the space 
unused for years. For instance, EML had six chemistry labs that were 
utilized over decades on various DOE programs--primarily for sample 
preparation prior to analysis and data acquisition for DOE programs. As 
the programs were reduced or terminated by DOE, the need for 
maintaining these labs no longer existed but they were, nonetheless, 
maintained by EML management. The review also identified traditional 
EML expenditures that were no longer necessary, such as a special EML 
security guard, in a federal building already secured by the Federal 
Protective Service--for which EML was also paying. It also found that 
EML was requesting project funds for activities that involved little 
more than staff time, which was funded separately.
    The review recommended specific operating budget reductions to 
eliminate these and other unnecessary expenses. The review also 
recommended that the unused EML space and facilities be decontaminated 
in anticipation of returning the excess space to GSA.
    The ORD Director reviewed the recommended budget and decided that 
it contained sufficient funds to allow EML to carry out all activities 
proposed in the EML PEP that had any relationship to DHS goals. She 
adjusted the EML budget request accordingly and reserved the savings 
for EML cleanup purposes. The result of this review was to focus EML 
staff on actual DHS goals and ORD management was able to redirect 
nearly a million dollars to initiate decontamination and disposal of 
unused and unneeded space at EML.
    As part of the cleanup of the unused EML Chemical laboratories, all 
unused reagents, materials, and equipment of value were sorted and 
offered to other research institutions (i.e., DHS labs, other federal 
labs, State labs, universities, and GSA). Any mixed waste or 
radioactive waste was collected and disposed of by Brookhaven National 
Lab. The empty lab spaces, including fume hoods, benches, storage 
cabinets, and other physical structures that are not removable, are 
being surveyed and decontaminated for ``free-release'' by a 
subcontractor through the U.S. Army Field Support Command. Other unused 
areas of the approximately 96,000 sq. ft. occupied by the EML were also 
surveyed and are being decontaminated.
    Given additional concerns with EML's management raised by the 
findings of the budget review, the ORD Director assigned ONL to monitor 
future EML operating expense requests, including requests for travel, 
new staff, facility modifications and information technology equipment. 
The travel review was directed at eliminating unnecessary expenses 
related to the continuation of their former DOE activities by EML 
staff.
    The IT review, which was done in conjunction with the S&T Chief 
Information Officer (CIO), was aimed at eliminating unreasonable 
expenses given the limited EML activities. The CIO reviewed EML IT 
needs and provided connectivity to the DHS network through four, rather 
than the requested forty, computers. These computers were to be used 
for EML travel, financial and procurement activities and active CMTB 
business. The existing EML computer network was found adequate to be 
used for all other business. Blackberries were provided to EML 
management personnel and those who were active on DHS projects outside 
of EML.
    Much of EML's nominal budget in FY 2004 was actually procurement or 
``pass- through'' for work at other laboratories, rather than to 
support local EML activities. When the procurement warrant holder who 
resided at EML retired, the S&T CFO and the DHS Office of Procurement 
Operations (OPO) determined that it was not practical or cost effective 
to replace him and that procurements could be handled through S&T/OPO. 
As a result, for FY 2006 CMTB major procurements were handled through 
S&T/OPO and minor purchases made through the EML purchase cards. From 
that point on, major CMTB procurements and funds for the Urban 
Dispersion Project was routed directly through the UDP Principal 
Investigator to the multiple laboratories actually carrying out the 
project. The effect of these decisions was to eliminate unnecessary 
duplication of effort. However, they did not in any way reduce the 
technical capability of the EML.
    The Top-to-Bottom Review had found that a serious impediment to the 
transition to DHS was that some EML personnel were adhering to their 
former roles within DOE. As a result of reviewing the proposed EML 
travel, ONL advised individual EML staff to phase-out their roles on 
various DOE related interagency committees and activities that required 
travel without a DHS justification. Any travel that related to active 
DHS functions was approved immediately. Compared to the other ONL 
management responsibilities with respect to other DHS Laboratories, 
this travel monitoring did not involve a great deal of money. However, 
it was extremely important to refocus EML staff from their 
identification with their former roles in DOE upon their current DHS 
situation.
    Similarly, the Acting Deputy Director of ORD, Dr. Carolyn Purdy, 
detailed the EML Director to Washington to strengthen his understanding 
of S&T programs. He is currently supporting the S&T Infrastructure and 
Geophysical Division. Dr. Adam Hutter, who had successfully managed EML 
support of S&T CMTB activities, was asked to serve as Acting EML 
Director. Mr. Hutter has taken on the EML Director's assignment of 
defining a strategic and business plan for EML and has been working 
very successfully with DNDO in developing expanded EML support of their 
regional reach-back and testing activities.

Project Closures at EML:

    Aside from these internal S&T management actions aimed at 
eliminating unnecessary expenditures and redirecting EML's focus to 
actual DHS requirements, there have been a number of unrelated project 
changes or closures at the EML. The Committee has inquired specifically 
about four of these: the Global Monitoring Activity, the Quality 
Assessment Program (QAP), the Urban Dispersion program (UDP) and a 
Reach-Back Pilot Program (RPP). Even though I have generalized 
knowledge about these programs through my responsibilities in the ONL, 
I was neither the program manager for any of these projects nor did I 
direct any actions be taken in connection with any of these programs.
    The first two items, the Global Monitoring Activity and QAP, were 
never DHS programs and decisions on their funding were made 
independently by their sponsoring agencies.
    The third program, the UDP, is a DHS research program that was 
started, successfully executed and is in the process of transferring 
its results to the intended recipients.
    The last program, the RPP, was discussed by the S&T Portfolio 
Manager as a concept but never approved or funded. Under Secretary 
Cohen has addressed each of these programs in his letter to Chairman 
Miller dated March 13, and since I did not have programmatic oversight 
over those programs it would be more appropriate for others to comment 
on the specific facts associated with any particular project.

Conclusion:

    Unfortunately, despite S&T's identification of several valuable 
functions for an operational presence in New York and the joint S&T/EML 
efforts to address the problems that the Top-to-Bottom review 
identified in 2004, by the Fall of 2005 the EML had not been able to 
find a function within DHS that matches the size and capabilities of 
the majority of its existing staff. This led Under Secretary McQueary 
to make a preliminary program level decision that a phase-out of the 
EML was in the best interests of both S&T and the EML staff. Changes in 
the S&T Directorates management delayed the transmittal of S&T's 
recommendation to the Secretary of DHS for a final decision.
    Of course, this delay has been extremely stressful to the people at 
EML. A year ago, one of the EML professionals advised our Human 
Resources office that the lack of decision was hurting EML's 
professional demeanor, impacting mental health, and hurting people in 
their home life. He was speaking for himself as a professional who only 
wanted a significant job to perform but he also said that the situation 
was impacting everyone at EML including the large support staff. S&T 
management was aware of, and very sensitive to, the difficult situation 
that the transfer to DHS had created for the people at EML.
    S&T management was, and continues to be, sympathetic to the 
difficult situation of the EML staff. Since the transfer of EML in 
March 2003, the S&T Directorate has tried to provide responsible 
management which balanced concern for the people at EML with 
stewardship of the mission and public resources with which we are 
entrusted.
    Some progress has been made in the one area where EML capabilities 
matched the Homeland Security needs that the review identified in New 
York. The Acting EML Director, Mr. Hutter, has been doing a commendable 
job in providing EML support for the S&T radiation detection test and 
evaluation activities, which have since been transferred from S&T to 
DNDO. He has also been working with Brookhaven National Laboratory to 
provide support for the DNDO regional initiative in New York and in 
examining the potential technology liaison activities that might be 
addressed by his staff.
    Under Secretary Cohen has indicated a commitment to right-sizing 
the EML facilities and workforce. This will include both supporting 
those individuals working on the DNDO activities and transitioning the 
remaining staff to a productive roles working on S&T programs. We all 
look forward to assisting in this transformation.

                               Discussion

                   More on DHS' Decision to Close EML

    Chairman Miller. Mr. McCaul.
    Mr. McCaul. I thank the Chairman for accommodating my 
schedule. Dr. Clarke, there has been a lot of controversy in 
terms of how you handled EML at the transition time. We heard 
from Mr. McBrearty that, in his testimony, that you notified 
AFTAC in December of 2005 that DHS had made the programmatic 
decision to close EML and my question is who actually made that 
decision?
    Dr. Clarke. Well, perhaps could I just clarify?
    Mr. McCaul. Sure.
    Dr. Clarke. Dr. McBrearty's statement. In fact, the AFTAC 
contacted the Science and Technology Directorate and myself in 
an e-mail, which I have, and this e-mail said that they were 
preparing their fiscal year 2006 budget and they needed to know 
what the status of our review was. This was a little difficult 
because our review was not completed, which I told them. The 
process of getting a decision through the Department of 
Homeland Security had not been completed. However, at the 
programmatic level, in the Officer of Research and Development, 
the decision had been made to close the laboratory; not to 
withdraw from New York, but to close this specific laboratory 
called EML.
    Mr. McCaul. Who made that decision?
    Dr. Clarke. Oh, sorry. To answer your question, it was Dr. 
McCarthy, who is the Director of the office, after many, many 
briefings.
    Mr. McCaul. Okay. Do you know if this decision ever rose to 
the level of the Under Secretary?
    Dr. Clarke. Yes, I do. After the final decision was made at 
the programmatic level, and I emphasize this was not a Homeland 
Security decision because that has to go through the Secretary. 
But at the programmatic level in the Office of Research and 
Development, I was instructed to prepare a package that would 
go from the Under Secretary to the Secretary and that package 
contained our plans for, as I say, the closure of the 
institution called the EML and simultaneously the standup of a 
new organization that would satisfy the value proposition that 
we had identified for S&T activities in New York.
    Mr. McCaul. And again, did this rise to Under Secretary 
McQueary's level?
    Dr. Clarke. Yes, it did. I was present at the briefing.
    Mr. McCaul. And did he basically approve this decision?
    Dr. Clarke. He agreed that this was the right thing to do 
and he was the one who requested that the decision package be 
prepared through Dr. McCarthy.
    Mr. McCaul. Okay. And the decision was to close, just to 
explain the decision, itself. How is it going to change the 
role of----
    Dr. Clarke. Well, as I stated in my testimony, this process 
went through three stages. First was the review of what the 
reality of EML was, which was very staggering. The second 
review was, well, since the reality of EML, as it stood at that 
time, was not contributing much. They did contribute some, but 
they weren't contributing anything commensurate with the cost 
of maintaining the laboratory, that we better do an 
investigation and find out what would be valuable in Manhattan. 
Dr. McCarthy was very determined that if possible, if we could 
a valuated mission that we would maintain a capability in 
Manhattan. We did this.
    We consulted widely across the department with all of our 
coast and border protection, the FEMA, all of the agencies 
within Homeland Security to see what they thought they needed 
in terms of technology support in Manhattan. We consulted with 
the Office of Emergency Management in New York. We consulted 
with our agencies both in New York and in Washington. We 
consulted widely with everybody that we could think of and we 
came up with a value proposition. The value proposition was 
basically the types of things that Commissioner Duecker was 
talking about, supporting the first responders with certain 
types of technology support, including the Countermeasures Test 
Beds. That was one of the things that we found that was 
obviously of benefit.
    But it only involved, at that time, 4.8 full-time 
equivalents out of a laboratory which has over 40 people and 
costing us in excess, at the time, of, as I recall, $7 million 
a year. So you see, that was the reason behind all of this. We 
were trying to find a cost-effective method of supporting both 
DHS operations and the first responders in New York.
    Mr. McCaul. And so that is a value added that remained in 
the mission.
    Dr. Clarke. Exactly.

              The National Nuclear Security Administration

    Mr. McCaul. And what happened to the other core missions?
    Dr. Clarke. Well, let us get back to that. The only other 
core missions that EML had, you have heard the testimony about 
the QAP program, the AFTAC program and you haven't heard about 
the NNSA program. That was also supporting this counter-
proliferation mission. In the spring, I believe, of 2005, in 
the preparation for her decision, before she made the decision, 
Maureen McCarthy asked us to consult with these small programs. 
As you heard from Dr. McBrearty, $400,000, involved basically 
one full-time staff member to service that program. And the 
NNSA program was a few sample measurements during the year; it 
didn't amount to very much. But she was thorough and she asked 
us to consult with these agencies to see if we made a decision, 
at that time, on EML, what would be the effect on their 
programs. We didn't want to disrupt the valuable programs of 
other agencies.
    Mr. McCaul. Okay. I see that my time has expired. Thank 
you.

                   More on DHS' Decision to Close EML

    Chairman Miller. Thank you, Dr. Clarke. Dr. McQueary is 
from Greensboro, which is in my district and he is well 
regarded in that community. He is regarded as very competent 
and has a high reputation for integrity. So this is not, the 
question is about these decisions are not personal attacks, but 
they really do go to the correctness of the decision. Your 
testimony just seems to be irreconcilable to the testimony of 
all the other witnesses that we have heard from today and I 
think we will hear from in a later panel. I know that others 
were involved in the decision, from your testimony. You heard 
Mr. McBrearty testify that there was no classified briefing, 
that he did come to Washington to complain, to protest what was 
happening to EML and to explain that it had an important role 
in AFTAC and other programs by the Air Force, but that there 
was no classified briefing, is that correct?
    Dr. Clarke. No, it is not correct.
    Chairman Miller. It is not correct?
    Dr. Clarke. No.
    Chairman Miller. Okay.
    Dr. Clarke. Now, I have no personal knowledge of this and 
that I did not participate in the briefing, but I was told by 
Dr. Parker.
    Chairman Miller. Who is Dr. Parker?
    Dr. Clarke. Dr. Parker was the head of research and 
development in the Office of Research and Development. He 
reported to Dr. McCarthy. He told me that he had a classified 
conversation with AFTAC. Now, that is all I know about it. I 
don't know who he talked to or whatever, but you know, that was 
a classified discussion.
    Chairman Miller. And at that point, then you understand 
that AFTAC conveyed to the Air Force--conveyed to DHS the 
nature of the programs of its programs that EML contributed to 
and that it would be disrupted by the closing of EML, is that 
right?
    Dr. Clarke. No, that is--I just testified that I don't know 
what the content of that discussion was.
    Chairman Miller. Okay.
    Dr. Clarke. Because it was a classified discussion, I was 
not involved with it.
    Chairman Miller. I assume you have security clearance. You 
could be in a classified.
    Dr. Clarke. I could have been and yet I was not invited.
    Chairman Miller. Okay. Well, it was our impression the 
reason you are sitting there today is that we understood that 
there was no one at DHS who knew more about EML than you did. 
Is that wrong?
    Dr. Clarke. Well, Mr. Chairman, before I was assigned to 
this task by my management, I had--I knew EML just by the name. 
I had no knowledge of it. But when I was assigned this 
management review task, I did due diligence and I talked to 
people in the Department of Energy who had managed this EML 
throughout the decades and you know, so I learned a great deal 
about EML. So I suppose that statement is true, that I was--I 
knew more about it than anybody else, but it was only because 
of the reviews that I was conducting for the Department.
    Chairman Miller. Okay. Did you know, from Mr. McBrearty, 
that there were programs, AFTAC and others, that he regarded as 
important to national security that would be disrupted by 
closing EML?
    Dr. Clarke. I did not talk to Mr. McBrearty, initially. I 
contacted the AFTAC Program Manager when, as I said, I was 
requested by my management to find out the effect of any change 
in EML on their programs. I talked to a Mr. Scott Smith and we 
later exchanged e-mails and it was in that conversation that--
well, let me back up. The conversation was about a proposed 
trip of an EML staff member to China. I inquired about whether 
this trip was, in fact, requested by AFTAC. In the course of 
that conversation, I mentioned that we were reviewing the EML 
and its role in S&T, and then I proceeded to the question that 
I was tasked to ask, which was, in the event that a decision 
was made to change EML, and at that time, of course, no 
decision was made of closure or otherwise, if a decision was 
made, what effect would it have on your program? Mr. Smith told 
me at that time that it would have minimal effect. He 
mentioned, if I recall correctly, five other laboratories that 
could do the work that EML was doing and that----
    Chairman Miller. And which work is that we are talking 
about?
    Dr. Clarke. We are talking about the AFTAC work and Mr. 
Smith was their Program Manager. Dr. McBrearty was the head of 
the materials division in AFTAC. This is the man directly in 
charge of the program. And that occurred in the summer, before 
the discussions that Dr. McBrearty was talking about.
    Chairman Miller. Did either Mr. McBrearty or anybody else 
discuss with you the national security implications, the 
importance for monitoring of nuclear proliferation of the 
sensors in China.
    Dr. Clarke. Yes. I don't believe this--well, I am not sure 
whether that was mentioned specifically. As Dr. McBrearty 
testified, he did come to see me in Washington. He was actually 
there, as I understand it, for a meeting at DHS and he stopped 
in and we talked for about an hour and our conversation was 
pretty much as he indicated, that he expressed his, just as in 
his testimony, he expressed his personal confidence in EML. He 
expressed his opinion that EML was a valuable resource. I gave 
him the situation. I described to him the situation that we had 
with a laboratory that was costing the Department of Homeland 
Security millions of dollars servicing a $400,000 program, as 
he described it, which took up, as I understand it, one full-
time equivalent in EML.
    It was servicing some episodic measurements for the 
National Nuclear Security Administration, which took up a few 
staff hours several times a year. That is what we discussed and 
I just put it to him, I said it is costing us a lot of money. 
Your programs are being conducted under an agreement with the 
Department of Energy, not with Homeland Security. The Economy 
Act, in the event that something is done with the laboratory, 
the Economy Act would cause us to charge you a lot more than 
you are paying now because there are no other DHS activities 
that are being supported. That was my half of the conversation.
    Chairman Miller. And did he say if you charge him more we 
are not going to do it?
    Dr. Clarke. Yes, he was astonished. He was astonished at 
the costs that I related to him from the laboratory. Now, he 
had no idea about what else was going on in the laboratory, so 
when I told him, basically, what is in my testimony, that we 
had not identified, you know, work for this laboratory after 
2006 and he recognized that this was reality. This was not my 
choice, not his; this was the Economy Act.
    Chairman Miller. My time is up and I do want to recognize 
Mr. Rothman, but a year ago I was in Hawaii on a Congressional 
delegation from this Committee, to the South Pole, to 
Antarctica. But while we were in Hawaii on the way, we saw the 
device, the floatation device that was to be towed and 
positioned. It is a massive device with radar equipment and 
other sensing equipment to be towed and positioned in the 
Bering Sea to support our technology that has yet to succeed in 
intercepting a missile and I don't know how much we are 
spending on that, exactly, but I assume it is many billions.
    So the amount of money that you are talking about for this 
lab, which would help us respond to a dirty bomb; would help us 
identify a dirty bomb before it detonated; would help us 
identify or had the potential, if we furthered the research, to 
identify if a ship was carrying a nuclear device, which strikes 
me as a much more likely threat to the United States than a 
missile from the soul of another country; that had the ability 
to tell us more about nuclear detonations in the region of the 
world where we are most worried about proliferation, that 
adjoins North Korea, India, Iran, Pakistan. It seems to me that 
no, this lab is not that expensive. Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman. Dr. Clarke, do you 
know how much the review and analysis of EML costs, this 18 
month review?
    Dr. Clarke. How much it costs?
    Mr. Rothman. Yes.
    Dr. Clarke. No, I really don't. It was some of my time. 
This was not my full-time activity. Some of Dr. Mandler's time.
    Mr. Rothman. You hired a firm called Booz Allen?
    Dr. Clarke. Yes, Mr. Hooks, our Deputy Director had a 
contract with Booz Allen, it is our ASETA contract for 
technical support and he arranged to have a team of about four 
people, but they didn't work full-time on this.
    Mr. Rothman. Can we get that for the record? Is it 
possible----
    Dr. Clarke. I don't have that information, but I am sure it 
can be provided.
    Mr. Rothman. Can you provide it?
    Dr. Clarke. I cannot provide it. It wasn't my contract.

          Limited DHS Science & Technology Directorate Funding

    Mr. Rothman. Okay. Doctor, you said that S&T was, I believe 
you were referring to S&T, was involved in an important 
national mission with limited resources.
    Dr. Clarke. Yes, sir. My personal view, but----
    Mr. Rothman. Yes. Do you think it is being under-funded by 
the Congress?
    Dr. Clarke. Congressman, that is a policy question. It is 
way above my pay grade.
    Mr. Rothman. Do you have an opinion?
    Dr. Clarke. On whether----
    Mr. Rothman. It is under-funded.
    Dr. Clarke. Let me put it this way. I attend reviews of the 
programs that we have. I look at the yearly budgeted activities 
and there are always projects that appear to be very, very 
worthwhile projects that fall above the funding level that the 
directorate has. Now, they say that is a policy issue. That is 
not for me to decide.
    Mr. Rothman. Have you ever gone to your superiors and said 
there is a program that needs to be funded and for whatever 
reason they have said we don't have the money for that?
    Dr. Clarke. No, sir. I have not had any programmatic 
responsibility while I was at Science and Technology 
directorate. I offered management advice and analysis to my 
superiors when asked.
    Mr. Rothman. Did you call those resources limited? I 
suppose it just--you meant nothing by that?
    Dr. Clarke. Well, what I meant was what I just said, that I 
see, in the budget process every year, projects that look like 
they are worthy projects that have been requested by customers 
for the Science and Technology directorate and they are not 
funded. That is what I meant.
    Mr. Rothman. But it hasn't been under your jurisdiction 
to----
    Dr. Clarke. No, not my responsibility.
    Mr. Rothman.--to comment on their being not funded?
    Dr. Clarke. No, sir.
    Mr. Rothman. I think I followed the chronology in your 
written testimony and in the remarks that you made. If I have 
got it correct, at some point new people came in and changed 
the decision that had been made with regards to EML? Is that a 
fair characterization or how would you characterize it?
    Dr. Clarke. Actually, that is a very good question and if I 
may just respond completely. I don't want to waste your time if 
you have others, but there seems to be a misunderstanding about 
the term closure. I tried to indicate before, in my previous 
remarks, that when we were using the work closure, we were 
using that with respect to an organizational entity with the 
title Environmental Measurements Laboratory because frankly, 
even that title is not appropriate for this department.
    Mr. Rothman. No, I understand. I am not asking about the 
closure.
    Dr. Clarke. Okay.
    Mr. Rothman. Whatever changes you were going to make with 
regards to EML. Apparently, some or all of those decisions were 
revoked, made null and void, find new leadership? Can you 
comment? Is that true?
    Dr. Clarke. I would say not. If you look at the value 
proposition that we identified through all of our work in New 
York, which is recorded in my testimony, and then you look at 
the decisions that will be discussed by Admiral Cohen and Mr. 
Oxford, you will see that there is a strong overlap. Supporting 
the testing and evaluation that Mr. Duecker talked was in 
there, that was part of our value proposition.
    Mr. Rothman. Excuse me, Doctor. Just refer, if I may, to 
part of your written testimony. At several different places in 
your written testimony you say that because an under secretary 
or somebody retired or resigned, new people were coming in, 
that recommendations to the Secretary were never acted upon.
    Dr. Clarke. Um-hum, that is correct.
    Mr. Rothman. So is it fair to say, then, that those 
recommendations that you made have still not been acted upon?
    Dr. Clarke. That is correct, yes. Yes. At least at the 
Secretarial level. That is correct, yes.
    Mr. Rothman. They haven't been acted upon, period? They 
haven't been effectuated.
    Dr. Clarke. That is correct.
    Mr. Rothman. Please go ahead.
    Dr. Clarke. No, I thought you were asking me, at least what 
I heard was that you said that the recommendations were revoked 
and----
    Mr. Rothman. Okay.
    Dr. Clarke.--the decision didn't go forward. What I was 
trying to emphasize was----
    Mr. Rothman. They just haven't been effectuated.
    Dr. Clarke. That is correct.
    Mr. Rothman. The 18 months' review and the recommendations 
have never been effectuated by DHS.
    Dr. Clarke. Yes, sir.
    Mr. Rothman. Thank you.

         More on the First Responder Community in New York City

    Chairman Miller. A few more questions, Dr. Clarke. One of 
the reasons that you have consistently given was the relatively 
low value assigned to EML. It had little credibility among 
first responders in New York. We asked the police to send us 
someone to testify. They sent us Deputy Commissioner Duecker 
and the gist of his testimony was we love those guys. I 
understand, from our staff, that we have talked to that they 
have talked to all the first responders; the police, the fire, 
the EMS, in New York City and adjoining areas and consistently 
they hear the same thing, that Mr. Duecker said today, which 
was that they thought that EML's work was outstanding. It was 
the gold standard in radiation monitoring and detection and 
analysis. From whom did you hear that EML had a poor 
reputation, it had little credibility among first responders?
    Dr. Clarke. From the people that we interviewed. From the 
FEMA Director in New York, from the people in the Office of 
Emergency Management. Let us be clear. What Mr. Duecker was 
talking about was the work that was supervised by Adam Hunter 
in the Countermeasure Test Bed doing testing and evaluation of 
radiation detectors, which he feels is so important for the 
City of New York. That work was never questioned. That work was 
never intended to be closed down. But that work was a very 
small part of what we are talking about here, which is the 
larger EML. The management issue that we had was what do we do 
with this larger part of the EML which is not being employed, 
with no disrespect and a great deal of respect for the 
productive activities led by Dr. Hunter.
    Chairman Miller. And did you talk to the first responders 
personally or you kind of heard it through the grape vine?
    Dr. Clarke. I didn't talk to first responders. I mean, 
there are 40,000 police in New York and----
    Chairman Miller. No, did you talk to the leadership of the 
first responders, the emergency response folks?
    Dr. Clarke. I talked to operational DHS elements in New 
York and the Office of Emergency Management, which has the job 
of coordinating all first response in New York. I did not talk 
directly to the police or the fire department.
    Chairman Miller. Okay. And can you identify, for our staff, 
after this hearing, the folks that you did talk to and if you 
had correspondence by e-mail, can we see the e-mail exchange?
    Dr. Clarke. Well, you should have it. I gave you everything 
that I had in my computer.
    Chairman Miller. Have we gotten that? Okay. Mr. Rothman.
    Mr. Rothman. I have another meeting of a bunch of folks on 
another important matter, but Mr. Chairman, I thank you for 
allowing me to ask this question. Dr. Clarke, do you have an 
opinion about as to whether the, as a consequence of the 18 
month review, the work of EML was affected positively, 
negatively, no effect, hurt their operations, slowed them down 
or not? And if so, could you share that with us, your opinion?
    Dr. Clarke. Actually, I was very pleased to hear Mr. 
Duecker's testimony in which he said that the contact and the 
support from EML to the New York Police Department greatly 
accelerated over the last year and a half and I believe that is 
in the record from his testimony. So in the area in which the 
EML was making a positive contribution, namely, the test 
evaluation work led by Dr. Hunter, that work has improved.
    Mr. Rothman. Well, he only was there for a year and a half, 
so he said for the year and a half he was there they worked 
well together.
    Dr. Clarke. I am working from memory here but we can look 
at what he said. I believe that is what I heard.
    Mr. Rothman. I think he has only been there a year and a 
half.
    Dr. Clarke. But then he did say that it had accelerated 
over that period.
    Mr. Rothman. Over this last year and a half.
    Dr. Clarke. Which is what you asked me, whether as a result 
of our actions, I could venture an opinion.
    Mr. Rothman. Well, when were the recommendations shelved or 
that you made not acted upon? If you will understand what I 
mean. I can go back into your testimony, if you don't remember.
    Dr. Clarke. I do.
    Mr. Rothman. You do?
    Dr. Clarke. Yes, the first package we submitted was in 
December.
    Mr. Rothman. Yes. Of what year?
    Dr. Clarke. Of 2005.
    Mr. Rothman. Right.
    Dr. Clarke. That was when Secretary McQueary was still the 
Under Secretary. In planning for the transition of EML, we had 
to figure out how to preserve the valuable sections of the 
laboratory and what we should do about the people that----
    Mr. Rothman. But is it fair to say that your 18 month 
review concluded in December of 2005 or no?
    Dr. Clarke. I would say so, yes.
    Mr. Rothman. Okay. And that is about the time he got his 
job, Mr. Duecker?
    Dr. Clarke. Yes.
    Mr. Rothman. Okay. So during the 18 months that preceded 
December 2005, do you have an opinion as to whether that review 
process affected EML during that time up to December 2005?
    Dr. Clarke. Yes. Now, this is a much narrower answer 
because it is with respect to the management of a small special 
purpose laboratory. In my view, it did improve. When we began 
this review, there were a number of EML staff who were 
traveling around, spending public money on behalf of their 
interests in carrying out the roles that they had formerly been 
responsible for in the Department of Energy. That was stopped. 
And my own opinion, based on a certain amount of experience in 
management is that this was good for the staff because it 
focused their attention on their new role in the Department of 
Homeland Security, rather than their old role.
    Mr. Rothman. So overall, would you say this 18 month review 
had a positive, negative or neutral effect on EML?
    Dr. Clarke. Overall, I would say, taking account of the 
stress on the staff from the lack of decision, I would say that 
it was a terrible burden on the staff.
    Mr. Rothman. Mr. Chairman, if I am allowed to come back by 
my staff, I would like to ask that question of the next panel. 
If not, Mr. Chairman, if it is possible for somebody to ask 
that same question to the next panel? I appreciate your 
testimony, Doctor, and thank you, Mr. Chairman.

                   More on DHS' Decision to Close EML

    Chairman Miller. Thank you, Mr. Rothman. Just a couple more 
questions, Dr. Clarke. Dr. Fainberg testified here this morning 
that he fought to fund various projects at EML. The global 
radiation monitoring program, their rooftop radiation sensors--
and I think others, and he testified that he consistently 
advocated for that and resigned out of frustration. And your 
testimony was, today, your written testimony is that there was 
no project manager who intended to fund EML beyond 2006. No S&T 
project manager who intended to fund EML beyond 2006 and any 
activity other than the Countermeasure Test Bed project. Now, 
Dr. Fainberg was an S&T project manager, isn't that right?
    Dr. Clarke. That is correct.
    Chairman Miller. Is his testimony incorrect?
    Dr. Clarke. Well, in part and I believe he said that he was 
never asked or he couldn't remember whether he was asked and he 
certainly was. One of the first stops when Dr. Mandler and I 
were conducting the initial review of EML was to interview him 
because he was funding most of the ongoing activities at EML. 
And at that time, he gave us some very frank evaluations of the 
worth of the projects. Now, what he said in his testimony was 
that he felt they had some value. Well, as I testified, the 
competition for funding of worthwhile projects in Science and 
Technology is very fierce and just because something has some 
value doesn't mean that it necessarily will be approved. Now, I 
personally did not make any decisions on the funding of any 
project at EML. Those decisions were made by Dr. Jerry Parker.
    Chairman Miller. Dr. Clarke, I am just struck by the fact 
that you and I seem to have heard different testimony just an 
hour or so ago. I didn't detect any ambivalence in Dr. 
Fainberg's testimony about the value of EML's programs. I 
detected in him great frustration and that certainly is 
consistent with the e-mail that he sent, resigning, in which he 
said John Clarke is reaching into my program, preventing me 
from carrying it out under the guise of exercising his 
authority over EML. He has a clear aim of eliminating as much 
of EML's work for me as he could. It goes on and on. I am sure 
you must have seen this e-mail.
    Dr. Clarke. I have seen several e-mails, yes.
    Chairman Miller. Well, this is actually to Maureen 
McCarthy.
    Dr. Clarke. Yes, sir.
    Chairman Miller. It does not show a cc to you. It does show 
to Dr. Parker and Robert Hooks and Carol Linder, but I assume 
that----
    Dr. Clarke. Dr. Parker shared this with me after the fact 
and so what he says in this e-mail is not correct.
    Chairman Miller. Is that your testimony?
    Dr. Clarke. No, I am not challenging Dr. Fainberg's 
opinions. They are his opinions. His opinions were not accepted 
by management, not accepted by Dr. Parker or Carolyn Purdy, for 
example. They were present at the final discussion that led to 
Dr. Fainberg's decision. I was not involved. I was not there. I 
was informed after the fact. So I am not challenging his 
opinions, but they are his opinions.
    Chairman Miller. Okay. It seems that that is a very 
different take, that he had opinions that you considered but 
rejected, rather than what you--it sounded to me like you said, 
a moment ago, that he candidly talked about the programs of 
questionable value.
    Dr. Clarke. We are talking about a period of about four 
months and what I just said about the initial interview between 
myself and Dr. Mandler and Tony Fainberg, and there was another 
person present, the contractor, whose name escapes me. We had a 
very frank discussion about the value of these programs. The 
issue we are talking about now occurred four months later and 
it was between Dr. Parker, Dr. Purdy and apparently Dr. 
McCarthy. I had nothing to do with that.
    Chairman Miller. Okay. Is it true that Dr. Fainberg wanted 
to continue funding and increase funding for the EML labs, for 
the EML programs? That he advocated for that?
    Dr. Clarke. Yes. He mentioned a couple of specific 
projects. A neutron ship effect which was, in fact, continued. 
It is still ongoing. He commented on the--if I remember 
correctly and I am just working from memory, he commented on 
the seminars that were held for the New York first responders. 
Those programs were continued and are continuing today. There 
was one just recently. I can't remember what else he commented 
on specifically. So those programs, that I recall, that he was 
in favor of, were, in fact, continued.
    Chairman Miller. Dr. Clarke, you said that in addition to 
the lack of credibility that the lab had, it was simply a cost 
concern and I certainly applaud every agency of government 
looking for ways to spend money and not feeling like they had 
to spend everything that they have got, but this a lab that 
total funding was $7 million. I think we heard $10 million, but 
$7 million to $10 million. You know, again, a good deal less 
than that contraption I saw in Hawaii that was hauled away to 
the Bering Sea.
    Dr. Clarke. Yes, sir.
    Chairman Miller. And according to the S&T Directorates, 
budget information in fiscal year 2005 there was $505 million 
at the end of the year in un-obligated funds, in other words 
money that had been appropriated, not spent. I applaud savings, 
frugality. In fiscal 2006, $51 million in un-obligated funds or 
money that is appropriated but not spent and right now, for 
fiscal year 2007, for $223 million in un-obligated funds or 
money that is appropriated but not spent. Are those figures 
correct?
    Dr. Clarke. That is above my pay grade. I had fiduciary 
responsibilities in one small area and that is what I was 
addressing.
    Chairman Miller. Okay. Well, I have no further questions, 
but I encourage frugality in all of the Federal Government, but 
I am sure that FEMA saved a lot of money in the time leading up 
to Katrina. In retrospect, that appears to be penny wise and 
pound foolish. And the money that the S&T Directorate saved on 
EML, I fear greatly, is going to appear at some point in the 
future to be penny wise and pound foolish if we are not ready 
to prevent and respond to a radiological attack. Thank you, Dr. 
Clarke.
    And we will take a five minute recess so everyone can 
stretch and refocus and attend anything else that needs 
attending to, and we will reconvene shortly.
    [Recess]
    Chairman Miller. The Subcommittee has reconvened. The 
hearing is in order again and I will now call our third panel, 
Admiral Jay M. Cohen, the Under Secretary for Science and 
Technology, Department of Homeland Security; and Mr. Vayl 
Oxford, Director of Domestic Nuclear Detection Office, 
Department of Homeland Security.
    And you all have been here for the other panels, so I am 
sure you know that you have five minutes to present all 
testimony. Your written testimony has already been placed in 
the record and after you have given your testimony, each Member 
of the Committee, which may be just me, will have five minutes 
to ask questions. Or Mr. Rothman may be able to return.
    And we do place everyone under oath. Do either of you have 
any objection to taking oaths, being sworn? And you also are 
entitled to counsel, if you want it. Do you have counsel or do 
you wish counsel? And both of you are already raising your 
right hand.
    [Witnesses sworn]
    Chairman Miller. Thank you. Mr. Oxford.

                                Panel 3:

  STATEMENT OF MR. VAYL S. OXFORD, DIRECTOR, DOMESTIC NUCLEAR 
       DETECTION OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Oxford. Good afternoon, Chairman Miller. I would like 
to thank the Committee for the opportunity to discuss how DNDO 
has worked with EML in the past and our plans for working with 
them in the future. I am pleased to appear in front of you with 
my colleague, Under Secretary Cohen.
    EML has been an important partner for us and support us in 
three core areas; the Securing the Cities Initiative that you 
heard about; a testing series underway at the New York 
Container Terminal, as well as providing technical reach back 
within the Northeast region. They also perform a variety of 
other technical support efforts to include the neutron ship 
effect program that we have heard about this morning.
    First let me talk about Securing the Cities. DNDO 
established the Securing the Cities initiative to equip the New 
York region State and local personnel with radiation detection 
capabilities and develop a defensive architecture for the 
protection of New York City. EML personnel, using their 
experience with radiation detection systems and the 
relationship with the New York regional law enforcement 
agencies, are supporting these federal efforts. They provide 
subject matter expertise on detection system performance to the 
regional partners and participate in the development of 
conceptive operations.
    Second, DNDO is currently testing its next generation 
systems called Advanced Spectroscopic Portals at the New York 
Container Terminal. The results of the testing done at NYCT 
will help DNDO determine if these systems are ready for full 
reproduction. EML provides the test director for this effort, 
oversees data quality management, and leads the multi-lab team 
to complete this test series.
    Third, to support the deployment of detection systems into 
the field, DNDO provides training, response protocols, and 
technical reach back capabilities to assist federal, State, and 
local law enforcement agencies and response personnel in 
resolving detector alarms. EML provides technical support to 
the deployments we have throughout the Northeast. Their 
spectroscopic expertise is available 24 hours a day, seven days 
a week to provide technical support for alarm resolution.
    In conclusion, DNDO sees EML as an important partner in our 
development, test, and deployment activities and projects. 
There will be an enduring need for EML into the foreseeable 
future.
    Mr. Chairman, I thank you for your attention. I will be 
glad to answer any questions you may have.
    [The prepared statement of Mr. Oxford follows:]
                  Prepared Statement of Vayl S. Oxford

Introduction

    Good afternoon, Chairman Miller, Ranking Member Sensenbrenner, and 
distinguished Members of the Subcommittee. I am Vayl Oxford, the 
Director of the Domestic Nuclear Detection Office (DNDO), and I would 
like to thank the committee for the opportunity to discuss how DNDO has 
worked with the Environmental Measurements Laboratory (EML) in the 
past, and our plans for working with them in the future. EML is a 
federally owned and operated DHS laboratory, located in lower 
Manhattan. It was a Department of Energy research facility with 
competencies in low level radiation detection and monitoring, and was 
transferred to DHS S&T in the Homeland Security Act of 2002.
    As Director of the Domestic Nuclear Detection Office (DNDO), my 
office is responsible for developing new technologies, as well as 
ensuring that we deploy detection systems properly across the domestic 
nuclear detection architecture. EML has been an important partner for 
us, particularly because they provide technical support in the New York 
City metropolitan area, where there are three ongoing DNDO efforts. Of 
the 25 technical staff present at EML, currently, nineteen support DNDO 
in various capacities at a level of effort equivalent to about 9.5 full 
time equivalents.
    The three core areas where we receive support from EML are: 
Securing the Cities (STC), test support at the New York Container 
Terminal (NYCT), and technical reach-back. EML provides a combination 
of regional experience with radiological and nuclear subject matter 
expertise. Specifically, EML personnel serve as the focal point in New 
York for regional federal, State and local partners, federal technical 
participants, and industry/facility operators. This has resulted in a 
strong and trusted partnering among federal, State, and local law 
enforcement agencies and the various technical Subject Matter Experts. 
Through EML, we have developed excellent working relationships with end 
users such as the Port Authorities of New York & New Jersey; New York 
Police Department; Fire Department of New York; New Jersey Office of 
Homeland Security and Preparedness, including the New Jersey State 
Police; New York Office of Homeland Security, including the New York 
State Police; New York City Office of Emergency Management; and local 
Customs and Border Protection, among others.
    I would like to take a moment to go into more detail about some of 
the specific DNDO programs that EML supports.

Securing the Cities

    To help address the threat of a radiological or nuclear attack 
against urban area targets, DNDO established the STC initiative to 
equip State and local personnel with radiation detection technologies 
and develop a defense-in-depth architecture for the protection of the 
New York City area. EML personnel, using their experience with 
radiation detection systems and their established relationships with 
New York City metropolitan area law enforcement agencies, are 
supporting the federal participation. They are also helping us 
integrate DNDO Regional Reach-back into STC activities and procedures. 
Moreover, they are providing subject matter expertise on detection 
system performance and capabilities to STC regional partners, as well 
as participating in the development of concept of operations.

Test Support at the New York Container Terminal

    DNDO is currently testing its next-generation systems called 
Advanced Spectroscopic Portals (ASP) at NYCT. The results of the 
testing at NYCT will be part of a larger data set that will help DNDO 
determine if our ASP systems provide significant improvements in 
performance over current generation systems to support the Secretary's 
certification decision, as required by the DHS FY 2007 Appropriations 
Act, prior to a full-rate production decision. As you can see, this is 
an important task, and EML provides the Test Director for this effort 
and is part of the multi-lab team that we are relying on to get this 
task completed. Other participating labs include Sandia National 
Laboratories (SNL) and Brookhaven National Laboratory (BNL).

Technical Reach-back

    We often use a four-factor formula to define success at DNDO--
successful encounter, detection, identification, and interdiction. If 
any of those factors are unsuccessful--for example, you mistakenly 
dismiss a threat--you are looking at the possibility of mission 
failure. Therefore, in support of the deployment of detection equipment 
into the field, DNDO is developing and implementing a technical reach-
back capability to assist federal, State, and local law enforcement and 
response personnel in understanding and resolving detector alarms.
    EML, along with Brookhaven National Laboratory, provides technical 
support to the deployments we have in the Northeastern region. Regional 
reach-back spectroscopists--the people who can look at alarm data and 
determine the presence or absence of a threat--are available twenty-
four hours a day, seven days a week. They work with DNDO's Joint 
Analysis Center (JAC) to provide technical support to federal, State 
and local personnel if a detection incident occurs that requires 
further investigation and analysis. The laboratory spectroscopists 
evaluate the data provided through the JAC in order to determine what 
material(s) have been detected by the equipment, and provide other 
technical assistance as needed, such as answering questions about 
equipment, commodity shipping, or radiation safety.

Other Efforts

    In addition to these three key areas, EML has played a technical 
advisory role to DNDO's Assessments Directorate. They have helped us 
with test planning and execution, assisted in the planning and 
execution of our pilot programs, and provided quality assurance and 
data quality management for our test and evaluation activities. Also, 
EML is participating in one of our Transformational Research and 
Development projects that will help DNDO determine the physical limits 
of detecting nuclear materials and devices while a cargo ship is in 
transit. This type of research may lead to detection solutions that 
enable us to push out our borders and intercept threats well before 
they reach U.S. shores.

Conclusion

    In conclusion, DNDO sees EML as an important partner in our 
research, development, and test, and deployment support activities. We 
are especially aware of the relationships they maintain with federal, 
State and local law enforcement and first responder personnel in the 
New York metropolitan region. Combined with their subject matter 
expertise in the rad/nuc field, we see those that currently support the 
DNDO mission at EML as valuable assets.
    This concludes my prepared statement. Chairman Miller, Ranking 
Member Sensenbrenner, and Members of the Subcommittee, I thank you for 
your attention and will be happy to answer any questions that you may 
have.

                      Biography for Vayl S. Oxford
    Mr. Vayl Oxford was appointed Director of the Domestic Nuclear 
Detection Office (DNDO) in September 2005, reporting to the Secretary 
of the Department of Homeland Security with responsibility for the 
establishment of the new, jointly staffed office and for directing all 
activities associated with the organization.
    Prior to his appointment to DHS, Mr. Oxford served as the Director 
for Counterproliferation (CP) at the National Security Council.
    Before his assignment to the White House, Mr. Oxford was the Deputy 
Director for Technology Development at the Defense Threat Reduction 
Agency (DTRA).
    From 1993 to 1998, Mr. Oxford served at the Defense Nuclear Agency, 
and, then, the Defense Special Weapons Agency as the Director for 
Counterproliferation.
    During his Air force tenure, Mr. Oxford held several positions 
associated with aircraft and weapons development, and war plans 
analysis in Europe and the Pacific. He also served as an Assistant 
Professor of Aeronautics at the United States Air Force Academy from 
1982 to 1986.
    Mr. Oxford is a graduate of the United States Military Academy and 
the Air Force Institute of Technology and the recipient of numerous 
military awards. He received the DOD ACTD Technical Manager of the Year 
Award in 1997. He was appointed to the Senior Executive Service in 1997 
and received the Meritorious Executive Presidential Rank Award in 2002.

    Chairman Miller. Thank you, Mr. Oxford. Admiral Cohen.

STATEMENT OF ADMIRAL JAY M. COHEN, UNDER SECRETARY, SCIENCE AND 
  TECHNOLOGY DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Admiral Cohen. Chairman Miller, it is a great honor, as 
always, to appear before the Science and Technology Committee 
and I wanted to let you know personally how much I appreciate 
the professionalism of the Committee staff in this matter.
    Science and technology has and will change the world and it 
holds the potential to make our nation safer. I grew up in the 
shadow of the EML building in Lower Manhattan and fully 
appreciate both its strategic location and its capabilities. I 
assumed my duties as Under Secretary for Science and 
Technology, Department of Homeland Security on the 10th of 
August. You may remember that was the day of the London liquid 
explosives plot. Immediately thereafter, on the 11th of August, 
I established a rapid response team similar to what I had done 
in Navy and then after 9/11.
    The very first thing we did was to convene and at that time 
we did not have a means to have a secure video teleconference, 
so we just had a conference call with all of my organic labs, 
including the Environmental Measurements Laboratory and all of 
the Department of Energy laboratories, which the enabling 
legislation so wisely allowed me to leverage. I challenged them 
with their diverse backgrounds and talents, especially the DOE 
labs, with all the class chemistry and physics capabilities to 
help us solve the problems associated with liquid explosives on 
the aircraft.
    Within two months those efforts allowed TSA to establish 
the 3-1-1 rule, which is the three ounces in one bag per 
person, and get our aircraft back to some normalcy. I found 
that, in August, with the bipartisan support of the Congress 
and the Administration, I immediately went about aligning my 
directorate for success as I believe the enabling legislation 
wisely envisioned. I established what I call the Four Gets. I 
had to get the organization right; I had to get the people 
right; I had to get the books right; and I had to get the 
content right. And along with these I established what I 
believe to be the principle threats or as I call it, the Four 
Bs; bombs, border, bugs and business where business represents 
the underlying cyber that enables our whole society and our 
economy.
    The organization was approved the first week of September 
2006. The president's fiscal year 2008 budget was realigned to 
the new six division customer outward focused model that I put 
in place. And in October, the Congress, in a bipartisan way, 
asked me to realign the fiscal year 2007 Department of Homeland 
Security appropriations law to the new model. The status of my 
directorate at that time was clearly documented in fiscal year 
2007 legislation. The Transportation Security Lab's assignment 
to the Department of Homeland Security S&T versus TSA was in 
doubt. The universities' Centers of Excellence were at risk, 
moral was low and good people were leaving my directorate.
    Congress was on the verge of cutting my fiscal year 2007 
budget by $200 million. As I previously testified, Mr. 
Chairman, it took great courage on both sides of the aisle in 
an election year to restore those monies, as you did so late in 
the year and I am very appreciative of that. Over the last 
eight months, we have, with the help of Congress, largely 
achieved the Four Gets. Included in that, government service 
scientists and engineers who had left my directorate last 
spring, last fall asked to come back and we welcomed them with 
open arms and they are now part of my team.
    The final piece of that effort was bringing the full 
integration of both my organic DHS labs with national 
Department of Energy labs, as well as university Centers of 
Excellence, to provide the two pillars of basic research so 
important to our national safety. I have some charts, should 
you ask questions, that will allude to how we have done that.
    Finally, Vayl Oxford and I are military and naval academy 
graduates who understand the meaning of leadership 
responsibility and accountability. For all my DHS S&T mandated 
missions, the buck stops with me. People are the most valuable 
asset. The Nation is in crisis in science and technology. No 
one knows that better than the Science and Technology Committee 
and I salute your efforts in the stand and so many other 
initiative areas and we want to be part of that.
    I regularly meet with and listen to all of my people. I 
have worked to make amends to them for any perception that they 
were not fully valued and appreciated at the Department of 
Homeland Security. I can assure you they are. Mr. Chairman, 
Members of the Committee, we can and will do better for the 
Nation. I welcome your oversight and your questions and I will 
look forward to working with your Committee and your staff. 
Thank you, sir.
    [The prepared statement of Mr. Cohen follows:]
                   Prepared Statement of Jay M. Cohen
    Good Morning Chairman Miller, Ranking Member Sensenbrenner, and 
distinguished Members of the Subcommittee. It is an honor to appear 
before you today to update you on the Department's plans for the 
Environmental Measurements Laboratory (EML).
    The Science and Technology (S&T) Directorate is committed to 
serving our customers, the components that comprise the Department of 
Homeland Security (DHS)--and their customers--the hardworking men and 
women on the front lines of homeland security, especially the first 
responders, who need ready access to technology and information to 
perform their jobs more efficiently and safely. I am honored and 
privileged to serve with the talented scientists, engineers and other 
professionals who support these dedicated Americans in our shared 
mission to secure our homeland and defend our freedoms. Many of those 
talented people work at our organic DHS laboratories, the 
Transportation Security Lab, Plum Island Animal Disease Center, and 
EML.
    EML is a federally owned and operated DHS laboratory, located in 
lower Manhattan. It was a Department of Energy research facility with 
competencies in low level radiation detection and monitoring, and was 
transferred to DHS S&T in the Homeland Security Act of 2002. EML has 
currently 35 federal employees. Twenty-five are technical with 
backgrounds in radiation health physics, dosimetry, atmospheric 
transport, radio-chemistry, and nuclear spectroscopy. There are also 
ten administrative support employed at EML. Since coming to DHS, EML 
staff has provided support to the S&T Directorate and, since its 
inception in April 2005, the Domestic Nuclear Detection Office (DNDO).
    DNDO was established pursuant to Homeland Security Presidential 
Directive 14 and Section 872 of the Homeland Security Act of 2002 (P.L. 
107-296). Section 501 of the Security and Accountability For Every 
(SAFE) Port Act of 2006 (P.L. 109-347) statutorily established DNDO, 
and amended the Homeland Security Act of 2002 removing all radiological 
or nuclear responsibilities and authorities from the Under Secretary 
for Science and Technology. Although the laboratory is managed within 
the S&T Directorate, EML has applied its staff's radiation detection 
expertise and operational testing experience primarily to support DNDO 
programs. Currently, nineteen EML staff members support DNDO at level 
of effort equivalent to about 9.5 full-time employees. DNDO director 
Vayl Oxford and I have discussed DNDO's requirements and have agreed 
that this is approximately the long-term workload that EML can expect 
in support of DNDO programs.
    EML staff has also been involved with radiation and explosives 
detection Test & Evaluation (T&E) involving a number of federal, State, 
and local end-users; and with standards development, including program 
management and working group activities. As the Homeland Security Act 
of 2002 also assigned me the responsibility of coordinating all T&E 
activities of the Department, together with my DHS S&T Directorate T&E 
Director and EML leadership, I am personally and actively working to 
identify an appropriate T&E role for the remainder of the EML 
workforce. The President's Budget Request for FY 2008 reflects my 
expectation that DNDO will continue to require the current level of 
support from EML, and that we will be able to productively utilize the 
remainder of the workforce in a meaningful DHS T&E role.
    EML currently leases 96,000 sq. ft. in the GSA building at 201 
Varick Street New York, NY. The leased space includes basement storage, 
a four bay garage and loading dock, and a rooftop platform. The current 
lease expires at the end of FY 2008 and the rent is expected to 
increase in 2009. I will work to ``right size'' both leased floor space 
at the current EML location and a sustainable technical and 
administrative workforce that will ensure EML's new role in supporting 
both DHS S&T and DNDO in making the Nation safer. EML will be fully 
integrated into my organic and DOE laboratory governance model designed 
to align my supporting laboratories to the current DHS S&T Directorate 
organization, similar to the alignment being accomplished with DHS S&T 
university Centers of Excellence. I greatly respect the invaluable 
contribution that the intellectual capital our S&T workforce of 
scientists, engineers and associates at EML (and all other S&T 
activities supporting DHS missions) make through discoveries and 
inventions to equip our DHS components and First Responders with 
cutting edge technology to protect America well into the future.
    I appreciate the many demands on the taxpayers' precious dollars. 
You have my commitment that the S&T Directorate will be wise stewards 
of the public monies you have provided to serve the best interests of 
the Nation by investing in the talent and technology that will provide 
America with a sustainable capability to protect against acts of terror 
and other high-consequence events.
    Members of the Subcommittee, I thank you for the opportunity to 
meet with you today to discuss this important matter. I welcome your 
interest and oversight. I look forward to working with you and your 
dedicated staff throughout the 110th Congress.

                       Biography for Jay M. Cohen
    Department of Homeland Security, Under Secretary for Science and 
Technology, Jay M. Cohen is a native of New York. He was commissioned 
in 1968 as an Ensign upon graduation from the United States Naval 
Academy. He holds a joint Ocean Engineering degree from Massachusetts 
Institute of Technology and Woods Hole Oceanographic Institution and 
Master of Science in Marine Engineering and Naval Architecture from 
MIT.
    His early Navy assignments included service on conventional and 
nuclear submarines. From 1985 to 1988 Cohen commanded USS HYMAN G. 
RICKOVER (SSN 709).
    Following command, he served on the U.S. Atlantic Fleet as a senior 
member of the Nuclear Propulsion Examining Board, responsible for 
certifying the safe operation of nuclear powered ships and crews.
    From 1991 to 1993, he commanded USS L.Y. SPEAR (AS 36) including a 
deployment to the Persian Gulf in support of Operation DESERT STORM.
    After Spear, he reported to the Secretary of the Navy as Deputy 
Chief of Navy Legislative Affairs. During this assignment, Cohen was 
responsible for supervising all Navy-Congressional liaisons.
    Cohen was promoted to the rank of Rear Admiral in October 1997 and 
reported to the Joint Staff as Deputy Director for Operations 
responsible to the President and DOD leaders for strategic weapons 
release authority.
    In June 1999, he assumed duties as Director Navy Y2K Project Office 
responsible for transitioning all Navy computer systems into the new 
century.
    In June 2000, Cohen was promoted in rank and became the 20th Chief 
of Naval Research. He served during war as the Department of the Navy 
Chief Technology Officer (a direct report to the Secretary of the Navy, 
Chief of Naval Operations and Commandant of the Marine Corps). 
Responsible for the Navy and Marine Corps Science and Technology (S&T) 
Program (involving basic research to applied technology portfolios and 
contracting), Cohen coordinated investments with other U.S. and 
international S&T providers to rapidly meet war fighter combat needs. 
After an unprecedented five and a half year assignment as Chief of 
Naval Research, Rear Admiral Cohen retired on February 1, 2006.
    Under Secretary Cohen was sworn in to his current position at the 
Department of Homeland Security on August 10, 2006.

                               Discussion

                         DHS' Assessment of EML

    Chairman Miller. Thank you, Admiral Cohen. I do have a few 
questions for each of you. Mr. Oxford, in your testimony this 
morning, mixed testimony. It was skills, the strengths, the 
capabilities of the Environmental Measurements Laboratory and 
obviously there were some people, at least within the S&T 
Directorate, who did not believe that the lab had any unique 
skills, it did not have any qualities, that its programs could 
be easily replicated in other labs and then others on the first 
panel this morning who took, in my hearing, a very different 
point of view. What is your own assessment of the Environmental 
Measurements Laboratory?
    Mr. Oxford. We have, Mr. Chairman, found them to be very 
adaptable and responsive to the changing landscape. When I was 
first standing up DNDO, the view in S&T at the time was that 
the Countermeasures Test Bed would draw upon them to continue 
the efforts. We actually contemplated moving the 
Countermeasures Test Bed to DNDO because it had been 
predominately a rad nuke related activity with EML providing 
some of the support, but the vision of S&T at the time was to 
broaden that into explosives and chemical support work within 
that region so we chose to leave Countermeasures Test Bed 
within S&T and just leverage that.
    As we revisited the needs within DNDO, we realized we 
needed strong State and local partnerships and regional 
partnerships and with the emergence of things like the test 
series, the Securing the Cities initiatives I talked about, we 
recognized the presence of EML and the support they had already 
provided in the past was a very valuable activity. I had heard 
some rumblings that there were studies underway within S&T to 
maybe change that landscape. I cautioned against that. I even 
had a short discussion with the Secretary, suggesting that this 
needed to be fully vetted before any action was taken.
    I later found that there was a briefing and it was in 
preparation, I think you heard reference to it this morning, to 
make a recommendation from the Under Secretary at the time to 
go to the Secretary to possibly make a recommendation to close 
the lab. Within that briefing, when I got a copy of it, it said 
that there had been no near-term requirements identified for 
the laboratory and specifically cited DNDO as one of those 
entities that had no near-term requirements. I had not been 
personally consulted at the time, so that was when I wrote the 
letter to the acting Under Secretary at the time, outlining 
what we thought our specific needs were, which equated at the 
time between nine and twelve people to provide the support to 
the three programs I mentioned in my opening statement. So we 
have found them to be more than competent in the changing 
landscape that we confront right now in the New York region.
    Chairman Miller. And I know it sounds redundant, but they 
had skills, they expertise that was important to your office, 
important to what you were doing?
    Mr. Oxford. Absolutely. I am a big believer in bringing 
together the combination of technologists and operators, and by 
having people that have the trust of the New York City 
officials, as you heard from Assistant Commissioner Duecker 
this morning, the bridge that the technical expertise--there 
are vendors in this world, as you probably know, with the 
committee oversight that you have, that will sell almost 
anything to anybody and the operators are particularly prone to 
that kind of marketing. EML helps provide the bridge between my 
office and the New York City officials who are deluged with 
these kind of marketing schemes to provide technical assistance 
on a daily basis to make sure that as we develop systems and 
they acquire systems, they get the right equipment, so it was 
very valuable.
    Chairman Miller. Okay. And we have heard different 
testimony about how EML was regarded by first responders. I 
understand that your office works closely with the first 
responders, the first responder community, particularly in New 
York. Do you know, based on your own dealings with the first 
responder community, how EML is viewed by New York's first 
responders?
    Mr. Oxford. As you say, Mr. Chairman, we work very closely 
with the State and local community up there. I have developed 
personal relationships through the Securing the Cities 
relationship with the Port Authority of New York and New 
Jersey, the Office of Emergency Management, the fire 
department, as well as regional partners in New York State and 
New Jersey State, as well as Connecticut. This is all under the 
umbrella of the Securing the Cities and the police 
commissioner.
    However, I can tell you that they call upon EML on a daily 
basis to provide the technical consultation that I have talked 
about, not only in the development of systems, but also in 
looking at a regional deployment architecture where detection 
systems may be the most efficient and effective, as well as to 
provide this technical support; if they ever do get alarms, how 
fast can we respond?
    Chairman Miller. Thank you very much, Mr. Oxford, and I 
hope that, under your leadership, we can make EML an asset to 
our national security and our homeland security.
    Admiral Cohen, thank you also for being here and I know 
that we talked this morning about what has happened in the past 
with respect to EML and the problems and I certainly hope that 
you can get things on track. You apparently share the view that 
things have gone off track with respect to EML and that EML is 
a value to the Nation's security and homeland security. Am I 
correct in taking your testimony today as a pledge to make the 
EML an asset, a contributor to our response to the threats that 
we face?
    Admiral Cohen. Absolutely, Mr. Chairman. If I may just 
follow up a little bit on Mr. Oxford's testimony of the value 
of EML to New York and also to homeland security and the first 
responders in the tri-state area, when I was Chief of Naval 
Research, about a month after the tragic events of 9/11, I was 
asked by the Police Commissioner of New York to come up to his 
office, look at Ground Zero, which of course, we did, and as 
Mr. Oxford has indicated, so many people offered so many 
solutions; Radiacs, and we saw this after 10 August where I was 
inundated with handheld devices for liquid explosives.
    In the enabling legislation here at DHS, not only am I the 
executive for Science and Technology for the Department, but 
you have given me two department-wide responsibilities in 
addition, which I value very much. One is the Test and 
Evaluation Executive setting the policy throughout the 
Department and the other is for standards, working alongside 
the National Institute of Standards and Technology. This is an 
area that was not widely exercised before my arrival as part of 
the realignment that we talked about and we have that all in 
writing in what I call the STORM, the Science and Technology 
Regulations Manual, so everyone knows what their 
responsibilities are, what the chain of command is, that for 
the liquid explosives, we asked people to come in.
    We sent them to Sequoia, New Mexico shortly after 10 
August. We actually did standardized testing and no surprise, I 
think Mr. Oxford would agree with these statistics. We found 
about half didn't work even though they looked very good on 
CNN. And the other half, some variation of those were easily 
spoofed, putting a liquid dye in a clear liquid. When the 
liquid was clear, they could determine what it was, but once 
you put a dye in it, they couldn't. And so about a month after 
9/11, I was invited, as Chief Naval Research, in a naval 
research laboratory right here on the Potomac reported to me at 
that time to go to New York.
    The police commissioner takes me into a room, table about 
twice this size, and it is just full of handheld Radiac, these 
are radiation detection devices. And he said Admiral, he said 
we--and Mr. Chairman, you have to remember at this point, the 
anthrax attacks are continuing. You don't know when the next 
shoe is going to fall. And so he says we want to equip all of 
our squad cars with a Radiac and he said we don't know what to 
buy. Admiral, would you help me? And I said absolutely. I said 
if you will just have a qualified patrolman, whoever you want, 
bring these to the Potomac Naval Research Lab. I will test them 
compared to what the manufacturer says they are going to do and 
I will let you know. I will not, however, make recommendation.
    We did that for the New York City Police Department, so it 
is no surprise to me, when I came into this new job, not having 
prior knowledge of EML, to know that we had a group there where 
when you looked at the concentration of people, the efforts 
that DHS and other activities government agencies are making, 
the high probability of the threat to the tri-state area, that 
this was a jewel that we needed to maintain, but as been 
testified to earlier, we needed to work with EML so that they 
could support both DNDO and its very important areas which I no 
longer, based on the fiscal year 2007 legislation, have 
responsibility for nuclear radiological. All those reside with 
DNDO. And in my area, especially if test and evaluation for 
many of the different sensors that we are bringing to bear, as 
Mr. Oxford indicated, we want to expand that not just from 
nuclear, but to include chem, bio and explosives, which are my 
responsibility. So I am committed to it, sir, but it does take 
time to change the culture of a land.
    Chairman Miller. Admiral Cohen, unless you just especially 
want to show us your charts, I am happy to excuse the two of 
you now.
    Admiral Cohen. Thank you, sir.
    Mr. Oxford. Thank you.
    Chairman Miller. I want to thank all the witnesses. I have 
to say I am disappointed in the way the EML has been regarded 
in the last few years. I am glad that I am able to express 
disappointment rather than outrage, as we piece together, 
months after a radiological attack, what might have been done 
different. And I hope that the errors that we have made at this 
point we can correct and I appreciate the commitment by Mr. 
Oxford and Admiral Cohen to correct those errors. My able 
staff, the able staff of our committee, when they heard me 
talking about the contraption that I saw in Hawaii, through the 
wonders of the Internet were able to find out what the 
contraption was. And it is massive. Admiral, I don't have a 
chart for you.
    It is a heavy lift vessel, the Blue Marlin, and on a deck 
and that is where I saw it. I saw it on the Blue Marlin. The 
Sea-based X-band radar, as it completed the photograph, as it 
completed the 1600 mile journey from Corpus Christi, Texas and 
then it would go on from there to the Bering Sea. According to 
Wikipedia and so we assume that no one had gone on Wikipedia 
and changed the numbers. At that point, this one contraption 
had cost $900 million. That does not count the annual operating 
cost. That is the radar to support a missile defense system 
that we have never made work. It seems to me that it is very 
unlikely that our nation will be struck by a nuclear weapon 
fired from a missile from the soil of another country.
    It is not unlikely because we will intercept it out of the 
air, that we will hit that bullet with a bullet. It is unlikely 
because the Nation that fired the missile would cease to exist 
because of retaliation. They say that if you owe a bank $20,000 
you have got a problem; if you owe a bank $200 million, the 
bank has got a problem. It appears that if your program is $7 
million a year and not many people have heard of it, it pretty 
much doesn't matter what it does, what its value is, that 
program is at risk. If you spend $7 billion on a program, 
almost despite the evidence that that program is never going to 
do anything, it never goes away.
    I hope that we do go forward and recognize that this lab, 
although small, although before this hearing it may be even 
with this hearing, obscure, does play an important role in our 
ability to respond to the most likely threats we face. To 
prepare for, we hope, we pray to prevent and then to respond to 
the most likely threats that we face; a dirty bomb; God forbid, 
a nuclear device, not fired from the soil of another country, 
but in a freighter, smuggled into the United States in a truck. 
And that the neglect that we have shown to this lab in the next 
three years will not be something that we review again, 
wondering what if, whether these three years or four years of 
neglect would not have led to a different result. But thank all 
of you for being here and thank you for your testimony today.
    Admiral Cohen. Mr. Chairman, if I just may, what you see 
here is a picture of a meeting that we had. I believe it is the 
first ever meeting on the 1st of May, just two days ago. These 
are all of the lab directors, principals only of all the DOE 
labs, as well as my organic labs. You can see Adam Hunter. He 
is standing just to the left of the fellow in the light shirt. 
Adam is the Acting Director of EML. He, Transportation Security 
Lab, my End Back and my Plum Island labs were sitting at the 
table. Thirty-five people, 35,000 people. They had the same 
vote and we are now aligned as we have aligned the Centers of 
Excellence and we appreciate so much North Carolina's 
contribution to that, so that we are supporting, in the basic 
research area, those critical initiatives to make the Nation 
safer. So this meeting was scheduled long before we had 
knowledge of this hearing. It is the last piece of the puzzle, 
in my alignment, and now it is up to me, working with Vayl, to 
make it a reality and we look forward to working with you, sir.
    Chairman Miller. Thank you, Admiral Cohen. I am delighted 
that you were able to use the easels that you brought here this 
morning.
    [Whereupon, at 1:05 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                        Documents for the Record

         1.  E-mail message on the decision to close EML from John 
        Clarke to Scott Smith (September 14, 2005).

         2.  E-mail message on Dr. Fainberg's resignation from Tony 
        Fainberg to Maureen McCarthy (April 4, 2005).

         3.  Top Down Review of EML PowerPoint presentation by Marc 
        Mandler and John Clarke (October 28, 2004).

         4.  E-mail messages on EML FY05 Budget including John Clarke, 
        Mitchell Erickson, Catherine Klusek, etc. (April 2005).

         5.  Summary for MAPEP Survey of DOE Quality Assurance 
        Stakeholders.

         6.  Mr. Joseph Bruno, New York City Office of Emergency 
        Management letter to Dr. Charles McQueary, Under Secretary for 
        Science and Technology, U.S. Department of Homeland Security 
        (December 21, 2004).

         7.  E-mail messages on the Technology Liaison Office (TLO) 
        between Kevin Clark and John Clarke (November 21, 2005).

         8.  E-mail on Clarke re: EML including Maureen McCarthy, Huban 
        Gowadia and Adam Hutter (April 4, 2005).

         9.  Department of Homeland Security, Environmental 
        Measurements Laboratory (EML) Communications Plan (November 3, 
        2007).

        10.  Closure of EML Human Resource Plan, Alyce Bridges (June 
        30, 2005).
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





</pre></body></html>
